APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion of the United States Court of
Appeals for the Seventh Circuit,
First Midwest Bank v. City of Chicago,
No. 18-3049 (February 23, 2021) ................ App-1
Appendix B
Memorandum Opinion and Order of the
United States District Court for the
Northern
District
of
Illinois,
First Midwest Bank v. City of Chicago,
No. 14 C 9665 (August 29, 2018) .............. App-26
Memorandum Opinion and Order of the
United States District Court for the
Northern
District
of
Illinois,
LaPorta v. City of Chicago, No. 14 C 9665
(September 29, 2017)............................... App-112
Appendix C
Order of the United States Court of
Appeals for the Seventh Circuit Denying
Rehearing, First Midwest Bank v. City of
Chicago, No. 18-3049 (April 14, 2021) .... App-170

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
No. 18-3049
________________
FIRST MIDWEST BANK, Guardian of the Estate of
Michael D. LaPorta, a disabled person,
v.

Plaintiff-Appellee,

CITY OF CHICAGO,
Defendant-Appellant.
________________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 14 C 9665 — Harry D. Leinenweber, Judge.
________________
Argued December 10, 2019
Decided February 23, 2021
ECF No. 58
________________
Before SYKES, Chief Judge, and KANNE, Circuit
Judge. 1

The Honorable Amy Coney Barrett, Associate Justice of the
Supreme Court of the United States, was a judge of this court and
member of the panel when this case was submitted but did not
participate in the decision and judgment. The appeal is resolved
by a quorum of the panel pursuant to 28 U.S.C. § 46(d).
1

App-2
OPINION
SYKES, Chief Judge. Patrick Kelly shot his friend
Michael LaPorta in the head during an argument at
the end of a night of drinking together. LaPorta’s
injuries left him severely and permanently disabled.
Kelly, a Chicago police officer, was off duty and not
acting under color of state law at the time of the
shooting. LaPorta nevertheless sued the City of
Chicago under 42 U.S.C. § 1983, which provides a
federal remedy against state actors who deprive
others of rights secured by the federal Constitution
and laws. He sought damages for the injuries he
suffered at Kelly’s hands.
The theory of the case was novel. LaPorta claimed
that the City had inadequate policies in place to
prevent the shooting—or more precisely, that the
City’s policy failures caused Kelly to shoot him. He
identified several policy shortcomings: the failure to
have an “early warning system” to identify officers
who were likely to engage in misconduct, the failure to
adequately investigate and discipline officers who
engage in misconduct, and the perpetuation of a “code
of silence” that deters reporting of officers who engage
in misconduct. A jury found the City liable and
awarded $44.7 million in damages. The City moved for
judgment as a matter of law, and the district court
denied the motion.
We reverse. LaPorta’s injuries are grievous, but
his legal theory for holding the City liable is deeply
flawed. Whatever viability it might have had under
state tort law (we’re skeptical, but there’s no need to
make a prediction), it has no foundation whatsoever in
constitutional law. When Kelly shot LaPorta, he was

App-3
not acting as a Chicago police officer but as a private
citizen. LaPorta claimed that he was deprived of his
due-process right to bodily integrity. But it has long
been settled that “a State’s failure to protect an
individual against private violence … does not
constitute a violation of the Due Process Clause.”
DeShaney v. Winnebago Cnty. Dep’t of Soc. Servs., 489
U.S. 189, 197 (1989). We remand with instructions to
enter judgment for the City.
I. Background
Late one night in January 2010, LaPorta went
drinking with his friend Patrick Kelly, a Chicago
police officer. It’s undisputed that Kelly was off duty
at the time of these events. After patronizing two bars,
the friends went to Kelly’s house. At some point Kelly
began hitting his dog. LaPorta yelled at him to stop
and said he was leaving. Kelly then shot LaPorta in
the head. 2 LaPorta survived but suffered traumatic
brain injuries that left him severely and permanently
disabled. He is unable to walk, has cognitive deficits,
and cannot use his right arm. He is blind in one eye
and deaf in one ear.
LaPorta filed suit in state court against the City
of Chicago and other defendants; initially he raised
only state-law claims for relief. LaPorta’s father, as his
son’s guardian, substituted as plaintiff in October
2011, and three years later he amended the complaint
to add a claim against the City under § 1983 for
At trial the City disputed LaPorta’s account and instead
argued that LaPorta shot himself with Kelly’s gun. Because we
are reviewing a denial of a motion for judgment as a matter of
law, we view the evidence in LaPorta’s favor. Ruiz-Cortez v. City
of Chicago, 931 F.3d 592, 601 (7th Cir. 2019).
2

App-4
violation of LaPorta’s right to due process. The City
removed the case to federal court. First Midwest Bank
later replaced LaPorta’s father as his guardian and
was substituted as the plaintiff. For ease of reference,
we continue to refer to LaPorta as the plaintiff.
The City moved to dismiss, arguing that the
complaint failed to allege a cognizable constitutional
violation and thus could not support municipal
liability under Monell v. Department of Social
Services, 436 U.S. 658 (1978). Relying largely on
Gibson v. City of Chicago, 910 F.2d 1510 (7th Cir.
1990), the judge denied the motion. After discovery the
City moved for summary judgment, noting again the
absence of any constitutional violation. Citing
DeShaney, 489 U.S. at 196–97, the City argued that it
had no constitutional duty to protect LaPorta from
Kelly’s private violence. The judge denied the motion,
again relying on Gibson. LaPorta v. City of Chicago,
277 F. Supp. 3d 969, 986–87 (N.D. Ill. 2017).
At trial LaPorta testified about the shooting and
its aftermath. Kelly invoked his Fifth Amendment
right to remain silent. Beyond the transactional
witnesses, most of LaPorta’s case focused on Kelly’s
history of civilian and internal disciplinary complaints
and evidence about the Chicago Police Department’s
policies—or more specifically, its policy failures.
LaPorta identified three general policy deficiencies:
(1) the City failed to implement an “early warning
system” to identify problem officers; (2) it failed to
adequately investigate and discipline officers who
engaged in misconduct; and (3) it fostered a “code of
silence” that deterred reporting of officers who
engaged in misconduct.

App-5
The theory of LaPorta’s case was that these policy
failures produced a deep-rooted culture of tolerating
and covering up officer misconduct, which led Kelly to
believe that he could shoot LaPorta with impunity.
LaPorta’s counsel told the jury that the case was about
more than the violation of LaPorta’s constitutional
rights; it was about the need for systemic reform in the
Chicago Police Department.
More specifically, in closing argument LaPorta’s
counsel repeatedly argued that by finding the City
liable, the jury could help to bring about desperately
needed institutional reform in the Chicago Police
Department and improve the relationship between the
police and citizens. Here’s a taste:
No more distinctions between “us” and
“them,” citizens and police. Let’s make the
streets safer for both by bringing back the
trust. Why is there no trust? Because there’s
no transparency. Why is there no
transparency? Because it’s an “us versus
them” attitude. And we need to bridge that.
And when I say “we,” I actually mean you.
You have the power to do it. … If you should
find that the City did, indeed, through
Patrick Kelly violate Michael LaPorta’s
constitutional rights and if you find that it
engaged in custom[ary], widespread policies,
then you have that power to bring forth that
change.
Real reforms can only begin after a judgment
is brought forth. Without that, there is no
justice. Real changes can be made, a new
order and trust can be restored to the

App-6
community that both citizens and police
officers share. Yes, your task is monumental.
It’s big.
Again and again, counsel exhorted the jury to
seize the opportunity to reform the Chicago Police
Department by holding the City liable:
[D]on’t we want that change in culture? Of
course, we would pass the buck to someone
else. We would leave it up to the City, but you
heard from a city councilman and from the
mayor that time and again, attempts to
reform from within have failed. …
You are now in the driver[’s] seat, and you
have the ability to police the police.
To kickstart a transformation this large, counsel
urged the jury to set the damages award high enough
to send a message and bring about needed reform. To
that end, he argued that the Chicago Police
Department had
a longstanding culture and attitude that
won’t get changed unless there’s a massive
mandate. It can’t be little.
The message has to be sent: You cannot do
this again, whether it’s with Patrick Kelly or
any of the other officers that rise above him
in the number of complaints because there
are many, many more officers out there,
ladies and gentlemen, that are worse than
Patrick Kelly.

App-7
The City objected to this mode of argument, but
the judge overruled the objection. 3 LaPorta’s counsel
ended his closing argument by reading a fictitious
letter that he had written purporting to be from
LaPorta to his parents and brother. The “letter”
apologized for being a burden and expressed deep pain
that he would never be able to marry, have children,
or take over the family business. The City objected to
this line of argument too, but the judge overruled the
objection.
The substantive jury instruction on the dueprocess claim told the jury to first consider whether
LaPorta proved by a preponderance of the evidence
that Kelly “intentionally or with reckless indifference”
shot him. If he proved this, then the jury was
instructed to consider whether he also proved “each of
the following things”:
One, prior to Michael D. LaPorta’s shooting,
the City of Chicago had one or more of the
following policies: Failing to maintain an
early warning system that would identify
officers who would engage in misconduct in
the future; maintaining a code of silence in
which officers failed to report misconduct or
covered up the misconduct of other officers;
That was error. This form of argument is plainly improper. In
asking the jury to award damages high enough to deter future
misconduct rather than compensate LaPorta for his injuries,
counsel was asking the jury to award punitive damages. But a
municipality is immune from punitive damages. City of Newport
v. Fact Concerts, Inc., 453 U.S. 247, 271 (1981). The judge
acknowledged the error when ruling on the City’s motion for
remittitur but concluded that it was harmless.
3

App-8
failing to terminate officers who engaged in
serious misconduct; failing to discipline
officers who engaged in misconduct; and/or
failing to investigate allegations of officer
misconduct.
The second thing—there’s two. One or more
of the policies described in Paragraph 1
caused Patrick Kelly to intentionally or with
reckless indifference shoot Michael D.
LaPorta.
Three, the Chicago City Council knew that
because one or more of the policies described
in Paragraph 1 existed and was allowed to
continue, it was highly predictable that its
off-duty officers would violate the bodily
integrity of persons they came into contact
with because there was a pattern of similar
constitutional violations or it was highly
predictable even without a pattern of similar
constitutional violations.
The instruction concluded: “If you find that Plaintiff
has proved each of these things by a preponderance of
the evidence, then you must decide for Plaintiff and go
on to consider the question of damages.”
The jury returned a verdict for LaPorta and
awarded $44.7 million in damages. The jurors
concluded that two of the City’s policies—its failure to
maintain an adequate early warning system and its
failure to adequately investigate and discipline
officers—caused Kelly to shoot LaPorta.
The City moved for judgment as a matter of law
under Rule 50(b) of the Federal Rules of Civil

App-9
Procedure. Relying again on DeShaney, the City
argued that it had no constitutional duty to protect
LaPorta from Kelly’s private violence. The judge
denied the motion, concluding that DeShaney was
inapplicable. The City also moved for a new trial based
on several trial errors, including the “send a message”
closing argument by LaPorta’s counsel and his
fictitious letter purporting to be from LaPorta to his
family. The judge denied that motion as well. This
appeal followed.
II. Discussion
The City challenges the denial of its motion for
judgment as a matter of law. We review that ruling de
novo. Ruiz-Cortez v. City of Chicago, 931 F.3d 592, 601
(7th Cir. 2019). The City also renews its request for a
new trial based on counsel’s improper remarks during
closing argument. Because we agree with the City’s
first argument, we have no need to reach the second.
Section 1983 states, in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of
any State or Territory or the District of
Columbia, subjects, or causes to be subjected,
any citizen of the United States or other
person within the jurisdiction thereof to the
deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress … .
The statute thus provides a remedy for violations
of federal rights committed by persons acting under

App-10
color of state law. To prevail on a § 1983 claim, the
plaintiff must prove that “(1) he was deprived of a
right secured by the Constitution or laws of the United
States; and (2) the deprivation was visited upon him
by a person or persons acting under color of state law.”
Buchanan-Moore v. County of Milwaukee, 570 F.3d
824, 827 (7th Cir. 2009).
An action is not “under color of state law” merely
because it is performed by a public employee or officer;
the action must be “related in some way to the
performance of the duties of the state office.” Barnes
v. City of Centralia, 943 F.3d 826, 831 (7th Cir. 2019)
(quotation marks omitted).
A municipality is a “person” under § 1983 and
may be held liable for its own violations of the federal
Constitution and laws. Monell, 436 U.S. at 690–91.
Note the qualifier: “its own violations.” Municipal
liability under Monell carries an important limitation:
the statute does not incorporate the common-law
doctrine of respondeat superior, so a municipality
cannot be held liable for the constitutional torts of its
employees and agents. Id.
Accordingly, to prevail on a § 1983 claim against
a municipality under Monell, a plaintiff must
challenge conduct that is properly attributable to the
municipality itself. Bd. of Cnty. Comm’rs v. Brown,
520 U.S. 397, 403–04 (1997). Specifically, the plaintiff
must prove that the constitutional violation was
caused by a governmental “policy or custom, whether
made by its lawmakers or by those whose edicts or acts
may fairly be said to represent official policy.” Monell,
436 U.S. at 694. We have interpreted this language to
include three types of actions that can support

App-11
municipal liability under § 1983: “(1) an express policy
that causes a constitutional deprivation when
enforced; (2) a widespread practice that is so
permanent and well-settled that it constitutes a
custom or practice; or (3) an allegation that the
constitutional injury was caused by a person with final
policymaking authority.” Spiegel v. McClintic, 916
F.3d 611, 617 (7th Cir. 2019) (quotation marks
omitted).
A Monell plaintiff must also prove that the policy
or cus-tom demonstrates municipal fault. Brown, 520
U.S. at 404. When a municipality takes action or
directs an employee to take action that facially
violates a federal right, municipal fault is easily
established. Id. at 404–05. In contrast, where (as here)
the plaintiff alleges that the municipality has not
directly violated his rights but rather has caused an
employee to do so, a “rigorous standard[] of culpability
… applie[s] to ensure that the municipality is not held
liable solely for the actions of its employee.” Id. at 405.
In this situation, the plaintiff must demonstrate that
the municipality’s action “was taken with ‘deliberate
indifference’” to the plaintiff’s constitutional rights.
Id. at 407. This is a high bar. Negligence or even gross
negligence on the part of the municipality is not
enough. Id. A plaintiff must prove that it was obvious
that the municipality’s action would lead to
constitutional violations and that the municipality
consciously disregarded those consequences. Id.
Finally, a Monell plaintiff must prove that the
municipality’s action was the “moving force” behind
the federal-rights violation. Id. at 404. Like the
heightened showing of municipal fault, this rigorous

App-12
causation standard guards against backsliding into
respondeat superior liability. Id. at 405. To satisfy the
standard, the plaintiff must show a “direct causal link”
between the challenged municipal action and the
violation of his constitutional rights. Id. at 404.
These requirements—policy or custom, municipal
fault, and “moving force” causation—must be
scrupulously applied in every case alleging municipal
liability. As the Supreme Court has cautioned:
Where a court fails to adhere to rigorous
requirements of culpability and causation,
municipal liability collapses into respondeat
superior liability. As we recognized in Monell
and have repeatedly reaffirmed, Congress did
not intend municipalities to be held liable
unless deliberate action attributable to the
municipality directly caused a deprivation of
federal rights.
Id. at 415.
These principles are settled and familiar. So too is
the requirement that the plaintiff must initially prove
that he was deprived of a federal right. That’s the first
step in every § 1983 claim, including a claim against a
municipality under Monell. A Monell plaintiff must
establish that he suffered a deprivation of a federal
right before municipal fault, deliberate indifference,
and causation come into play.
LaPorta’s claim fails at this first step. He did not
suffer a deprivation of a right secured by the federal
Constitution or laws. It’s undisputed that Kelly was
not acting under color of state law when he shot
LaPorta. His actions were wholly unconnected to his

App-13
duties as a Chicago police officer. He was off duty. He
shot LaPorta after they spent a night out drinking
together and had returned to his home to continue
socializing at the end of the evening. Kelly’s actions
were those of a private citizen in the course of a purely
private social interaction. This was, in short, an act of
private violence.
LaPorta’s claim is premised on the Fourteenth
Amendment right to due process—specifically, the
due-process liberty interest in bodily integrity. But he
overlooks that the Due Process Clause is a restraint
upon governmental action: “No State shall … deprive
any person of life, liberty, or property, without due
process of law … .” U.S. CONST. amend. XIV (emphasis
added). And as the Supreme Court explained more
than three decades ago, the Clause does not impose a
duty on the state to protect against injuries inflicted
by private actors.
[N]othing in the language of the Due Process
Clause itself requires the State to protect the
life, liberty, and property of its citizens
against invasion by private actors. The
Clause is phrased as a limitation on the
State’s power to act, not as a guarantee of
certain minimal levels of safety and security.
It forbids the State itself to deprive
individuals of life, liberty, or property without
“due process of law,” but its language cannot
fairly be extended to impose an affirmative
obligation on the State to ensure that those
interests do not come to harm through other
means.
DeShaney, 489 U.S. at 195.

App-14
DeShaney involved a due-process claim on behalf
of a young boy who was abused by his father. Id. at
191. County social workers became aware of
suspicious injuries and other signs of abuse but took
no action to remove the child from his father’s custody.
Id. After the latest and most severe beating left the
boy permanently disabled, the father was arrested
and convicted of child abuse. The boy’s mother then
sued the county and the social workers under § 1983
alleging that they violated her son’s right to due
process. Id. at 193.
The Supreme Court rejected the claim, explaining
that the purpose of the Due Process Clause is “to
protect the people from the State, not to ensure that
the State protect[s] them from each other.” Id. at 196.
The Court accordingly held that the state does not
have a due-process duty to protect against acts of
private violence. Id. at 196–97. And “[b]ecause … the
State had no constitutional duty to protect [the child]
against his father’s violence, its failure to do so—
though calamitous in hindsight—simply does not
constitute a violation of the Due Process Clause.” Id.
at 202.
The Court recognized two limited exceptions to
this general rule. First, the state has an affirmative
duty to provide for the safety of a person it has taken
into its custody involuntarily. Id. at 199–200. This is
often referred to as the “special relationship”
exception. See Buchanan-Moore, 570 F.3d at 827.
When a state takes a person into its custody and
renders him involuntarily unable to care for himself,
it has “a corresponding duty” to provide for his basic
needs; a violation of this duty “transgresses the

App-15
substantive limits on state action set by the Eighth
Amendment and the Due Process Clause.” DeShaney,
489 U.S. at 200. The special-relationship exception did
not apply in DeShaney for the obvious reason that the
injured child was not in state custody. Id.
DeShaney’s second exception arises only by
implication from a brief observation in the Court’s
opinion. The Court explained that although the county
and its social workers “may have been aware” of the
dangers the child faced in his father’s home, they
“played no part in the[] creation” of those dangers. Id.
at 201. This language is generally under-stood as a
second exception to DeShaney’s general rule, one that
applies when the state “affirmatively places a
particular individual in a position of danger the
individual would not otherwise have faced.” Doe v.
Village of Arlington Heights, 782 F.3d 911, 916 (7th
Cir. 2015) (quoting Buchanan-Moore, 570 F.3d at 827).
The DeShaney exception for state-created dangers
is narrow. Id. at 917. A plaintiff must show that the
state affirmatively placed him in a position of danger
and that the state’s failure to protect him from that
danger was the proximate cause of his injury.
Buchanan-Moore, 570 F.3d at 827. To satisfy the
proximate-cause requirement, the state-created
danger must entail a foreseeable type of risk to a
foreseeable class of persons. Id. at 828. A generalized
risk of indefinite duration and degree is insufficient.
Id. at 828–29. Finally, because the right to protection
against a state-created danger arises from the
substantive component of the Due Process Clause, the
state’s failure to protect the plaintiff must shock the
conscience. Id. at 827–28. “Only ‘the most egregious

App-16
official conduct’ will satisfy this stringent inquiry.”
Jackson v. Indian Prairie Sch. Dist. 204, 653 F.3d 647,
654 (7th Cir. 2011) (quoting County of Sacramento v.
Lewis, 523 U.S. 833, 846 (1998)).
Unless one of these limited exceptions applies, the
state has no duty under the Due Process Clause to
protect against private violence. DeShaney made that
clear, and we have frequently applied its teaching. For
example, in Wilson v. Warren County, 830 F.3d 464
(7th Cir. 2016), the plaintiffs sued a county and
several of its officials alleging that they failed to
prevent private persons from seizing their property.
Citing DeShaney, we explained that the Due Process
Clause “does not require a state to protect citizens
from private acts unless the state itself creates the
danger.” Id. at 469. The exception for state-created
dangers did not apply in Wilson, so we affirmed a
summary judgment for the defendants. Id. at 470.
Notably, we rejected the plaintiffs’ Monell claim
against the county because it had no constitutional
duty to protect against the private wrongful conduct.
Id.
Latuszkin v. City of Chicago, 250 F.3d 502 (7th
Cir. 2001), involved a § 1983 claim arising out of a
drunk-driving accident by an off-duty Chicago police
officer. After attending a private party with other
officers in a police-station parking lot, the intoxicated
officer drove home in his own vehicle and on the way
struck and killed a pedestrian. Id. at 503. The victim’s
husband filed a Monell claim against the City, but the
district court dismissed it. Id. at 504. We affirmed,
citing DeShaney and explaining that “[g]overnmental
bodies … generally have no constitutional duty to

App-17
protect individuals from the actions of private
citizens.” Id. at 505. Because the intoxicated officer
“was acting as a private citizen, rather than as a police
officer, when he killed [the pedestrian], none of her
federally protected rights were violated.” Id.
In Wilson-Trattner v. Campbell, 863 F.3d 589 (7th
Cir. 2017), the plaintiff filed a § 1983 claim against a
county sheriff and several of his deputies seeking
damages for their failure to adequately protect her
from her abusive ex-boyfriend, also a sheriff’s deputy.
She reported her ex-boyfriend’s conduct to the sheriff’s
department, and the defendants simply advised her to
seek a protective order. Id. at 592. Local police
eventually arrested the ex-boyfriend after a
particularly explosive episode at her home. The victim
then sued the sheriff and his deputies in their
individual and official capacities; she alleged that
their inadequate response to her complaints caused
her ex-boyfriend to continue abusing her with
impunity. Id. at 593. Applying DeShaney, we held that
the sheriff and his deputies had no constitutional duty
to protect her from her ex-boyfriend’s private acts of
violence; we noted as well that the exception for statecreated dangers did not apply. Id. at 593–96.
We could describe other examples, but it’s enough
for present purposes to say that we have repeatedly
applied DeShaney’s holding that the state has no dueprocess duty to prevent harm from private actors
unless one of the limited exceptions applies. See, e.g.,
D.S. v. E. Porter Cnty. Sch. Corp., 799 F.3d 793, 798–
99 (7th Cir. 2015) (applying DeShaney to bar a claim
that a school failed to protect the plaintiff from
bullying); King ex rel. King v. E. St. Louis Sch. Dist.

App-18
189, 496 F.3d 812, 815–17 (7th Cir. 2007) (applying
DeShaney to bar a claim that a school failed to protect
a student from a private attack while walking home);
Waubanascum v. Shawano County, 416 F.3d 658,
665–71 (7th Cir. 2005) (applying DeShaney and
rejecting a claim that a county violated a foster child’s
right to due process when the child was abused by a
foster parent to whom the county had issued a
“courtesy license” at the request of the child’s county
of residence); Estate of Allen v. City of Rockford, 349
F.3d 1015, 1019–23 (7th Cir. 2003) (applying
DeShaney and holding that police officers who
arrested the plaintiff and transported her to the
hospital had no constitutional duty to protect her from
a doctor’s forcible collection of urine and blood samples
for treatment purposes); Hernandez v. City of Goshen,
324 F.3d 535, 537–39 (7th Cir. 2003) (applying
DeShaney to bar a claim that a police department
caused a workplace shooting by failing to act on a
reported threat); Windle v. City of Marion, 321 F.3d
658, 661–63 (7th Cir. 2003) (applying DeShaney and
holding that police officers had no constitutional duty
to protect the plaintiff from sexual abuse by her
teacher).
This rule is not controversial. All circuits read
DeShaney the same way. See, e.g., Martinez v. City of
Clovis, 943 F.3d 1260, 1271 (9th Cir. 2019); Estate of
Romain v. City of Grosse Pointe Farms, 935 F.3d 485,
491 (6th Cir. 2019); Graves v. Lioi, 930 F.3d 307, 319
(4th Cir. 2019); M.D. ex rel. Stukenberg v. Abbott, 907
F.3d 237, 248–49 (5th Cir. 2018); Matthews v.
Bergdorf, 889 F.3d 1136, 1143 (10th Cir. 2018); L.R. v.
Sch. Dist. of Philadelphia, 836 F.3d 235, 241–42 (3d
Cir. 2016); Kruger v. Nebraska, 820 F.3d 295, 302–03

App-19
(8th Cir. 2016); Matican v. City of New York, 524 F.3d
151, 155 (2d Cir. 2008); Rivera v. Rhode Island, 402
F.3d 27, 34–35 (1st Cir. 2005); Butera v. District of
Columbia, 235 F.3d 637, 647–50 (D.C. Cir. 2001);
Wyke v. Polk Cnty. Sch. Bd., 129 F.3d 560, 566–67
(11th Cir. 1997).
LaPorta resists application of DeShaney by
shifting the focus to the Monell framework for
municipal liability. The judge agreed with this
approach, reasoning that because the jury found that
the City’s policy failures “caused” Kelly to shoot
LaPorta, DeShaney was inapplicable. Other judges in
the Northern District of Illinois have issued similar
rulings. See Wagner v. Cook Cnty. Sheriff’s Office, 378
F. Supp. 3d 713, 714–15 (N.D. Ill. 2019); Falcon v. City
of Chicago, No. 17 C 5991, 2018 WL 2716286, at *3–5
(N.D. Ill. June 6, 2018); Cazares v. Frugoli, No. 13 C
5626, 2017 WL 1196978, at *15 (N.D. Ill. Mar. 31,
2017); Obrycka v. City of Chicago, No. 07 C 2372, 2012
WL 601810, at *5–6 (N.D. Ill. Feb. 23, 2012).
These decisions reflect a basic misunderstanding
of the relationship between Monell and DeShaney.
Monell and DeShaney are not competing frameworks
for liability. The two cases concern fundamentally
distinct subjects. Monell interpreted § 1983 and
addressed the issue of who can be sued under the
statute; the Court held that a municipality is a
“person” under § 1983 and may be liable—just like an
individual public official—for its own violations of
federal rights. 436 U.S. at 694. Monell did not address
the substance of any right under the federal
Constitution or laws. It has nothing to say on that
subject. It’s a statutory-interpretation decision.

App-20
DeShaney, on the other hand, addressed the
substance of the constitutional right to due process.
489 U.S. at 194–202. The Court interpreted the Due
Process Clause and defined its scope, strictly limiting
the circumstances under which a privately inflicted
injury is cognizable as a due-process violation.
LaPorta had the burden to prove a constitutional
violation in addition to the requirements for
municipal liability under Monell. The judge was
wrong to brush DeShaney aside. 4
Applying DeShaney, as we must, it’s clear that the
City is entitled to judgment as a matter of law. It had
no due-process duty to protect LaPorta from Kelly’s
act of private violence. LaPorta has never argued that
one of the DeShaney exceptions applies. Rightly so; he
was not in state custody at the time of his injury, and
no evidence supports the exception for state-created
dangers. And because LaPorta was not deprived of his
right to due process, the City cannot be held liable for
his injuries under § 1983—and that is so even if the
requirements of Monell are established. Simply put,
LaPorta suffered a common-law injury, not a
constitutional one.

The judge’s view that DeShaney is inapplicable to Monell
claims is particularly perplexing because DeShaney itself
involved a Monell claim against the county and its social-services
agency. The Supreme Court had no need to address Monell
liability. Because the county and its social-services agency had
no constitutional duty to protect the child from his father, there
was no underlying violation of a federal right. DeShaney v.
Winnebago Cnty. Dep’t of Soc. Servs., 489 U.S. 189, 202 n.10
(1989).
4

App-21
As we’ve noted, the judge relied heavily on our
decision in Gibson, both at summary judgment and in
rejecting the City’s motion for judgment as a matter of
law. Gibson involved a Chicago police officer who was
found mentally unfit for duty and placed on medical
leave. 910 F.2d at 1512. The Chicago Police
Department prohibited him from carrying his gun or
exercising any police authority; it also collected his
star, shield, and identification card—but not his gun.
Id. Months later the officer fatally shot his neighbor.
Id. at 1513. The victim’s estate filed suit under § 1983
against the City of Chicago and several police officers
alleging Fourth Amendment and due-process
violations. Id. The complaint included a Monell claim
against the City premised on allegations that the
police department failed to implement “adequate
procedures to deal with the recovery of firearms and
ammunition issued to police officers who had been
placed on medical leave due to mental unfitness.” Id.
The case came to us in an unusual procedural
posture. The defendants moved to dismiss, arguing
that the officer was not acting under color of state law
at the time of the shooting. The judge denied the
motion but limited discovery to the color-of-law issue.
Id. at 1514. When the defendants later moved for
summary judgment, the estate objected to
consideration of anything other than whether the
officer acted under color of state law. Because the
judge had limited discovery to that issue alone, the
estate had no opportunity to engage in discovery on
other merits issues.
Without addressing the estate’s procedural
objection, the judge concluded that the officer did not

App-22
act under color of state law, so the shooting victim had
not been “seized” in violation of the Fourth
Amendment. Id. at 1515. The judge also “considered
and rejected the possibility that the City had a
constitutional duty to protect the [victim]” as a matter
of due process. Id. (quotation marks omitted).
Accordingly, the judge entered summary judgment for
the defendants on all claims. Id.
We agreed that the undisputed evidence showed
that the officer was not acting under color of state law
at the time of the shooting. 910 F.2d at 1516–19. But
we faulted the judge for considering and resolving
other issues on summary judgment after strictly
limiting discovery to that single topic. Id. at 1520. So
we addressed the estate’s claims as if we were
reviewing a dismissal on the pleadings under Rule
12(b)(6) of the Federal Rules of Civil Procedure rather
than a summary judgment. Id. Applying the Rule
12(b)(6) standard, we concluded that the estate’s
factual allegations about the City’s deficient policies
were sufficient to permit the Monell claim to proceed.
Id. at 1520–21.
In a footnote we explained that our holding was
“quite compatible with DeShaney”:
In DeShaney, the Supreme Court held that
county authorities who had learned that a
child was at risk of being abused by his father
committed no constitutional violation by their
failure to act to prevent the abuse. The Court
reasoned that nothing in the due process
clause requires the state to protect its
citizens’ life, liberty, and property “against
invasion by private actors.” [DeShaney, 489

App-23
U.S. at 195] (emphasis supplied). In
determining that the county officials had not
violated any constitutional right of the victim,
the Court expressly noted that the state had
“played no part in [the] creation [of the
dangers faced by the victim], nor did it do
anything to render him more vulnerable to
them.” Id. at [201]. It is in this important
respect that the present case differs
considerably from DeShaney. At this point in
the litigation, where we are obliged to accept
as true the plaintiff’s factual allegations, the
City is alleged to have played a part in both
creating the danger (by training and arming
[the officer]) and rendering the public more
vulnerable to the danger (by allowing [him] to
retain his weapon and ammunition after it
otherwise stripped him of his authority as a
policeman).
Id. at 1521 n.19. In short, we held that the estate’s
factual allegations were sufficient to permit the
Monell claim to proceed beyond the pleading stage
under the DeShaney exception for state-created
dangers.
This case is different. LaPorta never invoked the
DeShaney exception for state-created dangers. He
neither pleaded nor attempted to prove up a statecreated danger, and the jury was not instructed on the
legal elements of that type of due-process violation.
So the judge simply misapplied Gibson. We did
not hold that a Monell claim is exempt from
DeShaney’s general rule that the state has no
constitutional duty to prevent acts of private violence.

App-24
Nor could we. Nothing in Gibson suspended the
DeShaney rule for Monell plaintiffs.
The judge’s misreading of Gibson led him to
overlook a fundamental defect in LaPorta’s Monell
claim, both at summary judgment and in rejecting the
City’s posttrial motion. Under DeShaney the City had
no due-process duty to protect LaPorta from Kelly’s
act of private violence.
LaPorta suggests that his novel theory against
the City finds support in Thomas v. Cook County
Sheriff’s Department, 604 F.3d 293 (7th Cir. 2010), but
that case does not help him. Thomas involved a
pretrial detainee who died in jail from pneumococcal
meningitis. A jury cleared the individual defendants
but found the sheriff’s department liable for failing to
adequately respond to Thomas’s medical needs. Id. at
305. We concluded that “a municipality can be held
liable under Monell, even when its officers are not,
unless such a finding would create an inconsistent
verdict.” Id. The verdicts in Thomas were easily
reconcilable. The jury found that the sheriff’s
department was deliberately indifferent to the
detainee’s medical needs—a constitutional violation—
because its policies for processing medical-request
forms were clearly insufficient. That finding was not
at all inconsistent with its exoneration of the
individual officers. Id. Nothing in our decision in
Thomas lifted the plaintiff’s burden to prove a
predicate constitutional violation. To the contrary,
because pretrial detainees have a constitutional right
to medical care while in custody, the sheriff’s
department could be found liable for violating that

App-25
right even though the individual defendants were not.
Id. at 301 & n.2.
LaPorta also relies on Glisson v. Indiana
Department of Corrections, 849 F.3d 372 (7th Cir.
2017) (en banc), but that case too is distinguishable.
There, a state prisoner died from acute renal failure.
We concluded that a jury could find that the prison’s
failure to enact a coordinated-care policy for prisoners
with chronic illnesses amounted to deliberate
indifference to the high likelihood that prisoners
would die. Id. at 382. It did not matter that no
individual medical provider could be found liable; the
problem was that “no one was responsible for
coordinating [Glisson’s] overall care.” Id. at 375.
Again, nothing in our decision in Glisson removed the
plaintiff’s burden to
prove an underlying
constitutional violation. The case involved the
prisoner’s Eighth Amendment right to adequate
medical care. Id. at 378; see Farmer v. Brennan, 511
U.S. 825, 832 (1994).
This case is fundamentally different. Here there
was no constitutional violation because the City had
no due-process duty to protect LaPorta from Kelly’s
private violence.
III. Conclusion
LaPorta’s case is tragic. His injuries are among
the gravest imaginable. His life will never be the
same. But § 1983 imposes liability only when a
municipality has violated a federal right. Because
none of LaPorta’s federal rights were violated, the
verdict against the City of Chicago cannot stand. We
REVERSE and REMAND for entry of judgment for the
City.

App-26
Appendix B
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
________________
No. 14 C 9665
Judge Harry D. Leinenweber
________________
FIRST MIDWEST BANK, as Guardian of the Estate and
Person of Michael D. LaPorta, a disabled person,
v.

Plaintiff,

CITY OF CHICAGO, a Municipal Corporation,
Defendant.
________________
August 29, 2018
ECF No. 561
________________
MEMORANDUM OPINION AND ORDER
After seven years of litigation and a month-long
trial, a jury found in Plaintiff Michael LaPorta’s favor
on his claim that the City of Chicago had de facto
policies that sustained serious flaws in its police force,
namely: failing to investigate officers accused of
misconduct; failing to discipline officers who deserved
it; and failing to maintain an adequate Early Warning
System to identify and correct problematic behavior.
The jury further found that the last two of those
policies constituted the moving force behind a January
2010 incident in which CPD Officer Patrick Kelly shot
LaPorta in the head, causing severe and lasting

App-27
injuries. For these injuries, the jury awarded LaPorta
$44.7 million in damages. Before the Court are the
parties’ post-trial motions. Going forward, this opinion
presumes familiarity with this Court’s other rulings in
this case, especially LaPorta v. City of Chicago, 277 F.
Supp. 3d 969 (N.D. Ill. 2017) (summary judgment
ruling) and LaPorta v. City of Chicago, 102 F. Supp.
3d 1014 (N.D. Ill. 2015) (motion to dismiss ruling).
I.

CHICAGO’S
RENEWED
MOTION
JUDGMENT AS A MATTER OF LAW

FOR

Federal Rule of Civil Procedure 50(a) allows a
district court to enter judgment against a party who
has been fully heard on an issue during a jury trial if
“a reasonable jury would not have a legally sufficient
evidentiary basis to find for the party on that issue.”
FED. R. CIV. P. 50(a)(1). Under the stringent
judgement-as-a-matter-of-law standard, the court
construes the facts strictly in favor of the party that
prevailed at trial. Schandelmeier-Bartels v. Chi. Park
Dist., 634 F.3d 372, 376 (7th Cir. 2011) (citations
omitted). “Although the court examines the evidence
to determine whether the jury’s verdict was based on
that evidence, the court does not make credibility
determinations or weigh the evidence.” Id. (citations
omitted). However, the court disregards all evidence
favorable to the moving party that the jury is not
required to believe. Harvey v. Office of Banks & Real
Estate, 377 F.3d 698, 707 (7th Cir. 2004) (citing Reeves
v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 151
(2000)). At bottom, the court determines whether a
rational jury could have found for the plaintiffs. Id.
(citation omitted).

App-28
A. Failure to Prove Constitutional Violation
The City recycles its first JMOL argument from
the summary judgment stage, contending once more
that LaPorta’s theory of liability cannot get off the
ground given that under DeShaney v. Winnebago
County Department of Social Services, 489 U.S. 189,
201-02 (1989), local governments cannot be liable for
failing to prevent due process violations effected by
private actors. Simply enough, the City contends that
Kelly acted only as a private citizen during the
evening in question, and as such his coincidental
profession plays no part in the liability analysis. But
as the Court already described, this misses the mark
by mischaracterizing LaPorta’s claim. See LaPorta v.
City of Chicago, 277 F. Supp. 3d 969, 986-87 (N.D. Ill.
2017) (denying summary judgment to City on same
argument). LaPorta’s Monell claim asserts that it is
the City itself—and not Kelly—that supplies the “color
of law” requirement under § 1983. See Gibson v. City
of Chicago, 910 F.2d 1510, 1519 (7th Cir. 1990)
(describing analogous Monell claim). Under LaPorta’s
theory, “the City’s policies caused the harm.” Cazares
v. Frugoli, No. 13 C 5626, 2017 WL 1196978, at *14
(N.D. Ill. Mar. 31, 2017). Such a claim is not
appropriately considered under DeShaney, and as
such the City’s objection predicated upon the same
cannot defeat LaPorta’s claim nor entitle the City to
judgment as a matter of law. See Obrycka v. City of
Chicago, No. 07 C 2372, 2012 WL 601810, at *5-6
(N.D. Ill. Feb 23, 2012) (St. Eve., J.).
B. Evidence of Kelly’s Reckless Indifference
The City argues in the alternative that even if
DeShaney does not apply, LaPorta failed to produce

App-29
sufficient evidence that Kelly acted intentionally or
with reckless indifference when he shot LaPorta.
(Chicago also argues that the “reckless indifference”
standard has no place in the due process analysis; the
Court dispatches this argument below at Part II.A.2.)
First,
LaPorta
presented
expert
testimony
undermining Kelly’s version of events (Balash Tr.
1879:12-1880:11 (explaining that contrary to Kelly’s
statement that LaPorta picked up and cocked the gun,
said model cannot be manually cocked in the manner
Kelly described), 1887:6-21 (expressing disbelief at
Kelly’s story that his firearm had twice malfunctioned
during Kelly’s recruit school training)), and
concluding that the shooting was no suicide (id.
1892:1-1912:13 (describing the evidence and
concluding that Kelly shot LaPorta)). The jury also
heard evidence from Defendant’s witnesses that
undermined the case for this being an accidental
shooting. (See Brudenell Tr. 2689:18-21 (agreeing that
the shooting did not occur as a result of someone
dropping the gun); Wyant Tr. 2641:19-2642:3
(testifying that he had never heard of a Sig Sauer
P226—the model of Kelly’s firearm—misfiring).)
Moreover, Kelly took the stand. On cross-examination,
LaPorta’s counsel asked whether Kelly removed the
gun from its holster, held it in his hand, and then
pulled the trigger and shot LaPorta in the head. Kelly
responded by invoking the Fifth. As this is a civil case,
the jury was permitted to take an adverse inference
from Kelly’s invocation. See Hillman v. City of
Chicago, 834 F.3d 787, 793 (7th Cir. 2016) (citations
omitted); see also infra at Part II.B.1.
Beyond all this, the City objects that LaPorta
never painted a clear enough picture of Kelly’s alleged

App-30
motive in carrying out this shooting. But LaPorta did
not have to prove motive to prevail in this case, and
the circumstantial evidence adduced at trial certainly
forms a sufficient basis for a reasonable jury to find
that Kelly deliberately or with reckless indifference
shot LaPorta in the head. See Harvey, 377 F.3d at 707.
C. Failure to Maintain an EWS
LaPorta presented substantial evidence of the
City’s failure to maintain an Early Warning System.
This evidence included the findings from an April 2016
report put out by the City-created Police
Accountability Task Force (“PATF”), which noted that:
No dedicated system exists to identify and
address patterns or practices. While they are
charged with investigating police misconduct,
IPRA [the Independent Police Review
Authority] and BIA [the Bureau of Internal
Affairs] historically have not engaged in
efforts to identify officers whose records
suggest repeated instances of misconduct or
bias. They also historically have not engaged
in efforts to identify broader patterns or
practices either of misconduct. The persistent
failure of IPRA and BIA to examine pattern
and
practice
evidence
substantially
contributes to the police accountability
vacuum in Chicago.
(Tr. 2356:18-2357:3.) Alderman Moore, a member of
the Chicago City Council, concurred with these
findings. (Moore Tr. 887:23-888:15.) In the same vein,
a January 2017 report issued by the DOJ and the U.S.
Attorney’s Office for the Northern District of Illinois
observed that:

App-31
The lack of a functional early intervention
system coupled with inadequate supervision
has placed officers and members of the public
at risk. These longstanding systemic
deficiencies in CPD’s early intervention
systems have prevented CPD from taking two
steps that are crucial to ensuring officer
safety and wellness as well as ensuring
policing that is effective and lawful. First,
CPD does not adequately and accurately
identify officers who are in need for this type
of action and, second, CPD does not
consistently or sufficiently address officer
behavior where CPD identifies negative
patterns. Because of these failures, CPD
officers are able to engage in problematic
behavior with impunity which can and do
escalate into serious misconduct. This has
dramatic consequences for the public.
(Tr. 2249:1-15.)
Chicago takes issue with the PATF and DOJ
reports, arguing that neither zeroes in on the proper
time frame—that being the few years preceding the
2010 shooting, when perhaps some intervention could
have changed Kelly’s behavior and thus averted
LaPorta’s injury all together. This rejoinder is not as
effective as Chicago hopes. First, as described in
greater detail below, the PATF report reviewed CPD
records dating back to 2007, and the DOJ report
referred in sweeping terms to “longstanding” and
“systemic” deficiencies in CPD policies. (See infra at
Part II.B.3.) And second, LaPorta developed evidence
beyond these reports that back up his contention that

App-32
Chicago lacked an effective EWS during the pertinent
years. Tisa Morris, the former chief administrator for
the Office of Professional Standards, testified that
during her tenure from 2004 to 2007, she was not
aware of any system in place to identify and discipline
repeat offenders. (Id. 1163:18-20, 1176:25-1177:1,
1229:24-1230:9.) Lou Reiter, LaPorta’s policepractices expert, backed up the ineffective-EWS
conclusion as well, stating that during his 25 years
working with CPD, he observed “historic and systemic
deficiencies . . . in the areas of administrative
investigations, or CR investigations, and not
implementing an early warning system and of
condoning or encouraging the code of silence.” (Reiter
Tr. 306:8-17.)
Chicago also tries to rebut LaPorta’s evidence by
explaining that the City maintained two systems
during the pertinent time frame: The Behavioral
Intervention System and the Personal Concerns
Program, which together comprised an EWS. But
Reiter cast doubt on the efficacy of these systems,
explaining that they were used very rarely. (See, e.g.,
Reiter Tr. 328:22-329:10 (testifying that because the
odds of being put into BIS were “negligible,” BIS
provided officers no deterrent for bad conduct).)
Ultimately, this, as well as Chicago’s other objections
to the strength of LaPorta’s case, go to the weight of
the evidence presented. But weighing the evidence is
a task for the jury, and one that it reasonably carried
out. The Court will not second-guess their
determination. That is not the Court’s role. See
Schandelmeier-Bartels, 634 F.3d at 376. Chicago’s
renewed JMOL Motion is denied in relevant part.

App-33
D. Failure to Discipline
In the second version of LaPorta’s Monell claim,
he charges that Chicago had a widespread practice of
failing to discipline adequately those officers who
committed misconduct. The jury was persuaded by
this theory also. As above, the City claims the jury
spoke in error, that LaPorta failed to adduce sufficient
evidence to permit a reasonable jury to find in his
favor on this theory. Once more, the Court disagrees.
The PATF report presented at trial painted a
bleak picture of CPD’s disciplinary practices. In many
cases, the report found that officers are simply not
disciplined for sustained complaints. (Tr. 2349:14-21.)
That owes in part to an “opaque, drawn-out, and
unscrutinized disciplinary process” that frequently
enables officers “to avoid meaningful consequences.”
(Id. 2349:18-21.) The report also called that process
“haphazard,” “unpredictable,” and “arbitrary.” (Id.
2245:6-7, 2354:18-19.) Contrary to Chicago’s objection
described above, the report focused on the relevant
time frame, examining data from 2007 through 2010.
(Id. 2349:6-2360:17; Emanuel Statement Tr. 249:3251:24.) Beyond this, LaPorta held out evidence of
Kelly’s disciplinary record as an exemplar. Kelly
accumulated eighteen CRs in the five years prior to
the shooting. But according to Reiter, Kelly was not
properly disciplined for any of these complaints.
(Reiter Tr. 318:2-15.)
From this evidence, a reasonable jury could
conclude that the City had a practice of failing to
discipline officers adequately. That is all LaPorta
must now show to prevail against the City’s renewed
JMOL Motion. The Motion is denied in relevant part.

App-34
E. Failure to Investigate
Finally, LaPorta argued, and the jury agreed, that
the City had a widespread practice of not only failing
to discipline malfeasant officers, but also of failing to
investigate misconduct in the first place. LaPorta’s
statistics expert testified that 46% of the complaints
filed from 2004 to 2011 concluded with a finding of “no
affidavit” and were not investigated. (Rothman
Tr. 2199:7-21.) Chicago rebuts that this number is
unfairly inflated: State law blocks investigation into
such unsupported complaints, Chicago explains, so
the City’s nonfeasance results from legal proscription
and not from some anti-investigatory policy. But
50 ILCS 725/6, the state law Chicago relies upon,
clearly applies only in the absence of an on-point
collective bargaining agreement between the City and
the Fraternal Order of the Police. There is such an
agreement here. (Reiter Tr. 387:12-19 (describing the
collective bargaining agreement).) That agreement
loosens the state law stranglehold on police-conduct
investigations by permitting the chief administrators
of IPRA and BIA to override the affidavit requirement
where such override is deemed “necessary and
appropriate.” (Id.) And according to Former CPD
Commander Eugene Roy, CPD supervisors can
recommend that investigations proceed even when the
complaint is not supported by sufficient evidence. (Roy
Tr. 955:7-10.) These workarounds permit Chicago to
investigate no-affidavit complaints, but the City
rarely does so. (See Reiter Tr. 387:9-19 (reciting from
PATF report that the IPRA/BIA override is rarely
used and not to the extent it could and should be).)
Indeed, the DOJ report explains that such overrides
are not encouraged among IPRA investigators, and

App-35
those investigators are not trained on how to obtain
such overrides anyway. (Tr. 2246:8-16.)
To any extent, the City’s failures to investigate
extend beyond its high rate of nonfeasance vis-à-vis
those complaints unsupported by affidavit. As the
DOJ report concluded, “The City does not investigate
the majority of cases it is required by law to
investigate. . . . Those cases that are investigated
suffer from serious investigative flaws that obstruct
objective fact finding.” (Tr. 2242:25-2243:5.) The
report further stated that the City’s investigative
techniques are often biased, and the concluding
reports are often drafted in a manner favorable to the
officer by omitting conflicting or contrary evidence.
(Tr. 2358:12-21.) The PATF report propounded similar
findings. (See, e.g., Tr. 2357:12-14 (“Since its
inception, IPRA has had the power to examine
patterns of complaints when investigating police
misconduct but has not exercised it.”).)
The City fails to muster any other argument on
this score that goes to the sufficiency of the evidence
rather than to its weight. As such, a reasonable jury
could have concluded, as did the jury here, that
Chicago had a widespread policy or practice of failing
to investigate officer misconduct. The City’s renewed
JMOL Motion is thus denied in relevant part.
F.

Deliberate Indifference

To place the next building block in LaPorta’s case,
he had to demonstrate that the City was deliberately
indifferent to the harms that might befall those
persons who come into contact with under-trained and
under-disciplined officers. See City of Canton v.
Harris, 489 U.S. 378, 388 (1989) (“[T]he inadequacy of

App-36
police training may serve as the basis for § 1983
liability only where the failure to train amounts to
deliberate indifference to the rights of persons with
whom the police come into contact.”); Sigle v. City of
Chicago, No. 10 C 04618, 2013 WL 1787579, at *2
(N.D. Ill. Apr. 25, 2013) (applying same “deliberate
indifference” standard to a failure-to-discipline
theory). The jury found the City deliberately
indifferent in two respects: first, as to the failure to
maintain an adequate EWS, and second, as to the
failure to discipline adequately. As elsewhere in its
motion, the City contends that no jury could have
reasonably reached these conclusions.
The PATF report opined that CPD generally lacks
a culture of accountability, “largely because no one in
top leadership has taken ownership of the issue.”
(Tr 2360:1-4.) It continued: “[a]lthough so-called
problem officers are either well-known to their
supervisors and CPD’s leadership or easily identified,
few steps are being taken to proactively manage and
redirect those officers’ conduct.” (Id. 2360:1-17.) That
was so even though “[t]he effective tools for providing
greater oversight and supervision to officers are wellknown and widely used in other jurisdictions.”
(Id. 2360:1-17.) Alderman Moore, who served as the
City Council’s 30(b)(6) designee, testified that police
misconduct “has been ongoing for a long time,
probably as long as we’ve had a police department. . . .
180 years.” (Moore Tr. 887:15-22.) The Alderman also
agreed that IPRA and BIA have not historically
engaged in efforts to identify broader patterns or
practices either of misconduct or racially biased
policing within CPD. (Id. 888:3-15.)

App-37
Further, the jury heard testimony that the City
Council had been warned about the sore need to
ameliorate CPD’s deficient policies, including by
implementing an effective EWS. In June 2007, the
City Council held public hearings concerning the
deficiencies of the Office of Professional Standards
(“OPS”), the precursor to IPRA. (Moore Tr. 892:15-24.)
According to Alderman Moore, the complaints voiced
at those hearings contributed to the creation of IPRA.
(Id. 893:3-21.) One such complainant expressed his
“profound fear” that IPRA would “simply recreate and
perpetuate another inadequate and ineffective system
like [OPS] that we have suffered with since 1974.”
(Id. 894:22-895:10.) Moore was present for that
hearing; at trial, he told the jury: “We knew there were
problems.” (Id.)
Taken together, this testimony provides a legally
sufficient evidentiary basis to allow a reasonable jury
to find that the City knew it lacked an effective EWS
and failed to discipline malfeasant officers adequately,
and yet took no action to right these deficiencies. That
carries LaPorta past the renewed JMOL Motion as far
as the deliberate indifference requirement is
concerned. FED. R. CIV. P. 50(a).
G. Causation
Though the jury agreed LaPorta had proven three
systemic failures—the failures to investigate, to
discipline, and to maintain an EWS—the jury found
that only the latter two of those failures caused Kelly
to shoot LaPorta. (Verdict Form, Dkt. 446.) Chicago
challenges those two causation findings.
As the Court earlier observed, “[t]he critical
question is whether the City’s de facto policies . . .

App-38
were the ‘moving force’ behind Kelly’s actions such
that execution of the policies ‘inflicts the injuries that
the government as an entity is responsible [for] under
§ 1983.’” LaPorta v. City of Chicago, 277 F. Supp. 3d
969, 991 (N.D. Ill. 2017) (quoting Estate of Novack ex
rel. Turbin v. Cty. of Wood, 226 F.3d 525, 531 (7th Cir.
2000)). There must be a “direct causal link” between
the alleged policy or practice and the constitutional
violation. Id. (quoting Obrycka, 2012 WL 601810, at
*9). Further, “a finding of culpability simply cannot
depend on the mere probability that any officer
adequately screened will inflict any constitutional
injury. Rather, it must depend on a finding that this
officer was highly likely to inflict the particular injury
suffered by the plaintiff.” Bd. of Cty. Comm’rs v.
Brown, 520 U.S. 397, 412 (1997) (emphasis in
original). The jury concluded LaPorta met these
requirements at trial, and the Court will not disturb
that finding.
To begin, LaPorta offered evidence demonstrating
that the City’s policies may generally encourage
officers to feel immune from consequences. The PATF
report noted that “[w]hen case after high-profile case
results in punishment that does not match the gravity
of the misconduct, it sends a message that the police
can act with impunity. . . . It also leaves those who
break the rules emboldened to continue doing so.”
(Tr. 2355:6-14.) The DOJ report shared in this
conclusion, opining that CPD’s failure to identify
officers in need of behavioral intervention enabled
those officers “to engage in problematic behavior with
impunity which can and do[es] escalate into serious
misconduct[, which] has dramatic consequences for
the public . . . .” (Id. 2249:8-15.) Alderman Moore

App-39
agreed with that logic. (Moore Tr. 877:19-23
(remarking that if an officer engaged in misconduct
and was not held accountable, he “would feel a little
bit more of a freedom to engage in further
misconduct”); accord Reiter Tr. 348:18-349:1
(concluding same).)
Beyond this, LaPorta presented testimony that
Kelly, specifically, was one such officer emboldened by
the City’s failure to discipline or correct his behavior
via an effective EWS, and that this conditioning led
Kelly to shoot LaPorta. The jury heard that Kelly was
subject to eighteen complaints and yet was never
disciplined or put into an EWS program. True, Kelly
was twice referred to the BIS program, but Reiter
explained that Kelly never actually attended the
counseling those programs recommended for him.
(Reiter Tr. 326:3-19.) Two of Kelly’s eighteen
complaints—one in September 2005 and the other in
June 2006—concerned an alcohol-intoxicated Kelly
battering personal associates during off-duty time.
(O’Neill Tr. 3214:19-3224:25, 3247:2-17.) After the
latter incident, an examining psychologist noted that
Kelly “may have problems related to alcohol and
control” and would benefit from intervention designed
to teach him “other ways of resolving conflicts with
significant others in his life.” (Id. 3255:12-3257:20.)
According to the evidence at trial, the City never
provided that intervention in any form, be it
meaningful entry in an EWS program, discipline, or
otherwise. Reiter explained that such repeated
failures to investigate and discipline reinforces in
officers a sense of impunity that extends to their offduty behavior (Reiter Tr. 306:7-25), and that CPD’s
failures with respect to Kelly specifically contributed

App-40
to his personal sense of impunity. (Id. 325:21-326:2;
see also id. 346:5-347:3 (describing that one
consequence of lacking an adequate EWS is that
officers such as Kelly would be encouraged to act with
impunity).)
In sum, this testimony suggested that Chicago’s
administrative failings were the moving force behind
Kelly’s actions. Keeping in mind the Court’s obligation
on a JMOL motion to construe the facts strictly in
favor of the party that prevailed at trial, the Court
refuses to overrule the jury’s causation finding. A
reasonable jury could have reached this conclusion;
that is enough. Chicago’s JMOL Motion is denied.
II. CHICAGO’S MOTION FOR NEW TRIAL
Chicago contends it is entitled to a new trial due
to a bevy of errors this Court allegedly committed in
instructing the jury and making evidentiary rulings.
A motion for a new trial should only be granted where
the verdict is against the manifest weight of the
evidence, Sauzek v. Exxon Coal USA, Inc., 202 F.3d
913, 921 (7th Cir. 2000), or where the trial court’s
evidentiary rulings or jury instructions resulted in
prejudicial error, see Glickenhaus & Co. v. Household
Int’l, Inc., 787 F.3d 408, 414 (7th Cir. 2015); EEOC v.
Mgmt. Hospitality of Racine, Inc., 666 F.3d 422, 440
(7th Cir. 2012). The district court has great discretion
in determining whether to grant a new trial. Valbert
v. Pass, 866 F.2d 237, 239 (7th Cir. 1989) (citation
omitted). In weighing such motions, the court views all
evidence in the light most favorable to the prevailing
party, Wipf v. Kowalski, 519 F.3d 380, 384 (7th Cir.
2008), and keeps in mind that “civil litigants are

App-41
entitled to a fair trial, not a perfect one,” Lemons v.
Skidmore, 985 F.2d 354, 357 (7th Cir. 1993).
A. Errors in the Jury Instructions and the
Verdict Form
District courts enjoy great latitude in choosing the
wording of jury instructions. United States v. Bruce,
109 F.3d 323, 328 (7th Cir. 1997) (citation omitted).
New trials are not granted for alleged errors in jury
instructions unless, considering those instructions in
full, “it appears that the jury was misled and its
understanding of the issues was seriously affected to
the prejudice of the complaining party.” McGershick v.
Choucair, 9 F.3d 1229, 1232 (7th Cir. 1993) (citation
and internal quotation marks omitted). The verdict
form is considered in light of the instructions given.
Happel v. Walmart Stores, Inc., 602 F.3d 820, 827 (7th
Cir. 2010).
Federal Rule of Civil Procedure 51 requires
litigants to object to jury instructions before the
instructions are given. FED. R. CIV. P. 51(b)-(c); see
LeBlanc v. Great W. Express, 58 F. App’x 221, 223 (7th
Cir. 2003) (applying Rule 51 to verdict-form
objections). The objection must be “stat[ed] distinctly.”
FED. R. CIV. P. 51(c)(1); see Schobert v. Ill. Dep’t of
Transp., 304 F.3d 725, 729 (7th Cir. 2002) (explaining
that the objection “must be specific enough that the
nature of the error is brought into focus”). Moreover,
“it is not enough simply to submit an alternative
instruction.” Schobert, 304 F.3d at 729 (citation
omitted). When a litigant misses its chance to object
timely, the tardy objection is reviewed on a plain error
standard. See Lewis v. City of Chi. Police Dep’t, 590
F.3d 427, 434 (7th Cir. 2009) (citing FED. R. CIV.

App-42
P. 51(d)(2)). That requires the Court to determine
from an examination of the entire record whether the
defective instruction had a probable impact on the
jury’s finding. See id. (citations omitted); see also
United States v. Medley, 913 F.2d 1248, 1260 (7th Cir.
1990) (citation omitted). “Plain error review of jury
instructions is ‘particularly light-handed.’” Lewis, 590
F.3d at 433 (quoting United States v. DiSantis, 565
F.3d 354, 361 (7th Cir. 2009) (citation omitted)).
1.

Verdict Form Deficiencies

Chicago alleges it suffered prejudice because the
Court confused the jury by instructing them as to
deliberate indifference and yet did not provide them
with a separate interrogatory on the verdict form
asking after their deliberate indifference finding. In
rebuttal, LaPorta contends that Chicago waived this
objection and in the alternative that the failure to
provide the additional interrogatory does not rise to
the level of prejudicial error requiring a new trial. See
Mgmt. Hospitality of Racine, 666 F.3d at 440.
Whether Chicago waived this objection is a close
call. LaPorta contends that the City not only failed to
object to the verdict form, but actually submitted this
version of the verdict form to the Court, meaning that
Chicago proposed the same verdict form to which it
now objects. (See Tr. 3371:14-17 (statement from the
Court that: “I believe that [the verdict form] submitted
by the defendant is clearer than the plaintiff’s, so the
Court will give the one submitted by the defendant.”).)
LaPorta’s characterization is not wholly accurate.
True, Chicago submitted this verdict form; but the
City did so in conformance with the Court’s earlier and
specific orders given to both parties in chambers. (See

App-43
12/12/2017 Status Hearing Tr. 6, Dkt. 521-2
(acknowledging that the Court essentially crafted the
final verdict form).) As such, the Court will not take
Defendant’s submission of the ultimately-selected
form as an unmitigated endorsement of that form.
That being said, Chicago did not do its utmost to
make its objection clear. After the Court selected the
defense-submitted form and asked whether either
party wanted to add anything on the record, counsel
for the City remarked vaguely that “the verdict form
itself, we drafted that pursuant to the Court’s order
yesterday.” (Tr. 3372:5-6.) The City somewhat
clarified this objection later, explaining that “we did
try to come up with a different . . . proposed verdict
form in light of the Court’s ruling that would have
included specifically . . . a question 4 . . . a deliberate
indifference finding specifically by the jury.”
(Tr. 3577:23-3578:5.) While this objection could have
been more precisely stated, the Court finds this
articulation particular enough to bring the nature of
the alleged error into focus and thus avoid waiver
under Rule 51. Schobert, 304 F.3d at 729.
Though Chicago did not waive the objection, the
City cannot succeed on the objection’s merits. To
determine whether a verdict form was confusing,
courts consider it in light of the instructions given.
Happel, 602 F.3d at 827 (citations omitted). The nub
of this inquiry is whether “the jury was misled in any
way and whether it had [an] understanding of the
issues and its duty to determine those issues.” Id.
(citation and internal quotation marks omitted).
Looking through this lens, the Court cannot agree that
its instructions and verdict form confused the jury.

App-44
The Court’s deliberate-indifference instruction closely
tracked the Seventh Circuit’s pattern instruction and
clearly stated that the City could not be held liable
unless LaPorta proved by a preponderance of the
evidence that:
[t]he Chicago City Council knew that because
one or more of the [alleged policies] existed
and was allowed to continue, it was highly
predictable that its off-duty officers would
violate the bodily integrity of persons they
came into contact with because there was a
pattern of similar constitutional violations or
it was highly predictable even without a
pattern of similar constitutional violations.
(Jury Instructions 18, Dkt. 444; accord Seventh
Circuit Civil Pattern Jury Instruction 7.25
(propounding
substantially
similar
model
instruction).) This language properly instructed the
jury concerning the issues before it. The absence of the
specific words “deliberate inference,” which are
likewise notably absent from the Seventh Circuit’s
pattern instruction, does not confound the charge. And
the absence of an additional interrogatory on the
verdict form asking after this instruction does not
create an error serious enough to mislead the jurors
and work prejudice upon the City. See McGershick,
9 F.3d at 1232. When viewing the instructions and the
form together, the jury was properly advised of the
task before them. That suffices. The Motion for New
Trial is denied in relevant part.

App-45
2.

Jury Instructions Concerning Standard
for Evaluating Kelly’s Conduct

Chicago next contends a new trial is warranted by
the Court’s alleged error in instructing the jury that
LaPorta had to prove Kelly intentionally or with
reckless indifference shot LaPorta. As the emphasis
suggests, it is the second phrase with which Chicago
takes issue. The City submits that “reckless
indifference” is simply inapt here, and the Court
should have instead instructed the jury on a “shocks
the conscience” standard of culpability under City of
Sacramento v. Lewis, 523 U.S. 833, 846-47 (1998).
Before advancing to the merits of this dispute, the
Court notes that as above, LaPorta charges that
Chicago waived this objection. The Court and both
parties discussed this and the other proposed
instructions at length in chambers and, as Chicago
now recounts, it there objected to the reckless
indifference instruction. However, the City failed to
reiterate that objection with clarity on the record the
following morning (see Tr. 3356:1-3372:22) as required
to avoid waiver under Rule 51. Schobert, 304 F.3d at
729 (proposing an alternative instruction is not
enough to overcome waiver when objection not clearly
stated). Still, there is an exception to this formalobjection requirement: The objection may survive
waiver if (1) the party’s position was made clear to the
court and (2) any further objection would have been
unavailing and futile. See Carter v. Chi. Police
Officers, 165 F.3d 1071, 1078 (7th Cir. 1998) (citations
omitted). Chicago made its objection clear off-record,
it just simply failed to rearticulate that objection the
next day. The Court is thus loath to charge Chicago
with waiver here, where defense counsel might have

App-46
presumed—albeit unwisely, given Rule 51’s
requirements—that reiterating the objections would
be futile given the Court’s earlier, off-the-record
rulings.
Ultimately, whether the Court is lenient on this
point does not affect the success of Chicago’s objection.
The objection fails, whether on the plain error
standard applied to forfeited objections, Lewis, 590
F.3d at 433 (citing FED. R. CIV. P. 51(d)(2)), or on the
prejudice standard applied to typical, and not waived,
allegations of error, McGershick, 9 F.3d at 1232.
There is nothing inherent to a failure-to-discipline
Monell claim demanding that the plaintiff prove the
specific officer who effectuated the harm acted in a
way that shocked the conscience, or was even reckless.
See generally Monell v. Dep’t of Soc. Servs., 436 U.S.
658 (1978). Such claims assert that the municipality
itself is the state actor; it is the municipality’s action
in maintaining a deficient policy that supplies § 1983’s
“color of law requirement,” Gibson v. City of Chicago,
910 F.2d 1510, 1519 (7th Cir. 1990), and it is the
municipality’s deliberate indifference that is the
lynchpin for liability, Sornberger v. City of Knoxville,
434 F.3d 1006, 1029-30 (7th Cir. 2006) (citations
omitted).
This particular suit, however, calls for an
examination of Kelly’s mental state because of
LaPorta’s particular theory of the case: that Chicago’s
administrative failings caused Kelly to believe he
could act with impunity, including on the occasion of
the shooting. Kelly cannot both have acted feeling free
of consequences and acted negligently; something
more than negligence was required. Had LaPorta

App-47
instead theorized that Kelly accidentally shot him as
a result of the City’s deliberate indifference with
respect to its failures to train officers to handle their
firearms safely, LaPorta would only need to prove
Kelly shot LaPorta negligently. Chicago no doubt
objects to this hypothetical on the basis that
negligence cannot violate the Due Process Clause. See
Ruehman v. Sheahan, 34 F.3d 525, 528 (7th Cir. 1994)
(“Negligence . . . does not violate the due process
clause.”). But in this case, the constitutionallyviolative mental state is supplied by the deliberatelyindifferent City, not by the officer who implements the
harms the City ignores. Kelly’s mental state is only
spurred onto the stage by LaPorta’s particular theory
of why (or how) Kelly acted the way he did. With this
in mind, the Court instructed the jury on a reckless
indifference standard. Compare Jury Instructions 18,
Dkt. 444, with Archie v. City of Racine, 847 F.2d 1211,
1219 (7th Cir. 1988) (“An act is reckless in the
pertinent sense when it reflects complete indifference
to risk[.]”). In the context of this case, that instruction
was not improper.
In the final twist to this argument, Chicago
contends that even if it was not error to instruct the
jury that the City could not be held liable unless Kelly
acted with at least reckless indifference, the Court still
erred by failing to define “reckless indifference.” The
City complains that without that further clarification,
the jury might have understood the City could be held
liable so long as Kelly acted “recklessly”—i.e., like a
“loose cannon” (Roy Tr. 957:1-959:10)—irrespective of
Kelly’s intent in so acting. The Court disagrees.

App-48
Before addressing the merits of this argument,
the Court notes that Chicago did not raise this
objection at trial. Though, as laid out above, the Court
is disinclined to label as forfeit those arguments
extensively developed in chambers, the Court will not
extend the same leniency to jury-instruction
objections that Chicago never introduced until
present. If Chicago found the deliberate indifference
instruction to be opaque, the onus was on the City to
say so before the Court delivered it to the jury. FED. R.
CIV. P. 51(b)-(c). The Court accordingly reviews
Chicago’s argument on a plain error standard. United
States v. Medley, 913 F.2d 1248, 1260 (7th Cir. 1990)
(citation omitted).
When reviewing a challenge to a jury instruction,
courts “must view the instruction as a whole and
consider the challenged instruction ‘both in the
context of the other instructions given and in light of
the allegations of the complaint, opening and closing
arguments and the evidence of record.’” U.S. ex rel.
Tyson v. Amerigroup Ill., Inc., 488 F. Supp. 2d 719, 727
(N.D. Ill. 2007) (quoting Sims v. Mulcahy, 902 F.2d
524, 533 (7th Cir. 1990)). From the Complaint onward,
LaPorta’s case always turned upon the idea that Kelly
felt empowered to act with impunity—that he could
engage in wrongdoing without facing the
consequences. (See, e.g., 7th Am. Compl. ¶ 77
(“[Chicago’s administrative failings] caused Patrick
Kelly, and other officers similarly situated, to act with
impunity and to feel and act as though their acts of
misconduct
would
go
unpunished
and
uninvestigated.”).) Plaintiff’s counsel framed the case
in that way from beginning, (Pl.’s Opening Tr. 152:3-6
(“Kelly [] repeatedly acted with impunity because he

App-49
learned that misconduct, regardless of how severe or
even criminal, it goes unpunished”), 197:14-16 (“[T]he
City is liable because Patrick Kelly knew that he could
mess around and get away with it”)), to end, (Pl.
Closing Tr. 3439:16-22 (“[Kelly] was not disciplined for
any of his acts of violence or domestic battery, even
after the City had notice time after time of his
propensity for this violent, reckless, bad behavior. . . .
Officer Kelly was acting with impunity in a way in
which he knew he was immune from consequences
without fear of repercussion.”)). The Court believes
that within the context of this suit, the jury
understood that Kelly’s awareness of his own
misconduct was the fulcrum upon which the merits
turned. Chicago’s suggestion that the “reckless
indifference” instruction would somehow dupe the
jury into ignoring this otherwise omnipresent theory
of liability is not credible enough for the Court to agree
the City suffered a “miscarriage of justice.” Medley,
913 F.2d at 1260 (reciting plain error standard).
Providing
that
instruction
without
further
clarification did not constitute plain error in this case.
3.

Spoliation
and
Instructions

Probable

Cause

Chicago also asserts it suffered prejudice because
the Court erroneously instructed the jury as to
spoliation of three pieces of evidence: Kelly’s phone
and text messages; Kelly’s service weapon, and a CPDcreated video of the shooting scene. After describing
those pieces of evidence, the Court instructed the jury:
[T]he City of Chicago contends that it had no
lawful basis to obtain Kelly’s texts and no
texts occurred after the 911 call; Kelly’s

App-50
service weapon was returned after all
possible ISP testing was completed; and a
video never existed.
You may assume that such evidence would
have been unfavorable to the City of Chicago
if you find by a preponderance of the evidence
that: One, the City of Chicago intentionally
failed to preserve the evidence or permitted
the evidence to be destroyed; and two, the
City of Chicago intentionally failed to
preserve the evidence or permitted the
evidence to be destroyed in bad faith.
(Jury Instructions 16, Dkt. 444.) Chicago does not
object to the language of this instruction—and wisely
so, given how closely the instruction tracks the
Seventh Circuit’s pattern instruction. (Compare id.,
with Seventh Cir. Pattern Instruction 1.20.) The City
simply contends the instruction should not have been
given at all. The Court disagrees.
Before giving a spoliation instruction, courts
require “a showing of an intentional act by the party
in possession of the allegedly lost or destroyed
evidence[.]” Spesco, Inc. v. General Elec. Co., 719 F.2d
233, 239 (7th Cir. 1983). Absent such a showing, the
instruction can be unduly argumentative. Id. LaPorta
made the requisite showing here. One senior officer at
the scene of the shooting testified that he “wanted [the
scene] worked up as if it were a homicide.”
(McNicholas Tr. 719:10-12.) Another said at the scene
that Kelly should be considered a suspect in the
shooting. (Doherty Tr. 2585:6-15.) Despite this clear
acknowledgment of the need to investigate Kelly’s
involvement, Chicago and its officers failed to take the

App-51
routine step of preserving that suspect’s phone and
messages—a failure made more suspect by the City’s
corresponding preservation of LaPorta’s phone as part
of CPD’s investigation into the crime of attempt
suicide. (Weber Tr. 1036:12-1037:20.)
As for the missing video: Chicago simply contends
it never existed. (See Kaput Tr. 7902-791:10; Barsch
Tr. 2966:12-17 (both representing that no video was
created to their knowledge).) But LaPorta produced
CPD documents obtained in discovery that state the
contrary. (CPD Case Supplementary Report, Trial Ex.
PTX 126 at 7, Dkt. 508-11 (reciting among “evidence”:
“O/A and C/U video of scene”).) The spoliation
instruction identified the respective parties’ positions
and then properly permitted the jury to weigh the
credibility of the conflicting evidence and determine
whether an adverse inference was appropriate. This is
exactly the mechanism anticipated by the Pattern
Instructions, and it was not error to apply it here.
Finally, the gun. According to LaPorta’s trial
exhibits, CPD seized Kelly’s firearm on January 13,
2010. But then, on June 7, 2013, more than two years
after LaPorta filed this case in state court, CPD simply
gave the gun back. (CPD Property Inventory Record,
Trial Ex. PTX 98, Dkt. 508-3.) Chicago contends it had
no duty to hold on to Kelly’s firearm. This strains
credulity. The gun was the operative piece of evidence
in what had, by the time of CPD’s surrender of the
weapon, already been alleged to be an intentional
shooting. These facts certainly suffice for the requisite
showing to warrant the spoliation instruction.
In sum, LaPorta passed the bar for an instruction
on all three pieces of evidence. And even if that were

App-52
not the case, Chicago has failed to demonstrate that
this error—if one existed—so confused the jury’s
understanding of the issues as to work serious
prejudice upon the City. McGershick, 9 F.3d at 1232.
Chicago adds to its spoliation objection a
perfunctory claim that it suffered prejudice from the
Court’s refusal to instruct the jury on the meaning of
probable cause. The City contends that without this
instruction, the spoliation instruction could have
improperly led the jury to conclude that the City had
a duty to retain the three pieces of evidence discussed
above. First, the Court is not persuaded by the juryconfusion argument: As already set forth, the
spoliation instruction adequately explained what task
the jury faced. Second, no part of the jury’s verdict
hinged upon probable cause determinations, so their
understanding of this legal issue is oblique to their
verdict in this case. The probable cause instruction
was properly refused.
4.

Patricia LaPorta Damages Instruction

The City next contends the Court erred in
refusing to instruct the jury that LaPorta’s mother,
Patricia, has no claim for damages in this case and
that testimony concerning her pain and suffering
should not be considered when reaching the damages
verdict. LaPorta responds that the Court instructed
the jury to determine damages based on harms
sustained by LaPorta alone, so a further “Patricia
instruction” was not necessary. The Court agrees. Not
only was the jury charged with calculating only
LaPorta’s damages, the verdict form itemized the
potentially compensable areas of injury, and none of

App-53
those mentioned Patricia. This argument cannot
justify the Court ordering a new trial.
In conclusion, the Court finds that none of the
above instructions, when taken either in isolation or
all together, constitute prejudicial error warranting a
new trial.
B. Evidentiary Rulings
Chicago takes issue with several of the Court’s
evidentiary rulings throughout the trial and contends
that even if not independently, these errors
cumulatively amount to prejudice against the City and
thus justify a new trial. A new trial may be ordered
when an evidentiary error had a “substantial
influence over the jury, and the result reached was
inconsistent with substantial justice.” EEOC v. Mgmt.
Hospitality of Racine, Inc., 666 F.3d 422, 440 (7th Cir.
2012) (citation and internal quotation marks omitted).
When a party seeking a new trial makes a cumulativeeffect argument, that movant must show: “(1) that
multiple errors occurred at trial; and (2) those errors,
in the context of the entire trial, were so severe as to
have rendered [the] trial fundamentally unfair.”
Christmas v. City of Chicago, 682 F.3d 632, 643 (7th
Cir. 2012) (citation and internal quotation marks
omitted). The cumulative-effect analysis requires an
examination of the entire record, paying particular
attention to the nature and number of alleged errors
committed; their interrelationship, if any, and their
combined effect; how the court dealt with the errors
during trial, including the efficacy of any remedial
measures; and the strength of the winning party’s
case. Id.

App-54
1.

Kelly’s
Invocation
Amendment

of

the

Fifth

In a civil case, “the jury is permitted to hear
evidence of a witness’s invocation of the privilege and
may draw an adverse inference from it.” Hillmann v.
City of Chicago, 834 F.3d 787, 793 (7th Cir. 2016)
(citing Baxter v. Palmigiano, 425 U.S. 308, 318 (1976)
(“[T]he Fifth Amendment does not forbid adverse
inferences against parties to civil actions when they
refuse to testify[.]”)) (citations omitted). Such
inferences may be drawn even when the witness
invoking the privilege is a nonparty. Cf. Fujisawa
Pharm. Co. v. Kapoor, No. 92 C 5508, 1999 WL
543166, at *9 (N.D. Ill. July 21, 1999) (stating that
drawing an adverse inference from a nonparty’s
silence against a party is permissible when the two
share an identity of interests) (citing Daniels v.
Pipefitters’ Ass’n Local Union No. 597, 983 F.2d 800,
802 (7th Cir. 1993); Kontos v. Kontos, 968 F. Supp. 400,
406 (S.D. Ind. 1997)). As with most evidentiary
rulings, the decision whether to permit the inference
falls within the district court’s broad discretion. Evans
v. City of Chicago, 513 F.3d 735, 740 (7th Cir. 2008)
(citation omitted).
The City objects that the Court’s instruction
permitted the jury to draw an adverse inference
against the City itself, which Chicago contends to be a
prejudicial error. First, Chicago’s interpretation of the
instruction is contrary to its clear language, which
permitted the jury to draw said inference against only
Kelly. (Jury Instructions 15, Dkt. 444 (instructing that
when a person asserts his Fifth Amendment rights,
“you are permitted to assume that his testimony

App-55
would be unfavorable to him in any manner that you
deem reasonable and supported by the evidence”
(emphasis added)).) Second, even if this instruction
permitted the jury to take an adverse inference
against the City—which it did not—there would still
be no error here. One party’s Fifth Amendment
invocation may be imputed to another party when the
two share certain allied interests sufficient to justify
the inference’s trustworthiness and advance the
search for truth. See Kontos, 968 F. Supp. at 406
(quoting LiButti v. United States, 107 F.3d 110, 124
(2d Cir. 1997)). Courts engaging in this inquiry have
eschewed bright-line rules in favor of a case-by-case
analysis demanding that the party urging the
inference justify it. State Farm Mut. Auto. Ins. Co. v.
Abrams, No. 96 C 6365, 2000 U.S. Dist. LEXIS 6837,
*21 (N.D. Ill. May 11, 2000) (collecting cases).
LaPorta justified the inference here. He could not
prove Monell liability unless he could first establish
that Kelly shot LaPorta with at least reckless
indifference. Thus, when Kelly took the stand, his
interests and the City’s aligned. If Kelly admitted to
shooting LaPorta deliberately, he would have exposed
himself to criminal liability and the City to civil
liability under Monell. The relevant interests were in
lockstep. The Court agrees with LaPorta that in these
circumstances, the adverse inference from Kelly’s
invocation could have been permitted against the City.
Though, as stated above, the Court did not go this far;
the instruction permitted an adverse inference only
against Kelly, not Chicago. In this regard, the City has
fallen short of carrying its heavy burden in justifying
a new trial. See BP Amoco Chem. Co. v. Flint Hills

App-56
Res., LLC, 697 F. Supp. 2d 1001, 1025 (N.D. Ill. 2010)
(citations omitted).
2.

LaPorta’s Competency to Testify

Chicago contends that the shooting stripped
LaPorta of his competency and as such the Court
should not have allowed him to testify. The City
argued as much in its motions in limine, but the Court
believes now, as it did then, that LaPorta was
competent to give testimony. Federal Rule of Evidence
601 “creates a broad presumption of competency.”
Estate of Suskovich v. Anthem Health Plans of Va.,
Inc., 553 F.3d 559, 570 (7th Cir. 2009). “Competency
of a witness to testify . . . is a limited threshold
decision . . . as to whether a proffered witness is
capable of testifying in any meaningful fashion
whatsoever.” Sauer v. Exelon Generation Co., LLC,
280 F.R.D. 404, 407 (N.D. Ill. 2012) (quoting United
States v. Banks, 520 F.2d 627, 630 (7th Cir. 1975)).
Indeed, the Advisory Committee’s note to Rule 601
clarifies that “[n]o mental or moral qualifications for
testifying as a witness are specified . . . . A witness
wholly without capacity is difficult to imagine. The
question is one particularly suited to the jury as one of
weight and credibility[.]” FED. R. EV. 601 (emphasis
added). That note also remarks that “[d]iscretion is
regularly exercised in favor of allowing the testimony”
over capacity objections. Id.
Witness-capacity objections face long odds,
though the City contends those odds should have
played out in its favor here. Dr. Heilbronner testified
that LaPorta’s injuries undermined his capacity to
recall reliably the events leading up the shooting.
(Heilbronner Tr. 3037:1-3047:8.) But the doctor also

App-57
testified that it is “really difficult to say with any
certainty exactly when [LaPorta’s] memories are
reliable and when they aren’t”; he also conceded that
it was not impossible that LaPorta remembered the
events leading up to the shooting. (Id. 3046:13052:18.) The question, ultimately, is whether
LaPorta’s professed memories of the relevant events
were reliable. That question goes to the proper weight
to be afforded to LaPorta’s recollections, which makes
this a question for the jury. See FED. R. EV. 601; see
also United States v. Dawson, 434 F.3d 956, 958 (7th
Cir. 2006) (stating that Committee notes to the rules
of evidence are “entitled to our respectful
consideration”). There is no error here.
3.

Admission of the DOJ and PATF Reports

The heart of the next debate is Federal Rule of
Evidence 803(8), which creates a hearsay exception for
records or statements of a public office. Reports fit
within that exception when they contain factual
findings resulting from a legally authorized
investigation, so long as the party seeking to exclude
the report has not shown it lacks trustworthiness. See
Daniel v. Cook Cty., 833 F.3d 728, 740 (7th Cir. 2016);
Lockwood v. McMillan, 237 F. Supp. 3d 840, 846-49
(S.D. Ind. 2017). Permissible reports may contain both
opinions and conclusions. Daniel, 833 F.3d at 740
(citation omitted). Still, hearsay statements contained
within an admissible report are not themselves made
admissible by Rule 803(8). See Lockwood, 237 F. Supp.
3d at 849. At trial, the Court found that the DOJ and
PATF reports fell within the 803(8) exception and
accordingly permitted Plaintiff’s counsel to read
portions of each into the record. For a number of

App-58
reasons, Chicago contends that was prejudicial error,
though notably the City does not contend that these
reports lacked trustworthiness. The Court is not
persuaded by any of Chicago’s arguments.
First, the City contends that the Court
impermissibly allowed counsel to read into the record
hearsay statements from the reports under the guise
of 803(8). But the City points to zero instances of
hearsay in its briefing—indeed, while the read-in
portions of the reports recited some hearsay sources
(see, e.g., Tr. 2240:1-2242:3 (DOJ report summarizing
report writers having met with a range of lay and
expert sources)), those selections do not actually
include the hearsay statements to which they allude.
Chicago also contends the factual and legal issues
represented in these reports lack a “close fit” to the
issues present in LaPorta’s suit. See Daniel, 833 F.3d
at 742. This second objection largely centers on the
reports’ allegedly irrelevant temporal focus: Neither
report focuses on those years leading up to the
January 2010 shooting, Chicago claims, so they cannot
substantiate LaPorta’s claims concerning the City’s
policies predating that event. But the PATF report
reviewed IPRA records dating back to 2007. (See
Tr. 2350:1-7 (recounting data reviewed in PATF
report);
Emanuel
Statement
Tr.
250:7-18
(summarizing scope of PATF report).) Chicago’s
timeliness argument has more traction with the DOJ
report, which professes to be based on data dating
back to December 2010. (Compare Tr. 2242 (describing
report’s review of police misconduct complaints during
the five years preceding the DOJ investigation), with
Tr. 2238:12-22 (stating investigation began in

App-59
December 2015).) However, the DOJ report findings
do not limit themselves to these data, but rather
express “longstanding, systemic deficiencies” in CPD
policies. (Tr. 2249:1-7.) The Court thus again finds the
report, which, much like the PATF report, consists of
directly-relevant subject material, a close enough fit to
the issues at bar in the case to fall within 803(8).
And even if this ruling was made in error, the
Court believes it was harmless. The portions of the
DOJ report read into the record espouse substantially
similar conclusions to those reached in the PATF
report. The jury would have heard the PATF
conclusions whether or not the DOJ report was
admitted, so the addition of the cumulative, second
report does not rise to the level of prejudicial error. Cf.
United States v. Pessefall, 27 F.3d 511, 516 (11th Cir.
1994) (finding no reasonable probability of prejudice
stemming from jury’s consideration of extrinsic, but
cumulative, evidence); United States v. Pitman, 475
F.2d 1335, 1337 (9th Cir. 1973) (rejecting argument
for reversal predicated upon inadmissible evidence
allowed in at trial that was cumulative of other,
admissible evidence, and the record did not otherwise
reflect prejudice against appellant).
Finally, Chicago objects that the PATF report
cannot qualify under the 803(8) exception because
PATF did not receive City funding and does not speak
for the City. This argument fails. The City created
PATF for the express purpose of reviewing the system
for accountability, oversight, and training in place for
Chicago’s police officers. The resulting findings,
summarized in the PATF report, were thus “made by
a public officer resulting from a legally authorized

App-60
investigation,” and the incidental inclusion in PATF of
non-governmental personnel is “beside the point.”
Simmons v. City of Chicago, No. 14 C 9042, 2017 WL
3704844, at *8 (N.D. Ill. Aug. 28, 2017) (ruling on
motion in limine that the PATF report fit the
exception under 803(8).)
4.

Expert Testimony

Next, Chicago argued the Court committed
prejudicial error in admitting certain expert testimony
from two witnesses, Dr. Ziejewski, LaPorta’s
biomechanics expert, and David Balash, LaPorta’s
crime-scene forensics expert.
Three parts of Dr. Ziejewski’s testimony offend
the City: (1) Ziejewski’s testimony that it was unlikely
that LaPorta, who generally used his right hand to
shoot guns while hunting, would have used his left
hand to shoot himself; (2) Ziejewski’s participation
with LaPorta’s counsel in an in-court demonstration
exemplifying the doctor’s opinion of details concerning
the shooting; (3) Ziejewski’s testimony concerning the
gunshot’s angle of trajectory.
The first of these challenges zeroes in on eleven
lines of Ziejewski’s testimony:
Q. What’s your second opinion—I’m sorry, third?
A. This would be unlikely for Mr. LaPorta with
right-handed gun handling habit to use his left
hand on January 12th, 2010.
Q. Did you review deposition testimony of his
family?
A. Yes.

App-61
Q. And did that deposition testimony reveal that
he had a habit or a tendency to use a hand when
operating a gun or a rifle?
A. Yes.
Q. Which was that?
A. Right hand.
(Ziejewski Tr. 626:5-15.)
The City contends that this opinion went beyond
the scope of the expert’s testimony. But as the Court
held in ruling on the motions in limine, an expert on
human body biomechanics such as Dr. Ziejewski can
rely on statements by LaPorta’s family for the basic
fact that LaPorta is right-hand dominant. (Mot in
Limine Tr. 17:7-19.) “The soundness of the factual
underpinnings of the expert’s analysis and the
correctness of the expert’s conclusion based on that
analysis are factual matters to be determined by the
trier of fact[.]” Smith v. Ford Motor Co., 215 F.3d 713,
718 (7th Cir. 2000).
Next, the City objects to the doctor’s in-court
demonstration of the shooting, contending that said
demonstration was not properly disclosed in advance
of trial. But as LaPorta points out, the demonstration
simply consolidated physical evidence already
described and relied upon by the doctor—all of which
he discussed without objection from Chicago. (See, e.g.,
Ziejewski Tr. 614:1-618:14 (testifying concerning
LaPorta’s body position, the blood evidence, tissue
recovered at the scene, and gunshot residue).) The
Court committed no error by permitting that
demonstration to go forward.

App-62
Finally, but in the same vein, the City contends
that the doctor should not have been permitted to
testify that the bullet traveled at an angle of
somewhere between 35 and 45 degrees because this
opinion, too, went undisclosed before trial. The doctor
conceded on the stand that he had not previously
testified to this angle; he also clarified that he derived
that figure by measuring the path of the bony
fragments depicted in LaPorta’s CT scan. (Id. 633:5633:23, 634:3-11.) If allowing this testimony
constituted error, however, it was not prejudicial.
LaPorta also adduced testimony from his forensic
science expert, David Balash, who provided
substantially similar shooting-angle testimony. (See
Balash Tr. 1900:18-1901:9.) Delayed disclosures are
prejudicial when said delay impacts the receiving
party’s ability to prepare for trial. Cf. Mid-Am.
Tablewares, Inc. v. Mogi Trading Co., 100 F.3d 1353,
1363 (7th Cir. 1996) (upholding pre-trial refusal to
exclude tardily-disclosed evidence when party seeking
exclusion could not demonstrate any prejudice); LG
Elecs. v. Whirlpool Corp., No. 08 C 242, 2010 WL
9506787, at *2 (N.D. Ill. Sept. 7, 2010) (granting
pretrial motion to exclude tardily-disclosed evidence
because the delay prejudiced opponent’s ability to
prepare for trial). No such prejudice arose from
LaPorta’s late disclosure here. Because Balash’s
substantially similar opinion was timely disclosed, the
City did not want for advance notice of this crossexamination topic. The danger of prejudice from an attrial surprise was thus extinguished, as the disclosure
of Dr. Ziejewski’s opinion would have been
cumulative.

App-63
As for David Balash, Chicago lodges two
complaints, concerning: (1) Balash’s testimony
regarding the flaws in CPD’s investigation of the
LaPorta shooting; and (2) his comments that the
prosecuting
state’s
attorney
had a
faulty
understanding of gunshot residue (“GSR”) evidence.
With the first challenge, the City focuses on
Balash’s critiques of a number of shortcomings in the
CPD investigation, including the failure to collect and
preserve evidence and the belief that because the CPD
improperly labeled the shooting as a suicide, the
investigation necessarily received shorter shrift in the
department than it would have had it been labeled as
a possible homicide. LaPorta introduced Balash as an
expert in crime-scene forensics; during his 25 years as
a police officer, Balash frequently processed crime
scenes, meaning he had made a career of observing,
collecting, and preserving evidence in investigations
which included both suicides and homicides. (Balash
Tr. 1857:19-1858:25, 1860:9-24.) Given this breadth of
experience, Balash was certainly qualified to opine on
the best practices for evidence collection and crimescene processing, which is all Chicago objects to here.
Chicago’s objection to Balash’s testimony
concerning the prosecutor’s understanding of GSR
evidence similarly falls short. The City complains that
Balash predicated this opinion on a misunderstanding
of a form the prosecutor filled out in documenting her
decision not to approve criminal charges against
Kelly. Indeed, Balash conceded at trial that he did not
review that prosecutor’s deposition transcript, and so
he lacked insight into her later-provided clarifications
of her thinking at the time she filled out the contested

App-64
form. (Balash Tr. 1993:5-8.) But this is prime grounds
for cross-examination, not disqualification of an
otherwise expert opinion. Ultimately, this is a battle
of the proper weight to be afforded to Balash’s
testimony on this score, and it is within the jury’s
province to make such determinations. The Motion for
New Trial is denied insofar as it objects to expert
testimony presented by either Dr. Ziejewski or Mr.
Balash.
5.

Miscellaneous Objections

Chicago levies two additional challenges to this
Court’s rulings which do not fit neatly under any of the
above headings. The first of these is the City’s belief
that the Court should have bifurcated the trial: the
refusal to do so amounted to an abuse of discretion,
Chicago contends, as it allowed the jury to hear and be
swayed by evidence of LaPorta’s extensive damages
even before the City had been found liable. But
bifurcation is the exception and not the rule. See Real
v. Bunn-O-Matic Corp., 195 F.R.D. 618, 620 (N.D. Ill.
2000) (collecting cases). And the decision to bifurcate
rests soundly within the trial court’s discretion.
Krocka v. City of Chicago, 203 F.3d 507, 516 (7th Cir.
2000). In this case, the Court properly instructed the
jury to perform its duty impartially and to put the
issue of damages to the side unless and until it
concluded Chicago was liable. (Tr. 3580:2-14, 3588:1925.) As always, the Court presumes that “jurors,
conscious of the gravity of their task, attend closely the
particular language of the trial court’s instructions . . .
and strive to understand, make sense of, and follow
the instruction given them.” United States v. Puckett,
405 F.3d 589, 599 (7th Cir. 2005) (citation omitted); see

App-65
Pickett v. Sheridan Health Care Ctr., 610 F.3d 434,
446 (7th Cir. 2010) (applying same presumption in a
civil case). It cannot be that bifurcation is required
every time a plaintiff’s injuries are severe, and
Chicago has not provided any authority suggesting as
much. The bifurcation ruling is not grounds for a new
trial.
Second, Chicago contends it was error for the
Court to allow LaPorta’s counsel to read a letter,
written by counsel in LaPorta’s voice, to the jury in
closing argument. In this letter “from LaPorta” to
LaPorta’s family, counsel demonstrated what counsel
understood to be LaPorta’s wishes and regrets after
the shooting. (Tr. 3492:1-21.) Chicago argues the letter
was designed only to stir the jury’s passions, was not
based on any evidence, and amounted to an improper
and prejudicial request for sympathy. See Cole v.
Bertsch Vending Co., 766 F.2d 327, 334 (7th Cir. 1985)
(stating, in case where attorney “openly asked the jury
to feel sympathetic towards his clients,” that
“[r]equesting sympathy for a defendant is improper
especially where such argument may have a
prejudicial impact upon the result”) (citations
omitted). First off, the Seventh Circuit has “repeatedly
explained that improper comments during closing
argument rarely rise to the level of reversible error.”
Soltys v. Costello, 520 F.3d 737, 745 (7th Cir. 2008)
(citation and internal quotation marks omitted). “To
constitute reversible error and warrant a new trial,
statements made during closing argument must be
‘plainly unwarranted and clearly injurious.’” Warfield
v. City of Chicago, 679 F. Supp. 2d 876, 888 (N.D. Ill.
2010) (quoting Jones v. Lincoln Elec. Co., 188 F.3d
709, 730 (7th Cir. 1999)). The letter at issue here,

App-66
though creative, does not rise to that prejudicial level.
It was not spun from whole cloth, but rather based on
evidence concerning LaPorta’s desire and inability to
have a family (P. LaPorta Tr. 1361:10-21), his
ambition to run his father’s company (id. 1342:4-25),
and the details of daily care LaPorta now requires (id.
1381:3-1388:20; Howland Tr. 2006:2008-10). Beyond
this, the Court properly advised the jury that closing
argument is not evidence. (Tr. 3582:11-15; Soltys, 520
F.3d at 745 (“[C]urative instructions to the jury
mitigate harm that may otherwise have resulted from
improper comments during closing argument. . . .
[And when such instructions are given,] we presume
that the jury obeyed the court.”) (citations and
internal quotation marks omitted).) Reading this
letter was not plainly unwarranted and clearly
injurious; it provides no basis for a new trial.
In sum, the Court finds that none of the
evidentiary-ruling errors Chicago alleges, whether
considered discretely or cumulatively, worked
prejudice upon the City warranting a new trial. The
new trial Motion is denied in relevant part.
C. Jury Findings Were Against the Manifest
Weight of the Evidence
Under Federal Rule of Civil Procedure 59(a), this
Court will set aside a verdict as contrary to the
manifest weight of the evidence “only if no rational
jury could have rendered the verdict.” Marcus &
Millichap Inv. Servs. of Chi., Inc. v. Sekulovski, 639
F.3d 301, 314 (7th Cir. 2011) (citation and internal
quotation omitted). In seeking to carry this hefty
burden, Chicago largely repackages those arguments

App-67
it raised in its renewed JMOL Motion. As before, those
arguments find no purchase here.
Chicago objects, first, to the jury’s finding that the
City failed to maintain an Early Warning System, or
“EWS.” As before, the City contends that LaPorta’s
evidence focused on an irrelevant time frame; zeroed
in too much on Kelly, particularly, and failed to speak
to a citywide failure, generally; and demonstrated that
even Reiter, LaPorta’s own police-practices expert,
believed the City’s EWS to be adequate. The Court has
already reviewed and found each of these arguments
unpersuasive or simply inaccurate and sees no need to
recycle that analysis. Through Reiter especially,
LaPorta adduced evidence that Chicago had historic
and system deficiencies in failing to implement an
EWS; the jury’s ultimate agreement with him is not
against the manifest weight of the evidence.
Next, Chicago takes issue with the jury’s finding
that the City failed to discipline its officers when
appropriate. Chicago argues that LaPorta only ever
adduced evidence concerning the City’s failures to
discipline after allegations of misconduct were made,
as opposed to any findings of misconduct. Such
evidence, according to Chicago, fits only within
LaPorta’s failure-to-investigate theory, and has no
place in the failure-to-discipline theory. There are two
problems with that argument. First, it is too clever by
half: Though these two theories are discrete, it is not
true that the evidence in support of one cannot also
support the other. If, for example, the City never
investigated any officer accused of misconduct, that
fact would support both theories: The City failed to
investigate all allegations and, because of that

App-68
systemic nonfeasance, never disciplined any deserving
officer. Second, Chicago’s argument simply misstates
the evidence. As explained above, LaPorta indeed
adduced evidence showcasing the City’s “opaque,
drawn-out, and unscrutinized disciplinary process”
that frequently enabled officers “to avoid meaningful
consequences.” (Tr. 2350; see supra at Part I.D.) On
this basis, a rational jury could have reached the
verdict returned in this case; no new trial is
warranted.
III. LaPORTA’S BILL OF COSTS
Federal Rule of Civil Procedure 54(d)(1) provides
that a prevailing party may obtain reimbursement for
certain litigation costs at the conclusion of a lawsuit.
The Rule establishes a “presumption that the
prevailing party will recover costs, and the losing
party bears the burden of an affirmative showing that
taxed costs are not appropriate.” Beamon v. Marshall
& Ilsley Trust Co., 411 F.3d 854, 864 (7th Cir. 2005)
(citing M.T. Bonk Co. v. Milton Bradley Co., 945 F.2d
1404, 1409 (7th Cir. 1991)). In evaluating an
application for costs, the Court must first determine
whether the claimed expenses are recoverable and,
second, whether the costs requested are reasonable.
Majeske v. City of Chicago, 218 F.3d 816, 824 (7th Cir.
2000) (citation omitted). “The prevailing party bears
the burden of demonstrating the amount of its
recoverable costs because the prevailing party knows,
for example, how much it paid for copying and for what
purpose the copies were used.” Telular Corp. v. Mentor
Graphics Corp., No.01 C 431, 2006 WL 1722375, at *1
(N.D. Ill. June 16, 2006). Given the burden on the
prevailing party, requested costs should not be

App-69
awarded when they cannot be reasonably obtained by
reference
to
the
submitted,
supporting
documentation. Harkins v. Riverboard Servs., Inc.,
286 F. Supp. 2d 976, 980 (N.D. Ill. 2003). The Court
has “wide latitude” in fixing a reasonable award.
Deimer v. Cincinnati Sub-Zero Prods., Inc., 58 F.3d
341, 345 (7th Cir. 1995) (citations omitted).
LaPorta seeks $748,979.03 in costs. In what
proves to be a recurring theme, however, LaPorta
often falls short of his burden to show these costs with
the minimal particularity required for the Court to
determine whether they are reasonably necessary and
thus compensable. LaPorta submits, principally, two
filings in support of its bill of costs: a 13-page
summary spreadsheet and 550 pages of check
requests, receipts, and invoices. Those latter
documents are not organized, as far as the Court can
see, according to any particular scheme: Neither date
nor subject matter governs them, and the summary
spreadsheet does not provide any cross-references to
them. This submission often further obscures an
already-translucent costs analysis, as set forth below.
A. Costs for Experts
LaPorta seeks $590,725.04 in costs under this
umbrella. Those costs comprise three subcategories:
(1) expert witness fees; (2) “attorney fees” for
potential—but ultimately never called upon—expert
witness Gregory E. Kulis; and (3) costs associated with
a focus group or “mock jury” preparation. The first two
of these can be handled in one fell swoop. Recovery for
expert expenses in § 1983 cases is limited to fees
provided by § 1920 and § 1821. Fields v. City of
Chicago, No. 10 C 1168, 2018 WL 253716, at *11 (N.D.

App-70
Ill. 2018) (reducing expert costs to $40-per-day witness
fee permitted by 28 U.S.C. § 1821(b)). LaPorta’s
submissions do not clarify how many days each of his
experts spent toiling on his case, nor even how many
experts LaPorta actually retained. For what it is
worth, LaPorta contends in his reply that he retained
twelve. (Bill of Costs Reply at 2, Dkt. 545.) In his
submissions, however, the Court counts nineteen:
Gregory E. Kulis and Associates, Ltd. (though listed
under “Attorney Fees” in LaPorta’s submissions,
Chicago points out, and LaPorta does not contradict,
that Kulis was not retained as counsel but rather as
an expert in this case); Baron Epstein; David E.
Balash; Edward D. Rothman; Howland Health
Consulting, Inc.; Independent Forensics; Law
Enforcement Risk Management Group; Legal and
Liability Risk Management Institution; Mark R.
Perez;
MicroTrace,
LLC;
MZ
Engineering;
Neurological Professionals; Noble Consulting &
Expert Witness Service; Ricardo G. Senno; Richard B.
Lazar; Robert L. Heilbronner; Vincent DiMaio;
Vocational Economics, Inc.; and WD Forensic, Inc.
(Exs. to Chicago’s Bill of Costs Objections at 9-11, Dkt.
516.) To any extent, the Court presumes LaPorta
knows best who he did and did not retain, no matter
what his submissions say; in the absence of further
detail, the Court awards LaPorta $40 in fees for 3 days
for each of the 12 experts he says he retained in this
matter. Awarding $120 per expert accounts for each
expert’s testimony and some reasonable time spent
preparing. Se-Kure Controls, Inc. v. Vanguard Prod.
Grp., Inc., 873 F. Supp. 2d 939, 956 (N.D. Ill. 2012)
(permitting recovery for expert witness preparation

App-71
time). In sum, that expert fee award amounts to
$1,440.00.
As for LaPorta’s mock trial(s)/focus group(s):
Chicago contends that the sought-after costs within
this subcategory total $35,338.27. (See Bill of Costs
Objections at 5.) The Court reaches a different figure,
calculating $60,570.25 by adding together the five line
items in LaPorta’s bill of costs labeled as either “mock
trial” or “focus group.” (Exs. to Chicago’s Bill of Costs
Objections at 12-14, Dkt. 517.) To any extent, while
the attorney time for such practice sessions is billable
as reasonable attorney fees in complex cases such as
this one, Wells v. City of Chicago, 925 F. Supp. 2d
1036, 1046 (N.D. Ill. 2013), the other affiliated costs
are not recoverable. Presumably, LaPorta accounted
for the related billables in his petition for attorneys’
fees, which the Court takes up below. That is left for
later. For now, none of the $60,570.25 will be awarded
as costs.
B. Travel and Lodging for Witnesses and
Counsel
Sections 1821 and 1920(3) authorize the award of
costs to reimburse witness for their reasonable travel,
lodging, and subsistence expenses. 28 U.S.C. §§ 1821,
1920(3). Travel costs for attorneys, however, are not
recoverable, Movitz v. First Nat’l Bank of Chi., 982 F.
Supp. 571, 577 (N.D. Ill. 1997) (citing 18 U.S.C.
§ 1920), so those costs will not be allowed, see, e.g., Bill
of Costs Objections at 1, 9-12 (expenses for attorney
Gould’s Uber ride; for Gould and attorney Romanucci’s
car rentals; and for Romanucci’s travel to Los Angeles
and Phoenix for depositions). Further, a number of
LaPorta’s line entries reflect travel expenses of

App-72
witnesses (often for depositions) presumably to avoid
imposing the same costs on attorneys. (See, e.g., id. at
9 (witness Balash travels to Chicago four months
before the start of trial).) Because, absent that costshifting, the attorney would have borne the cost of
travel in non-compensable fashion, these witness costs
will not be permitted. Movitz, 982 F. Supp. at 577
(citation omitted).
The Court will, however, allow reasonable travel,
lodging, and subsistence expenses for witnesses who
traveled to Chicago for trial. From the Court’s review
of LaPorta’s submissions, such travel expenses total
$667.03, reflecting trial travel expenses for
Dr. Rothman and Howland Health Consulting, Inc.
(Bill of Costs Objections at 12.) Chicago has not raised
any specific objections to these costs, and the Court
finds them to be reasonable. They shall be allowed.
As for the sought-after lodging and subsistence
costs: “A subsistence allowance may be paid to a
witness when an overnight stay is required at the
place of attendance, up to the maximum per diem
amount prescribed by the Administrator of General
Services, in accordance with 5 U.S.C § 5702(a).”
Richman v. Sheahan, No. 98 C 7350, 2010 WL
2889126, at *3 (N.D. Ill. July 14, 2010) (citing 28
U.S.C. § 1821(d)(1)-(d)(3)). The maximum per diem
rate allowable in Chicago in October and November of
2017, when this trial occurred, was $300, which
included fees for lodging, meals, and incidental
expenses. See U.S. General Services Administration,
Fiscal Year 2018 Domestic Per Diem Rates, (2018),
available at https://www.gsa.gov/travel/plan-book/
per-diem-rates/per-diem-rates-lookup/?action=perdi

App-73
ems_report&state=IL&fiscal_year=2018&zip=&city=;
cf. Richman, 2010 WL 2889126, at *3 (conducting
similar per diem inquiry). The Court will not allow
subsistence costs above that amount, and accordingly
awards as follows, which are the witness expenses
supported by the submitted documentation: $600.00
for Dr. Ziejewski’s two-day stay in Chicago; $900.00
for Mr. Rothman’s three-day stay; $900.00 for
Mr. Reiter’s three-day stay; and $900.00 for
Ms. Howland’s three-day stay, all for a total of
$3,300.00. (See Bill of Costs Objections at 11.) Those
expenses for meals and lodging recited in LaPorta’s
documents but exceeding these values shall not be
allowed. (See id. at 11-12.)
Finally, LaPorta seeks costs for attorneys’ meals.
But such expenses are not compensable and will be
denied. Fields, 2018 WL 253716, at *11
(“[P]resumably those involved would have had to eat
even had they not been involved in this case.”).
C. Deposition Transcript Costs
LaPorta claims $66,081.59 in costs under this
umbrella. A prevailing party may recover “[f]ees for
printed or electronically recorded transcripts
necessarily obtained for use in the case.” 28 U.S.C.
§ 1920(2). Local Rule 54.1(b) provides for recovery of
the transcript at a cost not to exceed “the regular copy
rate as established by the Judicial Conference of the
United States and in effect at the time the transcript
or deposition was filed unless some other rate was
previously provided for by order of court.” DSM
Desotech, Inc. v. 3D Sys. Corp., No. 08 CV 1531, 2013
WL 3168730, at *4 (N.D. Ill. June 20, 2013).

App-74
Chicago objects to these costs, arguing that they
represent numerous non-compensable expenses and,
further, that the lion’s share of these costs should be
denied because the documentation LaPorta submitted
is neither specific nor organized enough to permit the
City or the Court to parse the compensable expenses
from those that are not. As a general matter, many of
Chicago’s objections have merit. First, costs for
deposition transcript word indexes are not recoverable
absent a showing that they were reasonably necessary
in this case—a showing LaPorta has not made. Porter
v. City of Chicago, No. 8 C 7165, 2014 WL 3805681, at
*2 (N.D. Ill. Aug. 1, 2014) (collecting cases). Costs for
deposition exhibits likewise must be established as
reasonably necessary, but LaPorta failed to muster a
specific explanation for these as well. See Lewis v. City
of Chicago, No. 04 C 6050, 2012 WL 6720411, at *7
(N.D. Ill. Dec. 21, 2012). Next, costs for electronic
copies or “e-transcripts” are not recoverable, see The
Medicines Co. v. Mylan Inc., No. 11 CV 1285, 2017 WL
4882379, at *4 (N.D. Ill. Oct. 30, 2017) (citation
omitted), nor are delivery or handling costs, Correa v.
Ill. Dep’t of Corrections, No. 05 C 3791, 2008 WL
299078, at *2 (N.D. Ill. Jan. 29, 2008); Riley v. UOP
LLC, 258 F. Supp. 2d 841, 845 (N.D. Ill. 2003).
LaPorta also seeks costs for video recording of
depositions, but generally, “[c]ourts in this circuit will
not award costs for videotaping depositions where a
transcript was also purchased.” Martinez v. City of
Chicago, No. 14 CV 369, 2017 WL 1178233, at *20
(N.D. Ill. Mar. 30, 2017) (citation and internal
quotation marks omitted) (brackets in original).
LaPorta ordered transcripts for each of the depositions
for which he seeks videotaping costs, but he cannot

App-75
recover both expenses; the videotaping costs will not
be allowed.
What remains after the above have been
subtracted are simply costs for the deposition
transcripts themselves (sans the indexes). But as
foreshadowed, most of LaPorta’s invoices fail to break
out the non-recoverable costs for word indexes, thus
blocking the Court from determining which portion of
those invoices should be allowed as costs and which
refused. Nor does LaPorta’s summary spreadsheet
provide useful clarification. That sheet presents four
pertinent data for each entry: the date (of what, it is
not clear, although the Court assumes these are
invoice dates); the “source name,” meaning the payee;
“memo,” meaning the subject of the transcript; and the
total cost for that transcript. These entries omit,
however, any helpful means of actually navigating the
muddled batch of 550 pages of invoices, receipts, and
check requests LaPorta submits in support of his bill
of costs. (See Ex. A to LaPorta’s Bill of Costs,
Dkts. 465-467 (receipts filed across three different
docket entries).) If LaPorta’s summary spreadsheet at
least included pincite references to these documents
for each expenditure, the Court could compare and
review them. Absent this, the Court is left largely to
guess which transcripts were reasonably necessary
and thus compensable, and guesswork is not a proper
method for fixing costs.
Notably, even after Chicago levied these
objections, LaPorta made no effort in reply to clarify
which receipts correspond to which transcripts, or to
explain what portion of each of those opaque invoices
represents non-recoverable word indexes. Given that

App-76
failure, LaPorta has not met his burden to show the
amount of his recoverable costs as far as these invoices
are concerned. None of the costs reflected therein will
be allowed. Eliminating those indecipherable invoices
leaves behind twenty-seven invoices which, as
Chicago points out, actually itemize their respective
index costs. Of the $9,448.45 total those itemized
invoices represent, $334.00 is for word indexes,
$350.00 for electronic copies, $294.00 for processing
and handling, and $145.20 for exhibits. After
subtracting these non-recoverable expenses from the
$9,448.45 (see collected cases, above), we are left with
$8,325.25 and, because all of the prices-per-page
reflected in these invoices come in below the limits set
by the Judicial Conference, see Local Rule 54.1(b)
(permitting recovery of transcript costs only up to the
Judicial Conference per-page limit); Mylan, 2017 WL
4882379, at *4 (summarizing limits), the Court will
allow this remaining sum.
D. Hearing Transcripts
LaPorta seeks $232.05 in costs for seven pre-trial
hearing transcripts. “Courts in this District have
generally awarded costs for transcripts of [relatively
routine motion hearings] only when the prevailing
party articulates some specific necessity—for
example, where the written record of the status call or
motion hearing was the basis for, or relevant to, some
subsequent motion or filing, or to supply out-of-state
counsel with a record of the proceedings.” Hillmann v.
City of Chicago, No. 04 C 6671, 2017 WL 3521098, at
*7 (N.D. Ill. Aug. 16, 2017) (collecting cases). LaPorta
makes no effort to explain his need for these
transcripts, and, absent some explanation of a specific

App-77
need, the Court, having reviewed the transcripts at
issue (insofar as the Court was able to identify them
from LaPorta’s submissions), believes “careful notes
by counsel” would have sufficed. See id. These pre-trial
transcript costs will not be allowed.
E. Copying and Exemplification
The Court may allow costs fees for copying and
exemplification of papers necessarily obtained for use
in the case. 28 U.S.C. § 1920(4). But to receive its
copying costs, LaPorta must “identify the nature of
each document copied, the number of copies of each
document prepared, the copying cost per page, and the
total copying cost.” Druckzentrum Harry Jung GmbH
& Co. KG v. Motorola, Inc., No. 09 CV 7231, 2013 WL
147014, at *7 (N.D. Ill. Jan. 11, 2013) (citation and
internal quotation marks omitted). This LaPorta
failed to do. Instead, he simply provided a base
calculation indicating that he paid for 70,961 black
and white pages at $0.05 per page and 1,492 color
pages at $0.15 per page for a total of $3,771.85. This
threadbare recitation in no way informs the Court as
to the nature of these documents or as to how many
copies of each document were ordered. But,
acknowledging that LaPorta certainly must have
reasonably copied some materials during this sevenyear litigation, the Court will allow 50% of the soughtafter copying costs, or $1,885.93.
As for exemplification: LaPorta is correct that
many types of presentations may fall within the
allowable exemplification costs contemplated by
§ 1920(4). See Cefalu v. Village of Elk Grove, 211 F.3d
416, 428 (7th Cir. 2000). But first, the Court must
determine whether the exemplification was “vital to

App-78
the presentation” or “merely a convenience or, worse,
an extravagance.” Id. (citation omitted). “Among the
factors that the judge might consider in evaluating the
necessity of a particular type of exemplification is
whether the nature and context of the information
being presented genuinely called for the means of
illustration that the party employed.” Id. When the
prevailing party fails to identify the exhibits for which
it claims costs, this exercise becomes impossible, and
courts deny the award of costs. See Trading Techs.
Int’l, Inc. v. eSpeed, Inc., 750 F. Supp. 2d 962, 981
(N.D. Ill. 2010) (citing Vigortone Ag Products, Inc. v.
PM Ag Products, Inc., No. 99 C 7049, 2004 WL
1899882, at *8 (N.D. Ill. Aug. 12, 2004)). Such is the
shortcoming for nearly all of LaPorta’s sought-after
exemplification costs, which comprise: unspecified
“trial boards,” “3-D Graphics,” five generic “video”
costs, and $1,500.00 for the “Day in the Life” video
shown at trial. (See Exs. to Chicago’s Bill of Costs
Objections at 2-3, Dkt. 517.) All but the last of these
are too generically labeled for the Court to determine
whether they were vital and thus compensable. The
last depicted the difficulties LaPorta faces each day as
a result of his injuries. The Court agrees that these
difficulties were best laid out for the jury in video form,
and so, because the subject matter called for
videographic means of illustration, the associated
$1,500.00 in associated exemplification costs will be
allowed.
F.

Service of Process

LaPorta initially sought $3,125.96 in costs for
subpoena service fees. But Chicago pointed out this
number should be reduced by $1,083.85 because

App-79
service fees cannot exceed $55.00 per hour, see Specht
v. Google Inc., No. 09 C 2572, 2011 WL 2565666, at *4
(N.D. Ill. June 27, 2011), and also because LaPorta
sought costs for service upon individuals who never
actually testified (at deposition or otherwise). In reply,
LaPorta concedes to Chicago’s objections and agrees
his service of process costs should be reduced by
$1,083.85. The Court has reviewed the applicable
supporting documents and concurs, so LaPorta shall
be awarded $2,042.11 under this category.
G. Miscellaneous Costs
LaPorta seeks $2,306.25 for videoconferencing
costs accrued from the long-distance deposition of
Illana Rosenweig, who lives in Singapore. But courts
in this District have declined to award such costs, be
they for phone charges or room rentals. See Hillmann,
2017 WL 3521098, at *5-6 (collecting cases). This cost
is declined.
Next are LaPorta’s $4,391.14 in “case costs” from
Salvato & O’Toole. LaPorta universally fails to
describe these costs with the specificity needed for this
Court to determine their reasonable necessity. These
costs are also declined.
Three other costs are similarly vague and must be
declined: $12.76 for unspecified “Daley Center
Copies”; $17.78 for some “supplies”; and $9,252.00 for
a nowhere-explained “investigation.”
Based on the above, the Court allows LaPorta
$19,160.32 in total costs.

App-80
IV. LaPORTA’S
FEES

PETITION

FOR

ATTORNEYS’

The Civil Rights Attorney’s Fees Award Act, 42
U.S.C. § 1988, allows the award of reasonable
attorney’s fees to the prevailing party in various kinds
of civil rights cases, including suits brought under
§ 1983. Fox v. Vice, 563 U.S. 826, 832-33 (2011)
(citation and internal quotation marks omitted). The
statute serves the dual purpose of reimbursing
plaintiffs for vindicating important civil rights and
holding accountable violators of federal law. See id.
However, a defendant “need only compensate plaintiff
for fees to the extent plaintiff succeeds; losing claims
are not compensable.” Kurowski v. Krajewski, 848
F.2d 767, 776-77 (7th Cir. 1988).
In awarding fees under § 1988, a court’s first step
is to determine whether the party seeking fees is
entitled to “prevailing party” status. Gibson v. City of
Chicago, 873 F. Supp. 2d 975, 982 (N.D. Ill. 2012).
Under one formulation approved by the Supreme
Court, “plaintiffs may be considered prevailing parties
for the purpose of awarding attorneys’ fees if they
succeed on any significant issue in the litigation which
achieves some of the benefit the parties sought in
bringing suit.” Baker v. Lindgren, 856 F.3d 498, 503
(7th Cir. 2017) (citing Hensley v. Eckerhart, 461 U.S.
424, 433 (1983)). This is not a close question here,
where LaPorta won a $44.7 million verdict on his
Monell claims. He is clearly the prevailing party in
this litigation.
To calculate reasonable attorneys’ fees under
§ 1988, courts apply the “lodestar method,” which
multiplies the attorneys’ reasonable hourly rates by

App-81
the number of hours they reasonably expended. People
Who Care v. Rockford Bd. of Educ., Sch. Dist. No. 205,
90 F.3d 1307, 1310 (7th Cir. 1996) (citing Hensley, 461
U.S. at 433). The party requesting fees carries the
burden of establishing their reasonableness.
McNabola v. Chi. Transit Auth., 10 F.3d 501, 518 (7th
Cir. 1993). Once the Court has arrived at a base
lodestar figure, it may enhance that figure in the rare
instance that the lodestar fails to “take into account a
factor that may properly be considered in determining
a reasonable fee.” Perdue v. Kenny A. ex rel. Winn, 559
U.S. 542, 553-54 (2010).
Plaintiff seeks a total of $4,515,567.50 in
attorneys’ fees, calculated as follows:
Attorney

Hourly
Rate

Hours

Total per
Attorney

from Romanucci & Blandin
Antonio
Romanucci

$750

2021.55

$1,516,162.50

Stephan
Blandin

$750

288.30

$216,225.00

Gina
DeBoni

$500

7.40

$3,700.00

Debra
Thomas

$500

2788.25

$1,394,125.00

Michael
Holden

$425

7.05

$2,996.25

Bruno
Marasso

$400

278.00

$111,200.00

App-82
Bhavani
Raveendran $350

28.55

$9,992.50

Martin
Gould

$350

1410.70

$493,745.00

Nicolette
Ward

$350

661.45

$231,507.50

Rebekah
Williams

$350

57.40

$20,090.00

Kelly
Armstrong

$350

16.70

$5,845.00

from Salvato & O’Toole:
Carl
Salvato

$600

466.60

$279,960.00

Paul
O’Toole

$600

3.00

$1,800.00

Jason E.
Hammond

$400

3.00

$1,200.00

Matt Popp

$350

18.50

$6,475.00

from Schiller Preyar:
Brendan
Schiller

$500

51.90

$29,950.00

Susan
Ritatta

$350

20.60

$7,210.00

Lillian
McCartin

$400

10.90

$4,360.00

Tia
Haywood

$350

30.70

$10,745.00

App-83
Across All Firms:
Law Clerks

$125

700.25

$87,531.25

Paralegals

$125

675.08

$84,385.00

Admin.
Staff

$125

42.90

$5,362.50

A. Hourly Rates
The Court begins by examining counsels’ claimed
hourly rates. In determining a reasonable hourly rate,
attorneys’ fees awarded under Section 1988 “are to be
based on market rates for services rendered.” Missouri
v. Jenkins by Agyei, 491 U.S. 274, 283 (1989) (citations
omitted). “The attorney’s actual billing rate for
comparable work is ‘presumptively appropriate’ to use
as the market rate.” People Who Care, 90 F.3d at 1310
(quoting Gusman v. Unisys Corp., 986 F.2d 1146, 1150
(7th Cir. 1993)). The next best evidence of a reasonable
fee is the rate charged by lawyers in the community of
comparable skill, experience, and reputation. Id.
Previous fee awards are also “useful for establishing a
reasonable market rate.” Jeffboat, LLC v. Dir., Office
of Workers’ Comp. Programs, 553 F.3d 487, 491 (7th
Cir. 2009).
At the outset, Chicago contends, correctly, that
LaPorta’s efforts to justify the proposed rates largely
miss the mark. LaPorta submits affidavits from two
Chicago-based, class-action litigators, who both attest
to the reasonableness of the proposed figures. (See
generally Exs. 24, 25, Cherry & Zolna Decls., Dkts.
549-1.) But while the rates charged by other
community lawyers can be helpful benchmarks, those
attorneys’ attestations to what rates are and are not

App-84
reasonable is less persuasive. And to any extent, the
two attorneys in question are class-action counsel, not
civil-rights litigators. This distinction matters: “The
reasonable fee is capped at the prevailing market rate
for lawyers engaged in the type of litigation in which
the fee is being sought.” Cooper v. Casey, 97 F.3d 914,
920 (7th Cir. 1996) (citation omitted).
LaPorta tries to prop up his suggested billing
rates by reference to lawsuits having nothing to do
with police misconduct or even, in many cases,
Chicago. First, the costs of lawyering are not uniform
across the country, which is why market rate
comparisons should be made to lawyers of comparable
skill, experience, and reputation in the same
community. Jeffboat, 553 F.3d at 491. And second, as
Judge Matthew Kennelly recently observed in a
similar case, “the relevant frame of reference is civil
rights / police misconduct litigation, not commercial
litigation.” Fields, 2018 WL 253716, at *3.
Last, LaPorta points out that his proposed rates
fall within the Laffey matrix, “a chart of hourly rates
for attorneys and paralegals in the Washington, D.C.
area that was prepared by the United States
Attorney’s Office for the District of Columbia to be
used in fee-shifting cases.” Pickett v. Sheridan Health
Care Ctr., 664 F.3d 632, 649 (7th Cir. 2011). But as
this Court has pointed out, the Seventh Circuit has not
formally adopted the Laffey matrix, and the rates
charges therein are “significantly higher than those
charged in this district.” Baker v. Ghidotti, No. 11 C
4197, 2015 WL 1888004, at *3 (N.D. Ill. Apr. 24, 2015)
(quoting Gibson, 873 F. Supp. 2d at 984), aff’d in part,

App-85
vacated in part sub nom. Baker v. Lindgren, 856 F.3d
498 (7th Cir. 2017).
Beyond this and a few arguments concerning the
propriety of the proposed rates for his lead counsel,
LaPorta does not offer any specific arguments
concerning the rates for his individual lawyers. He
largely allows those attorneys’ affidavits to speak for
themselves. Chicago, however, makes several
attorney-specific arguments. Against this backdrop,
the Court must determine what rates are reasonable.
Antonio Romanucci and Stephan Blandin.
Neither attorney provides specific rates they actually
charged any past or present client. Rather, Romanucci
suggests that he effectively charged $1000/hour in a
set-fee matter. The Court finds more useful than this
Chicago’s identification of Fields, in which the court
awarded attorney Jon Loevy a rate of $550 for his
work on a multi-year civil rights case that involved
Monell claims against the City and culminated in a
month-long trial. 2018 WL 253716, at *3. The Fields
court took care to note that Mr. Loevy is “one of the
top (if not the top) plaintiff’s attorneys for police
misconduct suits in Chicago.” Id. at 3 (emphasis in
original). Based on this comparison and factoring in
Romanucci’s attested-to lengthy experience in civilrights litigation, the Court sets his rate equal to
Mr. Lovey’s at $550 an hour. The Court sets Blandin’s
rate at $450 per hour, with the discount from
Romanucci’s rate reflecting Blandin’s lesser
experience with police misconduct litigation. (See
Blandin Aff. at 86-88, Dkt. 549-1.)
Michael Holden. Holden, like attorneys Steven
Art and Cindy Tsai in the Fields case, has about eight

App-86
years of litigation experience. Those attorneys’ rates
were set at $325 per hour in Fields, and the Court will
set the same rate for Holden here.
Bruno Marasso. Unlike Holden, who has been
practicing for ten years, Marasso started working as a
lawyer in 2012. The two attorneys in Fields with a
similar range of experience received hourly rates of
$275. The Court does not see the same distinction as
does the City between those attorneys’ degrees of
specialization and Marasso’s, so the Court will adopt
the $275/hour rate.
Martin Gould. Gould has a few years’ less
experience than Marasso. His rate shall be set at
$225/hour.
Nicolette Ward. Ward has been a member of the
bar since only 2016—two years less than Gould—
though she avers that she has spent the majority of
that brief time in practice working on police
misconduct matters. The Court sets her rate at
$200/hour.
Gina DeBoni. Chicago contends DeBoni should be
compensated at a depressed rate because her work
amounts to drafting letters and reviewing documents.
But DeBoni’s affidavit indicates that she was a
managing attorney at the firm during this case and
her work included communicating with opposing
counsel and participating in case strategy sessions.
These are not the tasks of a paralegal and should not
be reduced to such. Based on her 15+ years of practice
but relatively little civil-rights experience, the Court
sets her rate at $350.
Rebekah Williams & Kelly Armstrong. LaPorta
has not produced an affidavit for either of these

App-87
attorneys nor any description of who they are or what
their background is. The Court thus cannot determine
a reasonable fee nor say that LaPorta has met his
burden of producing evidence to support the proposed
rates for these attorneys. The Court will not award
fees for either.
Bhavani Raveendran. Raveendran has been an
attorney about as long as Marasso and has as much
civil-rights litigation experience, if not more. His rate
will be set at $275/hour.
Debra Thomas. Thomas has been practicing since
2002. In this case she appears to have focused her
efforts on discovery review and organization, as well
as some witness preparation. Her affidavit does not
evince much experience with civil rights litigation
beyond her participation in this case. Though she has
more lawyering years under her belt than some, her
experience falls short of Blandin’s or Romanucci’s. The
Court sets her rate at $300/hour.
Law Clerks & Paralegals. Both parties agree that
this hourly rate should be $125. This rate is supported
by case law, and the Court will adopt it. See Awalt v.
Marketti, No. 11 C 6142, 2018 WL 2332072, at *4 (N.D.
Ill. May 23, 2018).
Staff Assistants & Office Managers. Fees for such
employees are non-compensable overhead. See Fields,
2018 WL 253716, at *5. These fees will not be
awarded.
Carl Salvato & Paul O’Toole. These attorneys
originated this litigation but quickly referred it to
Romanucci & Baldwin, who acted as counsel in this
case and took it to trial. Though experienced litigators,
neither Salvato nor O’Toole has any attested-to

App-88
experience with civil-rights litigation. Both attorneys’
rates are set at $300/hour.
Jason E. Hammond & Matt Popp. As with
Rebekah Williams & Kelly Armstrong, LaPorta has
not provided an affidavit or other explanatory
documentation for either of these attorneys. The Court
cannot assess the reasonableness of their rates,
therefore, and will not award their fees.
Brendan Shiller. A few years ago, another court
in this district considered Shiller’s experience at some
length in a different civil rights suit and settled on a
rate of $385/hour, even though Shiller had done “none
of the trial work” in that case. Montanez v. Chi. Police
Officers Fico (Star No. 6284), Simon (Star No. 16497),
931 F. Supp. 2d 869, 875-76 (N.D. Ill. 2013), aff’d sub
nom. Montanez v. Simon, 755 F.3d 547 (7th Cir. 2014).
The Court finds that discussion and Shiller’s decadeplus of litigation experience instructive and sets his
rate at $385/hour.
Susan Ritatta, Lillian McCartin, & Tia Haywood.
The billing entries provided for these three associates
suggest that nearly all of their work in this case
consisted of providing deposition abstracts to
Romanucci & Blandin. Such tasks are generally “left
to legal assistants, who bill their time at a much lesser
rate than a member of the Bar.” Lockrey v. Leavitt
Tube Employees’ Profit Sharing Plan, No. 88 C 8017,
1991 WL 255466, at *6 (N.D. Ill. Nov 22, 1991)
(Rovner, J.). The Court will accordingly set each of
these attorneys’ rates at $125/hour, an appropriate
number for such work.

App-89
B. Hours Billed
The hours-worked component of the lodestar
calculation excludes hours “not reasonably expended,”
such as hours that are “excessive, redundant, or
otherwise unnecessary,” Awalt, 2018 WL 2332072, at
*1 (quoting Hensley, 461 U.S. at 434), as well as hours
expended by counsel on tasks “that are easily
delegable to non-professional assistance,” Evans v.
Portfolio Recovery Assocs., LLC, No. 15 C 4498, 2017
WL 2973441, at *3 (N.D. Ill. July 12, 2017) (quoting
Spegon v. Catholic Bishop of Chi., 175 F.3d 544, 553
(7th Cir. 1999)). The prevailing party has the burden
of proving the reasonableness of the time expended in
litigation, Fields, 2018 WL 253716, at *2 (citing
Hensley, 461 U.S. at 433, 437), and that party’s billing
records must be sufficient to allow the court to
determine as much, Gibson, 873 F. Supp. 2d at 986.
Chicago starts by arguing that LaPorta should not
be able to recover for those hours billed before LaPorta
added the Monell claims (after which the City removed
the matter from state court). Before that point,
LaPorta pursued claims against the City for “willful
and wanton conduct,” against Kelly for negligence,
and against those bars LaPorta and Kelly visited prior
to the shooting for dram shop violations. (See generally
State Ct. Compl., Dkt. 1-1.) The City contends that the
hours spent litigating these issues in state court were
not reasonably related to LaPorta’s ultimate success
on the Monell claims and should be excluded from the
lodestar calculation. The Court disagrees.
Though LaPorta did not take his initiallybrought, state-law claims to trial, the inquiry for
determining fees in light of partial success is still

App-90
instructive. That inquiry asks whether the
unsuccessful (or, here, the un-pursued) claims involve
“a common core of facts or [are] based on related legal
theories.” Wallace v. Mulholland, 957 F.2d 333, 339
(7th Cir. 1992) (citation and internal quotation marks
omitted). In a practical sense, this inquiry
contemplates how much less time LaPorta’s counsel
might have expended had he brought the Monell claim
from the beginning. See Flanagan v. Office of the Chief
Judge of the Circuit Court of Cook Cty., 663 F. Supp.
2d 662, 670 (N.D. Ill. 2009). Though LaPorta’s preMonell suit involved claims grounded in different legal
theories, most of them focused on a common core of
facts, and counsels’ development of these facts related
directly to the ultimately-raised § 1983 action. These
efforts included depositions of relevant fact witnesses,
including LaPorta’s father and Kelly, successful
litigation over the production of Kelly’s IPRA file, and
investigations into the shooting and LaPorta’s
subsequent injuries. Counsel used the fruits of all of
these efforts at trial on the Monell claims, and the
Court will not cut out the hours billed in their
production. See Gilfand v. Planey, No. 07 C 2566, 2012
WL 5845530, at *10 (N.D. Ill. Nov. 19, 2012) (citations
omitted).
Chicago’s second objection carries more weight.
“When a fee petition is vague or inadequately
documented, a district court may either strike the
problematic entries or (in recognition of the
impracticalities of requiring courts to do an item-byitem accounting) reduce the proposed fee by a
reasonable percentage.” Harper v. City of Chi. Heights,
223 F.3d 593, 605 (7th Cir. 2000). The City contends
that counsels’ billing entries are plagued by vague and

App-91
improper entries and, as a result, should be cut from
the proposed 9,588.78 hours down to 5,862.20. Though
the Court disagrees with the magnitude of the City’s
proposed reduction, some downward adjustment is
proper. What follows is a consideration of the City’s
objections; when LaPorta meaningfully replied to
these objections, the Court considered and noted them
also. When subtractions are made to specific
paralegals or law clerks, the Court factored those
subtractions into the “law clerk” or “paralegal”
categories, given that all members of each category bill
at the same rate and there was no need to break this
category down by individual biller.
1.

Antonio Romanucci

The City objects to 646.13 of the requested
2021.55 hours for Mr. Romanucci. The first gripe is for
400 hours he billed from 2010-2017 for emailing.
Chicago suggests, and LaPorta does not contest, that
Romanucci arrived at this figure by searching his
inbox for emails related to this case and multiplying
the resulting 4,000 emails by 0.1 hours a piece. But
many of the emails required zero of Romanucci’s
efforts and should not be awarded, including: notices
of docket entries, notices that people within
Romanucci’s office accepted calendar invitations for
meetings, and extraneous communications unrelated
to the LaPorta case. The Court sees many meritorious
emails in these records, however, and attorneys must
be able to communicate with the opposition and their
peers in litigating a case. The Court accordingly
reduces these 400 email hours by 25%, allowing 300 of
them.

App-92
Next, Chicago requests that the Court cut
Romanucci’s 128.5 hours billed in the pre-Monell,
state-court case, for the same reasons discussed above.
As above, the Court will allow those hours over
Chicago’s objection.
Third, the Court agrees with Chicago that
Romanucci cannot bill the 110.33 hours that are
attended by only a blank time-entry.
Fourth, aside from the blank entries, Chicago
objects to 18.9 hours as vague. The Court agrees; the
entries Chicago identifies (e.g., “Preparation of
Letterhead-Blank” and “all about msj today”) lack a
description sufficient for the Court to judge their
reasonableness. These 18.9 hours will not be allowed.
Fifth, Romanucci billed 100 hours for travel to
depositions. “The presumption . . . should be that a
reasonable attorney’s fee includes reasonable travel
time billed at the same hourly rate as the lawyer’s
normal working time.” Henry v. Webermeier, 738 F.2d
188, 194 (7th Cir. 1984). However, some of
Romanucci’s entries seem to reflect more travel time
than was warranted. In one, perhaps simply clumsy,
entry, Romanucci bills 36 hours for one day’s worth of
combined travel, deposition, and preparation. (See Pl.
Ex. 29A5, 1/24/17.) There are other entries in which
Romanucci similarly failed to break out travel from
deposition and prep time; those entries, even
assuming 10 hours of prep time, still include upwards
of 10 hours of travel for each. Romanucci does not
clarify any of these in reply, so the Court reduces these
100 hours to 50.
Sixth,
perhaps
showcasing
Chicago’s
attentiveness to Romanucci’s records, the City objects

App-93
to 0.65 hours comprising three entries for
“Preparation of Check Request.” The Court agrees this
is a ministerial task best left to an administrative
assistant. The 0.65 hours will be subtracted.
Last, Romanucci billed 2.0 hours for preparing
Mr. and Mrs. LaPorta for a television interview. These
hours will be subtracted as well.
In all, the Court subtracts 281.88 from
Romanucci’s total, leaving a sum of 1,739.67 billable
hours.
2.

Stephan Blandin

Chicago objects to 228.3 of Blandin’s 288.3 billed
hours, largely on the basis that Blandin had relatively
little speaking time during trial. But Blandin, a
founding partner of his firm and an experienced
litigator, billed for “trial strategy support” and
“witness trial prep,” both legitimate uses of his time,
even though neither requires an in-court speaking
role. That time will be allowed. Chicago concedes that
the remaining 60 hours of Blandin’s time,
representing preparation for and participation in
actual trial proceedings, are reasonable. For those
reasons, all 288.3 of Blandin’s hours will be allowed.
3.

Gina DeBoni

Chicago attempts to nibble at the margins once
more by objecting to 0.7 hours of DeBoni’s 7.40 total
hours for time spent reviewing a letter regarding
“hand delivery of motions,” for preparing a letterhead,
and for reviewing her firm’s retention agreement with
LaPorta. Reviewing the letter and discussing the
retention agreement with her client are billable tasks.

App-94
The balance are administrative and are not. The Court
strikes 0.15 hours, allowing DeBoni a total of 7.25.
4.

Debra Thomas

The 2,788.25 billable hours for Thomas present a
sticking point for the parties; after Chicago levied its
objections to her time, LaPorta expended eight pages
of his thirty-five-page reply trying to knock those
objections down. The Court has reviewed Thomas’s
underlying timesheets and agrees that her time must
be substantially reduced. These hours consist of over
13,000 entries spanning 725 pages, so the Court
necessarily discusses them here absent a granular
level of detail. At least 12% of the entries are overly
vague (including entries marked simply “work on
discovery matters”), and another 8% are duplicative.
In reply, LaPorta explains that Thomas was an
integral part of his strategy team. But if her work was
as substantive as LaPorta says, then these vague and
duplicative billing entries needed to say as much.
Those entries are what the client sees and form the
basis for what the client pays. The Court doubts that
many clients would stomach consistently vague
entries attended by later, parol explanations.
Chicago’s other objection centers on Thomas’s 72
billed hours for deposition prep, which the City
contends to be superfluous given that Thomas
attended only one deposition in this case. But there is
no requirement that the attorneys who work on the
preparation for a deposition need to actually attend.
There are many tasks—writing deposition outlines
prime among them—that may be completed and
properly billed by an attorney other than the one who
ultimately conducts the deposition. These 72 hours

App-95
will not be stricken, but the Court will reduce
Thomas’s hours, given the above, by 20%, resulting in
an allowed total of 2,230.6 hours.
5.

Michael Holden

1.45 hours of Holden’s billing entries are either
blank or represent simple, clerical tasks. These hours
are excluded, leaving a total of 5.6 hours.
6.

Bruno Marasso

The Court will not deduct any of Marasso’s hours.
They provide sufficient insight into his activities and,
contrary to Chicago’s assertions, his hours should not
be docked for including internal firm conferences. Nor
is Marasso’s habit of block-billing prohibited (though
the Court notes it is not ideal). See Farfaras v. Citizens
Bank & Tr. of Chi., 433 F.3d 558, 569 (7th Cir. 2006)
(“Although ‘block billing’ does not provide the best
possible description of attorneys’ fees, it is not a
prohibited practice.”). The full 278 hours will be
awarded.
7.

Bhavani Raveendran

Chicago does not object to Raveendran’s hours,
and the Court sees in her billing sheets no reason for
a deduction. Her 28.55 billable hours are allowed.
8.

Martin Gould

Chicago objects to 309.85 of the requested 1,410.7
hours for Gould, but these objections are overstated:
For the same reasons expressed already, the Court
will not dock Gould for his time billed for intrafirm
conferences or for reasonable travel time to
depositions. However, Gould bills 175.3 hours all
under the single description “Emails Sent: 20142017,” which provides the Court no insight into what

App-96
Gould was communicating about, or with whom.
Given Romanucci’s seemingly inadvertent inclusion of
irrelevant emails in his own email-time calculation,
and the fact that he and Gould are attorneys at the
same firm and thus are likely to share billing
practices, some reduction is appropriate. As with
Romanucci, the court reduces Gould’s email time by
25%, resulting in 131.48 hours. The Court deducts 5%
from the non-email billables for vague entries.
Accounting for these subtractions, the Court allows
Gould 1,305.11 hours.
9.

Nicolette Ward

Ward billed 661.45 hours in this case. 41.05 of
those hours had originally been attended by blank
entries; upon request from the City, Ward clarified
that each of those entries should read “Review of
Email Correspondence.” This suffers from the same
deficiencies as Gould and Romanucci’s email entries.
The Court accordingly cuts those 41.05 hours by 25%.
According to Chicago’s detailed review, Ward’s time
also includes 118.4 hours of duplicative entries and
6.55 hours of administrative tasks (i.e., “docketing”).
LaPorta does not dispute those characterizations.
Though the Court has not crawled through every
single entry as Chicago professes to have done, the
Court’s review of Ward’s records confirms the general
accuracy of the City’s count. The Court thus subtracts
50 hours for duplicative entries, as well as the 6.55
hours for administrative tasks. The result is 594.64
billable hours.
10. Law Clerk Bryce Hensley
Only one of Chicago’s objections holds sway for
this biller. On October 26, 2017, Hensley billed 9 hours

App-97
for “Trial/Closing.” But there were no closings that
day; instead, the jury deliberated in the morning and
rendered their verdict in mid-afternoon. Absent any
clarification from Hensley, the Court strikes 8 of those
9 hours on the understanding that Hensley came to
court for the delivery of the verdict. His total allowed
hours are 691.05.
11. Paralegal Keocco Larry
The Court agrees with Chicago that there are a
few duplicative entries for Larry and accordingly
reduces the claimed 46.6 hours to 40.6.
12. Paralegal Karle Longnion
To start, Longnion’s billables will be reduced by
139.25 hours, which comprise non-compensable time
for printing, scanning, preparing binders, and filing
documents. See Delgado, 2006 WL 3147695, at *2.
LaPorta also seeks recompense for 116.5 hours for the
undated and unspecified preparation and issuing of
subpoenas and notices. Even over lengthy litigation
like this one, it strains credulity that Longnion spent
over 14 days in combined manhours cranking out
subpoenas. Though she might have reasonably done
so, the Court cannot say she did given the sparsity of
her time entries. The Court cuts the 116.5 hours by
half. Finally, Longnion block-billed 174.5 hours for
“preparing for and assisting at trial,” again without
specifying the dates or actual tasks she completed.
The Court cuts these 174.5 hours by half as well. In
sum, LaPorta may bill the City for 170.75 of
Longnion’s claimed 455.50 hours.

App-98
13. Paralegal Matt Dominguez
The City objects to one entry in which Dominguez
claims to have worked 23 hours in one day on
“preparing and issuing trial subpoenas.” Though the
City is incredulous, it is of course possible that
Dominguez worked these hours in one day. But
because some specificity would have been helpful to
the Court’s inquiry of determining whether this is a
reasonable fee, however, the Court will cut those 23 by
10%. Chicago also seeks to exclude 14.73 of
Dominguez’s hours submitted by LaPorta only after he
sought to fix other deficient entries. These the Court
will not exclude. The total allowance for Dominguez is
110.88 hours.
14. Carl Salvato
Chicago’s first objection to Salvato’s time focuses
again on those hours spent in pre-Monell, state-court
litigation. As described above, that litigation was
related to the Monell claims ultimately pursued in this
Court, so the state-court hours will not be stricken.
Next, Chicago contends that Salvato’s 212.8 hours for
deposition prep and attendance should be stricken
because Salvato did not participate in those
depositions. But again, the fact that Salvato did not
conduct these depositions does not mean he played no
role in preparing co-counsel or the witness for the
same. These hours will be left intact. The Court will
strike 3 hours relating to a meeting with press and
fundraisers which bears no direct connection to
litigating LaPorta’s claims. LaPorta is entitled to fees
for 463.6 of Salvato’s 466.6 billable hours.

App-99
15. Paul O’Toole
O’Toole billed only 3 hours—these represent his
meeting with the LaPorta family and walking them
through signing a retainer, power of attorney, and a
medical authorization form. These 3 hours are
reasonable.
16. Jason Hammond & Matt Popp
As described above, the Court has set both
Hammond and Popp’s reasonable rates at $0/hour, so
their time will be disallowed entirely.
17. Attorneys at Shiller Preyer
Brendan Shiller himself billed 51.9 hours for work
on motions in limine and jury instructions, reviewing
transcripts, and case management. His 51.9 hours will
not be reduced. Nor will the collective 102.7 hours for
his coworkers (attorneys Ritatta, McCartin, and
Haywood, as well as paralegals), whose rates have
been uniformly set at $125/hour in recognition that
nearly all of their work consisted of working on
deposition abstracts. See Lockrey, 1991 WL 255466, at
*6.
C. Lodestar Adjustment
Based on the corrected hourly rates, Plaintiff’s
lodestar is recalculated as $2,558,991.50:
Attorney

Hourly
Rate

Hours

Total per
Attorney

1,739.67

$956,818.50

from Romanucci & Blandin
Antonio
Romanucci

$550

App-100
Stephan
Blandin

$450

288.30

$129,735.00

Gina
DeBoni

$350

7.25

$2,537.50

Debra
Thomas

$300

2230.60

$669,180.00

Michael
Holden

$325

5.60

$1,820.00

Bruno
Marasso

$275

278.00

$76,450.00

Bhavani
Raveendran $275

28.55

$7,851.25

Martin
Gould

$225

1305.11

$293,649.75

Nicolette
Ward

$200

594.64

$118,928.00

Rebekah
Williams

$0

0.00

$0.00

Kelly
Armstrong

$0

0.00

$0.00

from Salvato & O’Toole:
Carl
Salvato

$300

463.60

$139,080.00

Paul
O’Toole

$300

3.00

$900.00

Jason E.
Hammond

$0

0.00

$0.00

Matt Popp

$0

0.00

$0.00

App-101
from Schiller Preyar:
Brendan
Schiller

$385

51.90

$19,981.50

Susan
Ritatta

$125

20.60

$2,575.00

Lillian
McCartin

$125

10.90

$1,362.50

Tia
Haywood

$125

30.70

$3,837.50

Across All Firms:
Law Clerks

$125

692.25

$86,531.25

Paralegals

$125

382.03

$47,753.75

Admin.
Staff

$0

0.00

$0.00

Having determined the lodestar, the Court must
contend with LaPorta’s request for a 200% lodestar
enhancement. For LaPorta, as for any prevailing
party, this is a tough road to hoe. The Supreme Court
has made clear that there is a “strong presumption”
that the lodestar figure is reasonable, and that
presumption may be overcome only “in those rare
circumstances in which the lodestar does not
adequately take into account a factor that may
properly be considered in determining a reasonable
fee.” Perdue v. Kenny A. ex rel. Winn, 559 U.S. 542,
553-54 (2010). The party seeking enhancement bears
the burden of proof and can shoulder that burden only
by presenting “specific evidence that the lodestar fee
would not have been ‘adequate to attract competent

App-102
counsel.’” Id. at 554 (quoting Blum v. Stenson, 465
U.S. 886, 897 (1984) (citation omitted)).
LaPorta presents no such evidence but argues
instead that the sizeable verdict he won reflects the
excellence of his counsel, which should be rewarded
with an enhancement. But “a ‘reasonable’ fee is a fee
that is sufficient to induce a capable attorney to
undertake the representation of a meritorious civil
rights case. . . . not [one providing] ‘a form of economic
relief to improve the financial lot of attorneys.’” Id. at
552 (quoting Pennsylvania v. Del. Valley Citizens’
Council for Clean Air, 478 U.S. 546, 555 (1987)).
Beyond this, the Perdue Court cautioned that neither
the novelty and complexity of a case nor the quality of
an attorney’s performance should be used as the basis
for enhancement because such considerations are
normally already accounted for in the reasonable
hourly rate. Id. at 553 (citing Del. Valley, 478 U.S. at
566).
In brief, LaPorta has fallen short of carrying his
burden to show that this is one of those rare instances
in which the reasonable fee award is not fairly
calculated by the lodestar method. The request for
enhancement is denied.
Absent any enhancement, the total attorneys’ fee
award is $2,558,991.50, as laid out above.
V. CHICAGO’S MOTION FOR REMITTITUR
Finally, Chicago moves for remittitur, arguing the
$44.7 million damages award should be reduced to
$28.13 million. Traditionally, trial courts may only
disturb damage awards that are monstrously
excessive, born of passion and prejudice, or not
rationally connected to the evidence. Fleming v. Cty.

App-103
of Kane, 898 F.2d 553, 561 (7th Cir. 1990) (citing
Cygnar v. City of Chicago, 865 F.2d 827, 847 (7th Cir.
1989)). Beyond this, courts must also consider
whether the award is out of line with awards in
similar cases. Id. (citations omitted). In considering
Chicago’s Motion, the Court keeps in mind the
Seventh Circuit’s admonition that the jury’s verdict is
entitled to deference given that the measure of
damages is inherently “an exercise in fact-finding,”
which is the jury’s province. Matter of Innovative
Constr. Sys., 793 F.2d 875, 877-88 (7th Cir. 1986)
(citation and internal quotation marks omitted).
Specifically, the jury awarded: $12 million for past
and future medical expenses; $1.5 million for past and
future lost earnings; $100,000 for disfigurement;
$100,000 for increased risk of harm; $12 million for
past and future pain and suffering; $15 million for
past and future loss of a normal life; and $4 million for
shortened life expectancy. Chicago objects to the last
three sums only, contending they should be remitted
to $5.32 million, $7.45 million, and $1.6 million,
respectively. In support of its Motion, Chicago
marshals two main arguments: First, Chicago
contends the jury improperly sought to punish the
City, rather than simply make LaPorta whole; and
second, Chicago contends that these awards are too far
afield of damages awards in comparable cases. As
described below, the Court is not convinced that the
jury’s verdict should be disturbed.
A. Whether the Jury Enhanced the Damages
Award to “Send Chicago a Message”
As a municipality, Chicago is immune from
punitive damages in § 1983 actions. City of Newport v.

App-104
Fact Concerts, Inc., 453 U.S. 247, 271 (1981). This
means that when faced with a municipal defendant,
juries may award only compensatory damages
supported by the evidence. See Joan W. v. City of
Chicago, 771 F.2d 1020, 1025 (7th Cir. 1985). Chicago
contends that the jury in this case transgressed this
rule upon invitation of LaPorta’s counsel, who said the
following during closing argument:
The message has to be sent: You cannot do
this again, whether it’s with Patrick Kelly or
any of the other officers that rise about him
in the number of complaints because there
are many, many more officers out there,
ladies and gentleman, that are worse that
Patrick Kelly.
...
And if you do not fully compensate Mike
LaPorta for the harms that the City of
Chicago caused, your message then will fall
on deaf ears. That’s what you have to do. If
you want to stop and staunch the violation of
constitutional rights and actually stop cases
like this from coming into a courtroom, you
will then award full compensation.
(Tr. 3446:4-3448:13.) Chicago objected to these
selections of counsel’s closing. (Id.) The City’s
argument really consists of two parts: First, that
LaPorta’s counsel should not have made these
comments; and second, that as a result of counsel’s
closing sentiments or otherwise, the jury inflated their
verdict to “send a message” to the City.

App-105
The Court agrees with Chicago as far as the first
part of this argument is concerned. Asking the jury to
send a message, even within the context of “fully
compensat[ing]
LaPorta,
was
not
proper.
“[C]ompensatory damages,” which is all LaPorta is
entitled to in this case, “are limited to actual losses
and the argument that the jury should ‘send a
message’ is a punitive damages argument.” Smith v.
Rosebud Farmstand, No. 11 CV 9147, 2017 WL
3008095, at *24 (N.D. Ill. July 14, 2017) (granting
remittitur motion) (citation and internal quotation
marks omitted), aff’d sub nom. Smith v. Rosebud
Farm, Inc., No. 17-2626, 2018 WL 3655147 (7th Cir.
Aug. 2, 2018); Martinez v. City of Chicago, No. 14 CV
369, 2016 WL 3538823, at *14 (N.D. Ill. June 29, 2016)
(ruling on motion in limine that plaintiff cannot ask
jury to “send a message” to the City) (citations
omitted). But the fact that counsel made this
argument in closing does not necessarily mean the
jury took up the invitation.
In Smith, for example, the court granted
remittitur after counsel urged the jury to “send a
strong message.” 2017 WL 3008095, at *24. But it was
not that snippet of argument alone that motivated the
court to remit the damages award. Rather, the court
found the improper argument likely influenced the
jury based on the size of the compensatory award and
“the lack of specific, articulable injuries” the plaintiff
had demonstrated. Id. Neither of those indications is
present here. As the Court discusses at some length in
the section below, LaPorta’s damages award, while
high, was not excessive. Further, LaPorta’s injuries
provide a stark contrast to Smith. LaPorta adduced
evidence at trial making pellucid the extent of his

App-106
severe and permanent injuries. Though the comments
his attorney made in closing were not appropriate, the
record and the verdict simply do not support the City’s
conclusion that the jury took those comments to heart
and factored punitive damages into their
compensatory award. The Court will not grant
remittitur on this basis.
B. Comparison to Other Damage Awards
Though the verdict’s comparison to other awards
is a helpful benchmark and one the Court must
consider, Fleming, 898 F.2d at 561; see Deloughery v.
City of Chicago, 422 F.3d 611, 619 (7th Cir. 2005)
(reciting said comparisons among other considerations
generally reflected upon in ruling on remittitur
motions), this factor “is not as important as the review
of the evidence in the case at hand,” Adams v. City of
Chicago, 798 F.3d 539, 545 (7th Cir. 2015).
The problem [with comparing damage awards
in other cases] is that one can always find
excessive force cases with verdicts at different
levels. This amounts to anecdotal evidence at
best. Even that kind of evidence might show
that it is hard to find a single case with
damages as high as the one before the court
(or as low, if the appeal is taken from an
allegedly inadequate verdict), but caution
should be the byword when looking at past
awards.
Id.
First, the predicate for comparison: At trial, the
jury received evidence that since the shooting,
LaPorta requires round-the-clock care. (See, e.g.,

App-107
P. LaPorta Tr. 1360:3-1371:7.) He has undergone nine
surgeries (P. LaPorta Tr. 1357:18-20) and is afflicted
with what his life-care planner described as an “allencompassing and devastating injury” (Howland
Tr. 2001:10-15). The shooting caused a traumatic
brain injury, reducing LaPorta to a spastic triplegic.
(Valika Tr. 1421:5-20; Howland Tr. 1997:12-17.) He is
blind in one eye and deaf in one ear, and, though his
condition has improved since the immediate
aftermath of the shooting, he will suffer pain for the
rest of his life. (P. LaPorta Tr. 1388:10-15.) Dr. Senno
testified that LaPorta’s life expectancy fell somewhere
between 6 and 17 years. (Senno Tr. 2411:7-2412:22.)
Now, Chicago cites to a litany of comparisons for
each of the three awards it challenges, though the
Court is not convinced these cases demonstrate the
contrast Chicago contends. The Court summarizes a
selection of comparison cases below, having adjusted
the verdict amounts in each to 2017 dollars—the year
of LaPorta’s judgment—to account for inflation.
The City argues the pain and suffering award
should be reduced from $15 million to $5.32 million.
Verdicts on roughly comparable facts include:
•

Christensen v. Sherman Hospital (Ill. Cir. Ct.
2003): Quadriplegic plaintiff awarded $9.32
million for pain and suffering. (Grp. Ex. B to
Remittitur Resp. at 6-7, Dtk. 460-1.)

•

Darden v. City of Chicago (Ill. Cir. Ct. 2017):
Quadriplegic plaintiff suffered a severed
spinal cord, paralysis below the waist, and
severe neuropathic pain and was awarded $40
million for pain and suffering, though the
parties thereafter settled before the state

App-108
appellate court could weigh in on the verdict.
(Grp. Ex. B at 14-15.)
•

Garner v. Carter (Ill. Cir. Ct. 2002):
Quadriplegic plaintiff without any cognitive
deficits awarded $70.6M, of which $10.2M was
for pain and suffering. (Grp. Ex. B at 10-11.)

•

Peterson v. Ress Enters. Inc. (Ill. Cir. Ct. 1995):
Quadriplegic plaintiff requiring 24-hour care
awarded $9.7 million for pain and suffering.
(Grp. Ex. B at 39-40.)

LaPorta’s award for loss of a normal life was $15
million; the City contends that sum should be remitted
to $7.25 million. Comparisons include:
•

Darden v. City of Chicago (Ill. Cir. Ct. 2017):
Plaintiff described above awarded $61 million
for loss of a normal life. (Grp. Ex. B at 14-15.)

•

Bun v. Provena Health (Ill. Cir. Ct. 2006):
Plaintiff awarded $15.2 for loss of a normal life
after a brain injury resulted in spastic
quadriparesis, the inability to speak or eat,
and a reduction to a vegetative state. (Grp. Ex.
C at 25-26, Dkt. 460-1.)

•

White v. Christ Hospital (Ill. Cir. Ct. 1997):
Plaintiff who suffered loss of use of left arm
and partial paralysis in the other arm awarded
$3.05 million for loss of normal life. (Grp. Ex.
C at 6.)

•

Hoffman v. Crane (Ill. Cir. Ct. 2012): Plaintiff
suffered paraplegia, vision impairment,
permanent colostomy and bladder catheter,
and the jury awarded her $10.66 million for
loss of normal life. (Grp. Ex. C at 7-8.)

App-109
Finally, the jury awarded LaPorta $4 million for
his shortened life expectancy, though they did not
specify by exactly how many years they believed the
shooting had shortened LaPorta’s life. Dr. Senno
testified that he expected LaPorta to lose 6-17 years of
life. (Senno Tr. 2411:7-2412:22.) Presuming the jury
credited this evidence, their award reflects somewhere
between $666,666 and $235,294 per year. Chicago
contends this $4 million award should be trimmed to
$1.6 million, citing:
•

Skorek v. Edward-Elmhurst Healthcare (Ill.
Cir. Ct. 2017): Plaintiff awarded $7 million for
24-year loss of expected life, or roughly
$292,000 per year. (Grp. Ex. D at 55-56, Dkt.
460-1.)

•

Ewing v. University of Chicago Medical Center
(Ill. Cir. Ct. 2016): Plaintiff awarded $2.83
million for loss of 18 years, or about $154,000
per year. (Grp. Ex. D at 1-2.)

•

Maldonado v. United States, (N.D. Ill. 2010):
Plaintiff awarded $505,850.00 for loss of three
years, or about $169,000 per year. (Grp. Ex. D
at 57.)

Within each category of damages described above,
LaPorta’s verdicts are among the higher awards
listed, but they are not out of bounds. His pain and
suffering award is about 50% higher than most of the
awards described and yet is dwarfed by the $40
million award in Darden. Chicago contends the
Darden plaintiff’s injuries were more severe than
LaPorta’s, but the Court is not so sure; to any extent,
that plaintiff’s injuries do not seem to be LaPorta’s
injuries thrice-over, which is what the award amount

App-110
suggests. This type of ex post second-guessing is
exactly the danger inherent to comparing verdicts; the
exercise necessarily invites courts to step, often
inappropriately, into the shoes of the jurors who
already weighed the facts. This holds true for the
Court’s consideration of the loss of normal life award—
LaPorta’s award is in line with Bun, although that
plaintiff was reduced to a vegetative state, a fate
which LaPorta has evaded—and the loss of life
expectancy award. The final award is particularly
problematic for the Court to review given that the jury
did not state with precision how many years they
believed LaPorta has lost. If they believe he lost 17,
then they awarded him $235,294 per year—within the
range of these comparisons. If the jury believed
instead that LaPorta has lost 6 years, their $666,666
per-year award is above the high end of these past
verdicts. But without more guidance from the jury, the
Court is left to guess after how they weighed the
evidence. The Court should not and cannot take up
this mantle. “‘[A]wards in other cases provide a
reference point that assists the court in assessing
reasonableness; they do not establish a range beyond
which awards are necessarily excessive.’ To require
that a jury’s damages award be no bigger than
previous awards in similar cases would make every
such award ripe for remittitur. There must be room for
a jury’s award to exceed the relevant range of cases
when the facts warrant.” Adams, 798 F.3d at 545
(quoting Farfaras, 433 F.3d at 566).
In short, as described throughout this opinion, the
jury heard extensive testimony concerning LaPorta’s
severe and permanent injuries. The Court cannot say
that their award decisions were not rationally

App-111
connected to the evidence nor that they were
monstrously excessive, so the remittitur motion is
denied. See Fleming, 898 F.2d at 561.
VI. CONCLUSION
For the reasons stated herein, Chicago’s Renewed
Motion for JMOL (Dkt. 499) and Motion for a New
Trial (Dkt. 500) are denied. LaPorta’s Bill of Costs
(Dkt. 490) and Petition for Fees (Dkt. 549) are both
granted in part and denied in part: The Court allows
LaPorta $19,160.32 in costs and awards him
$2,558,991.50 in attorneys’ fees. Chicago’s Motion for
Remittitur (Dkt. 498) is denied.
IT IS SO ORDERED.

Harry D. Leinenweber, Judge
United States District Court
Dated: 8/29/2018

App-112
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
________________
No. 14 C 9665
Judge Harry D. Leinenweber
________________
MICHAEL A. LAPORTA, as Gardian of the Estate and
Person of Michael D. LaPorta, a Disabled Person,
v.

Plaintiff,

CITY OF CHICAGO, a Municipal Corporation; and
GORDON LOUNGE, INC. d/b/a BREWBAKERS,
Defendants.
________________
September 29, 2017
ECF No. 405
________________
MEMORANDUM OPINION AND ORDER
In a Seventh Amended Complaint, Plaintiff
Michael A. LaPorta, as guardian of his disabled son
Michael D. LaPorta, brings eight counts against
Defendant City of Chicago (“the City”) and one count
against Defendant Gordon Lounge, Inc. d/b/a
Brewbakers (“Brewbakers”) that is not at issue here.
Counts I and IX are state-law tort claims against the
City, whereas Plaintiff brings Counts III through VIII
under 42 U.S.C. § 1983 and Monell v. New York City
Dep’t of Social Servs., 436 U.S. 658 (1978). Plaintiff
has moved for partial summary judgment on the
Monell claims [ECF No. 238], and the City has cross-

App-113
moved on all eight of Plaintiff’s claims against it [ECF
No. 241]. For the reasons to follow, the Court denies
both Motions with the exception of the City’s Motion
as to state law Counts I and IX, which is granted. In
addition, the Court bifurcates the trial so that
adjudication of Count III will commence only after the
jury returns a verdict on the other claims against the
City.
I.

BACKGROUND

The facts of this case lend themselves to an
Alcoholics Anonymous pamphlet. In the wee hours of
January 12, 2010, off-duty Chicago Police Officer
Patrick Kelly (“Kelly”) and his lifelong friend, Michael
D. LaPorta (“LaPorta”), were hanging out alone at
Kelly’s house after a night of heavy drinking at
various bars, including Brewbakers. Kelly’s Sig Sauer
P226 service weapon somehow discharged a single
bullet into LaPorta’s head, about two inches above and
behind his left ear, causing LaPorta to sustain grave
injuries that have left him paralyzed. (ECF No. 283
(“Def.’s Resp.”) ¶ 13; ECF No. 301 (“Def.’s Resp. to Pl.’s
SAUF”) ¶ 2.) LaPorta maintains that Kelly shot him;
Kelly and the City claim that LaPorta attempted to
commit suicide using Kelly’s gun; both men give
sharply conflicting accounts of the events at Kelly’s
house on the night in question. (See, e.g., id. ¶ 4; ECF
No. 268 (“Pl.’s Resp.”) ¶ 10.) The following facts are
undisputed unless otherwise noted.
Around 4:35 a.m. on January 12, 2010, Kelly
placed two calls to emergency services for help,
identifying himself as an off-duty officer and shouting
“abusive” profanities when imploring emergency
personnel to hurry. (Def.’s Resp. ¶ 14.) Kelly appeared

App-114
intoxicated to the responding paramedics and officers.
(Def.’s Resp. ¶ 18.) He tried to access the ambulance
by banging on its windows, causing a paramedic to
fear for her safety and prompting her to yell at the
other officers to secure the scene and Kelly. (Id. ¶¶ 1920.) Kelly refused to step away from the ambulance;
instead, he got in the face of the officer-in-charge,
Sergeant Charmane Kielbasa, and hurled unsavory
epithets at her (i.e., “north side bitch,” “whore,”
“motherfucker,” “fucking cunt”). (Id. ¶ 21.) Sergeant
Kielbasa detected a strong odor of alcohol on Kelly, felt
threatened by him, and thought he was going to strike
her. (Id. ¶ 23.) At approximately 4:52 a.m., Kelly was
placed under arrest for assaulting her, resisted arrest,
and was then tackled to the ground. (Id. ¶ 24.) Once
placed in the back of a cruiser, Kelly tried to kick out
the rear window of the vehicle and subsequently
refused to heed the commands of the arresting officers,
whom he deemed of insufficient rank. (Id. ¶ 25.)
Although charged with assault, Kelly was never
charged with aggravated assault or resisting arrest.
(Id. ¶ 27.) (The court ultimately entered a directed
verdict for Kelly in the assault case. (Pl.’s Resp. ¶ 37.))
Phone records indicate that, at various times just
before and after the LaPorta shooting, Kelly placed
and received calls from friends and personal
acquaintances affiliated with CPD. The detective-incharge on the scene eventually noticed the presence of
Allyson Bogdalek, a fellow officer who had been
drinking with LaPorta and Kelly the night before; he
recognized her because he had previously worked for
Bogdalek’s father, a Chicago Police Department
(“CPD”) sergeant. (Def.’s Resp. to Pl.’s SAUF ¶ 31.)
Melissa Spagnola, Kelly’s former girlfriend, also

App-115
appeared on the scene with her uncle, a retired CPD
officer, who spoke with an investigating officer about
Kelly. (Id. ¶ 34.) Whereas LaPorta’s cell phone was
inventoried—and his text messages reviewed—as part
of the investigation, Kelly’s was not. (Def.’s Resp.
¶ 30.)
Kelly was at the scene for over an hour before he
was taken to the police station and placed in a
detention room. After his requests to wash his hands
and use the bathroom were repeatedly denied, Kelly
urinated in a corner of the detention room. (Def.’s
Resp. ¶¶ 35, 37; see also, Pl.’s Ex. 73.) Within twenty
minutes of Kelly urinating, CPD investigator Joseph
Dunigan performed a gunshot residue test on Kelly’s
hands. (Def.’s Resp. ¶ 35; see also, Pl.’s Ex. 73.)
Dunigan voiced disapproval that Kelly had already
urinated because, as Dunigan put it, some suspects
“piss on their hand” to confound the residue test. (Pl.’s
Ex. 73 at 6:54.) Although the results of the test did not
indicate that Kelly had gunshot residue particles on
his hands, they left open the possibility that particles
could have been “removed by activity.” (Pl.’s Resp.
¶ 24.) Kelly then demanded that the officers call his
father, John Kelly, so that his father could call a
lawyer. This prompted the officers to ask, “Was your
father police?” Kelly responded that “he was.” (Def.’s
Resp. ¶ 35.) (Kelly’s father served as a CPD patrol
officer from 1971 to 1979. (Pl.’s Resp. to Def.’s SAUF
¶ 14.)) Approximately eight hours after the incident—
at 12:17 p.m. on January 12, 2010—Kelly took a
breathalyzer test and blew a 0.093. (Def.’s Resp. ¶¶ 11,
38.) From this, Illinois State Police extrapolated
Kelly’s blood alcohol content to have been between
0.169 and 0.246 at the time of the shooting. (Id. ¶ 39.)

App-116
CPD officers interviewed a friend of LaPorta,
Matthew Remegi (“Remegi”), and attempted to
convince him that LaPorta shot himself. Remegi thrice
responded that LaPorta would never have attempted
to kill himself and eventually ended the interview
because the officers persisted in their suicide theory.
(Def.’s Resp. ¶¶ 42, 77.) Separately, Kelly told
detectives that LaPorta was having difficulties in his
personal life, including problems with his then live-in
girlfriend and possible abuse of pain pills he had been
prescribed in connection with a previous injury. (Pl.’s
Resp. ¶ 22.)
Kelly was released from custody at around 1:20
p.m. on January 12, 2010 and did not make his
compelled statement to the Independent Police
Review Authority (“IPRA”) until January 11, 2011—
364 days after the shooting. (Def.’s Resp. ¶ 43.) Kelly
told the IPRA investigator that he was an alcoholic but
that he did not believe he was intoxicated on the night
of the shooting. (Id. ¶¶ 39, 50; ECF No. 304 (“Pl.’s
Resp. to Def.’s SAUF”) ¶ 11.) Forensic analysis of the
bullet extracted from LaPorta’s skull determined that
it and the fifteen bullets remaining in Kelly’s service
weapon were “9mm Luger + P cartridges,” one of
several CPD-approved types of ammunition. (Def.’s
Resp. to Pl.’s SAUF ¶ 36.) The Complaint Register log
for the LaPorta incident alleged that Kelly was
(1) “intoxicated while off duty”; (2) “[f]ailed to secure
his weapon”; (3) “[a]ssaulted Sergeant Kielbasa”;
(4) “[v]erbally abused” her”; (5) “[b]rought discredit on
the Department, in that he interfered with the
Chicago Fire Department personnel that were
attempting to treat Michael La Porta [sic]”; (6) “[s]hot
Michael La Porta [sic]”; and (7) “[p]rovided false

App-117
statements to investigating police officers and
detectives regarding this incident when he indicated
that Michael La Porta [sic] shot himself.” (Def.’s Resp.
¶ 28; Pl.’s Resp. ¶ 30.) Allegations 1 through 5 of the
Complaint Register (“CR”) were sustained against
Kelly, meaning that they were “supported by
substantial evidence to justify disciplinary action.”
(Def.’s Resp. ¶ 28; Pl.’s Resp. ¶ 40.) Allegations 6 and
7 were added after the IPRA investigator interviewed
LaPorta’s uncle, who opined that Kelly’s account was
not consistent with how the Sig Sauer P226 operates;
neither allegation was sustained, and no criminal
charges were brought against Kelly other than the
aforementioned assault count. (Pl.’s Resp. ¶¶ 33-38,
41.)
The IPRA investigator ultimately recommended
that Kelly receive a 180-day suspension for the
sustained violations pertaining to the LaPorta
shooting, but IPRA Chief Administrator Ilana
Rosenzweig without any explanation commuted
Kelly’s suspension to 60 days. (Def.’s Resp. ¶ 49; Pl.’s
Resp. ¶ 39.) In April 2010, Kelly was referred by CPD
for a fitness-for-duty evaluation, and the evaluating
psychologist deemed him unfit for duty. In July 2010,
Kelly was re-evaluated and found fit for duty. (Pl.’s
Resp. ¶ 28.) IPRA suspended its investigation into the
LaPorta shooting on July 26, 2012 but moved to reopen it on July 26, 2016 after years of civil litigation.
(Def.’s Resp. ¶ 47.) Kelly remains employed as a CPD
officer to this day. (Def.’s Resp. ¶ 50.)
A. Kelly’s History Prior to the LaPorta Shooting
Kelly began his career as a police officer on
January 26, 2004, when he entered CPD’s police

App-118
academy. (Pl.’s Resp. ¶ 59.) Before he could begin at
the academy, Kelly had to procure an approved
firearm to serve as his duty weapon pursuant to CPD
general orders, and he in fact purchased the same Sig
Sauer P226 used to shoot LaPorta. (Id. ¶¶ 46, 60.)
Kelly’s employee training records indicate that he
passed a “Firearms Safety – Gun Locks” course on
April 24, 2006. (Ibid.)
Kelly has a checkered history on the police force;
he accumulated at least eighteen (18) CRs in the five
years prior to the LaPorta shooting. (Def.’s Resp.
¶ 51.) As suggested above, there are several possible
dispositions of CRs: exonerated, meaning that the
incident occurred but the actions of the accused were
lawful and proper; unfounded, which means that an
allegation is false or not factual; not sustained,
indicating insufficient evidence either to prove or
disprove the allegation; no affidavit, signifying that
the investigation was terminated because a sworn
affidavit from the complainant was not received
within a certain time; and sustained, meaning that
“the allegation is supported by substantial evidence to
justify disciplinary action.” (Def.’s Resp. ¶¶ 62-63; Pl.’s
Resp. to Def.’s SAUF ¶ 17.) The following graph lists
each of Kelly’s CRs prior to the LaPorta shooting
alongside the date on which they were filed, the
allegation, and the outcome:
Incident
No.
Date
Allegation
1
01/02/2005 Excessive force –
kicking,
punching, and
choking arrestee

Disposition/
Outcome
Unfounded
and not
sustained

App-119
2

01/19/2005 Unbecoming
conduct in issuing
citation

Not
sustained

3

06/22/2005 False arrest

Unfounded;
letter of
declination
signed

4

08/04/2005 Excessive force
during arrest

Exonerated

5

09/19/2005 Off-duty domestic
battery of Fran
Brogan

Sustained,
then
overridden
to not
sustained

6

04/21/2006 Excessive force

No affidavit

7

05/13/2006 Failure to make
arrest

No affidavit

8

06/12/2006 Off-duty battery
of Patrick Brogan

No affidavit;
letter of
declination
signed

9

10/08/2006 Verbal threats to
citizen

No affidavit

10

10/17/2006 False traffic
citation

Not
sustained

11

12/05/2006 False citation

Closed and
included in
nondisciplinary
intervention
program

App-120
12

07/28/2007 Excessive force –
1 of 2 officers who
kicked
complainant on
ground

Unfounded,
but the
subject of a
2008 civil
lawsuit

13

08/19/2007 Unlawful search

No affidavit

14

09/05/2007 False arrest

No affidavit

15

05/18/2008 Called woman a
bad mother and
threatened to
mace her son

Closed and
included in
nondisciplinary
intervention
program

16

06/03/2008 Failure to
inventory
property

No affidavit

17

12/30/2008 Excessive force –
pepper spray

Unfounded

18

07/27/2009 Derogatory and
racist statements

No affidavit

(Pl.’s Resp. ¶¶ 61, 64; see also, Pl.’s Exs. 47-48.) In
addition, Kelly may have been the subject of a further
CR regarding an incident on September 23, 2008 in
which five complainants alleged that officers unknown
physically mistreated them and forced one of them
onto the ground, stepped on his neck, and handcuffed
him too tightly. (Pl.’s Resp. ¶¶ 61-63; Pl.’s Ex. 47 at
RFC-LaPorta 21088-89.) That CR was closed because
of “no affidavit.” (Pl.’s Ex. 47 at RFC-LaPorta 21090.)
CRs 5 and 8 concern two instances of Kelly’s offduty violent conduct. The predicate of CR 5 was a

App-121
domestic violence incident in which Kelly first shoved
to the street his then-girlfriend, Fran Brogan, with
whom he was living, after the two had been out
drinking at a bar. A sergeant and two officers were in
the vicinity, witnessed the incident, confronted Kelly,
and told him to go home. When Brogan returned home
from the bar, Kelly pushed her to the ground, kicked
her, and struck her with some sort of object. The
beating left Brogan bloodied; she sustained an
abrasion on her nose, a contusion on her right elbow,
and a head wound that ultimately required stitches.
(Def.’s Resp. ¶ 61; Pl.’s Resp. ¶¶ 67-68; see also, Pl.’s
Ex. 49.) Brogan signed an affidavit to move the CR
forward with the Office of Professional Standards
(“OPS”), the precursor to IPRA; but she declined to
pursue criminal charges against Kelly. Under Illinois
law and CPD policy, officers can still make arrests for
domestic battery in the absence of a criminal
complaint if there are visible injuries. (Def.’s Resp.
¶ 71.) An OPS official investigated the CR,
interviewed both Kelly and Brogan, and noted that
Kelly’s “responses regarding the unknown officers
confronting him on the street bring question to his
overall credibility” and that his “responses regarding
the physical altercation inside the residence also bring
question to his overall credibility.” (Pl.’s Resp. ¶ 69; see
also, Pl.’s Ex. 52 (“Morris Dep.”) at 80:17-81:9 (reciting
three instances in which OPS investigators found
Kelly’s credibility lacking).) This official recommended
that Brogan’s CR be sustained, and his supervisor
agreed. (Def.’s Resp. ¶ 62.) However, OPS Chief
Administrator
Tisa
Morris
overrode
their
recommendation, deciding not to sustain the CR but
providing no specific evidentiary basis for doing so.

App-122
(Def.’s Resp. ¶ 63; Pl.’s Resp. ¶ 70; Pl.’s Ex. 53; see,
Morris Dep. at 122:9-14.) Kelly was never arrested or
subjected to criminal prosecution for this incident.
CR 8 pertains to a second off-duty episode of
alcohol-induced violence, this time involving Kelly and
Fran Brogan’s brother, Patrick Brogan. Kelly was out
at a bar drinking with both Brogans but went home
early to Fran Brogan’s house. When the others
returned, Kelly and Patrick Brogan got into a verbal
argument; Kelly threw a TV remote at his head,
resulting in a broken nose and a laceration above his
right eye. (Def.’s Resp. ¶ 68; Pl.’s Resp. ¶ 72.) Kelly
was arrested for simple battery, and Patrick Brogan
signed off on a criminal complaint for battery.
However, Patrick Brogan decided not to proceed with
the CR, refusing about eight days after the incident to
sign a sworn affidavit and instead signing a letter
declining to pursue the matter further. (Def.’s Resp.
¶ 69; see, Def.’s Ex. 55.) The charges against Kelly
were dropped.
For none of the 18 (or potentially 19) CRs recited
above was Kelly disciplined. (Def.’s Resp. ¶ 55; Def.’s
Resp. to Pl.’s SAUF ¶ 7.) Kelly was recommended for
CPD’s Behavioral Intervention System (“BIS”) after
CRs 5 and 8 but never for its Personnel Controls (“PC”)
program; both programs are non-disciplinary systems
that seek to identify officers with a pattern of
behavioral problems and provide them with corrective
counseling. (Def.’s Resp. ¶¶ 56-58, 103.) The PC
program, however, addresses and tracks more serious
conduct for later disciplinary action. (Id. ¶ 103.) At
some point after CRs 5 and 8, Kelly was referred for a
fitness-for-duty evaluation and found unfit for duty on

App-123
June 30, 2006. (Pl.’s Resp. ¶¶ 73-74.) Pursuant to
applicable provisions of the operative collective
bargaining agreement (“CBA”), Kelly then obtained
his own psychological evaluation to challenge the
unfitness finding and convinced an arbitrator that he
was fit for duty. (Ibid.)
Evidence in the record points to other indications
prior to the LaPorta shooting that Kelly’s drinking
problem imperiled both his work as a police officer and
his obligation to secure his gun. For instance,
LaPorta’s mother testified that Kelly bragged to her
“about attending a motor vehicle test for the Chicago
Police Department while being very intoxicated and,
as a result, injuring his foot.” (Def.’s Resp. ¶ 77; Pl.’s
Ex. 58 (“P. LaPorta Dep.”) at 120:1-8; see, FED. R. EVID.
801(d)(2)(D).) LaPorta’s mother also overhead
conversations between Kelly and LaPorta in 2006,
2007, and 2008 in which Kelly, after realizing that he
had left his service weapon at Brewbakers the night
before, asked LaPorta to accompany him to the bar to
retrieve it. (Def.’s Resp. ¶ 77; P. LaPorta Dep. at
126:17-131:17; see, FED. R. EVID. 803(1).) The extent of
the City’s knowledge of this behavior is unclear.
B. Evidence Concerning CPD’s Policies and
Practices
Rule 14 of CPD’s Rules and Regulations prohibits
false reporting. Of the 203 CPD employees with
sustained Rule 14 CRs from 2004-2011, 60 of them
(approximately 30 percent) resigned or were
discharged. The others suffered no sanction, were
reprimanded, or were suspended. (Def.’s Resp. ¶ 82;
Pl.’s Resp. to Def.’s SAUF ¶¶ 21, 26.) Rule 15 prohibits
“intoxication on or off duty.” (Def.’s Resp. ¶ 10.) Rule

App-124
22 prohibits failure to report to the CPD any violation
of Rules or Regulations or other improper conduct that
is contrary to the policies, orders, or directives of the
department. (Pl.’s Resp. to Def.’s SAUF ¶ 26.) General
Order U04-02 provides that an officer is to “secure
their prescribed duty weapon when the prescribed
duty weapon is not on their person.” (Id. ¶ 12; Pl.’s
Resp. ¶ 46.)
According to Chicago records, over 45 percent of
complaints against CPD officers between 2004 and
2011 closed with a finding of “no affidavit.” (Def.’s
Resp. ¶ 94; Def.’s Resp. to Pl.’s SAUF ¶ 15.) Of the 968
domestic battery complaints lodged against CPD
officers from 2004-2011, 22 percent were dismissed for
no affidavit and 17 percent were sustained.
Approximately 20 percent of these sustained CRs
resulted in the resignation or discharge of the officer
involved; the other 80 percent entailed discipline
ranging from no action to reprimand to days of
suspension. Thus, 3 percent of all domestic battery
CRs during this timeframe resulted in the accused
officer’s separation from CPD employment. (Def.’s
Resp. ¶ 81.)
The operative CBA negotiated between the City
Council and the Fraternal Order of Police provides—
consonant with Illinois law—that any complaint
against an officer must be supported by a sworn
affidavit from the complaining witness. (Def.’s Resp.
¶ 90.) The CBA also requires removal from an officer’s
record of any sustained complaint of misconduct not
accompanied by disciplinary action within the last
year. (Id. ¶ 94.) The CBA further affords an officer 24
hours after an officer-involved shooting to give a

App-125
statement and permits officers to review audio and
video evidence before doing so. (Id. ¶ 95; Def.’s Resp.
to Pl.’s SAUF ¶ 16.) Under the CBA, Internal Affairs
investigators cannot look back at an officer’s
complaint history unless a complaint is sustained and
may only use a sustained complaint for progressive
discipline. (Id. ¶ 108.) In 2010 and years prior, officers
accused of non-shooting misconduct were not
interviewed until the end of the investigation—after
all other evidence had been gathered. (Id. ¶ 96.)
Chicago Mayor Rahm Emmanuel in a 2015 speech
to the City Council admitted that a “code of silence”
pervades CPD pursuant to which certain officers
exhibit a “tendency to ignore, deny or in some cases
cover up the bad actions of a colleague or colleagues.”
(Def.’s Resp. ¶¶ 83-85; Def.’s Resp. to Pl.’s SAUF ¶ 11.)
Additionally,
the
City
created
the
Police
Accountability Task Force (“PATF”) to review CPD’s
system of training, oversight, discipline, and
transparency. PATF released a report with its
recommendations for reform in April 2016, finding
“that the code of silence is not just an unwritten rule,
or an unfortunate element of police culture past and
present,” but instead is “institutionalized and
reinforced by CPD rules and policies that are also
baked into the labor agreements between the various
police unions.” Other witnesses in this case, including
Assistant State’s Attorney Lynn McCarthy, have
prosecuted cases involving police officers committing
official misconduct, obstruction of justice, or perjury to
cover up for themselves or other officers. (Def.’s Resp.
¶ 88; Def.’s Resp. to Pl.’s SAUF ¶ 13.) The City
produced a Rule 30(b)(6) deponent on behalf of the
City Council (as policymaker for the City), Alderman

App-126
Joseph Moore, who admitted to the existence of the
code of silence within the CPD prior to 2011. In his
estimation, “it would be a safe bet” that many
members of the City Council would have been familiar
with the code of silence as far back as 2007. (Def.’s
Resp. ¶¶ 89, 98; Moore Dep. 161:1-5.) Yet Tisa Morris,
Chief Administrator of OPS from 2004 to 2007,
testified in this case that she had “never thought about
[the code of silence].” (Def.’s Resp. ¶ 87.)
Alderman Moore testified in this case that the
City Council created IPRA ostensibly to “tighten up
the procedures” with respect to officers exhibiting
patterns of abuse. (Def.’s Resp. ¶ 97.) Yet, since IPRA’s
inception, the rate of sustained CRs against officers in
excessive force cases has decreased, and less than
1 percent of officer-involved shootings from 2007
through 2014 were found unjustified. (Def.’s Resp.
¶ 99.) Alderman Moore recalled that “[w]e certainly
were aware” of “concerns that the union contract
impeded the ability of OPS to conduct fair and
thorough investigations.” (Ibid.; Pl.’s Ex. 66 (“Moore
Dep.”) at 149:3-24.) He stated that IPRA was similarly
“impeded somewhat by the police contract that
prevented
referencing
previous
complaints,
unfounded—you know, complaints that were either
not pursued or were deemed unfounded.” (Def.’s Resp.
to Pl.’s SAUF ¶ 17.)
Between 2004 and 2007, OPS did not have an
early warning system in place (although the Bureau of
Internal Affairs may have assumed similar functions),
and attempts in 2006 to put a new BIS in place met
with resistance from the Fraternal Order of Police.
(Def.’s Resp. ¶ 104.) After IPRA set up its own BIS and

App-127
PC programs in 2007, participation plummeted: in
2007, 276 officers were included in one of the two
programs; in 2008, this number dropped to 219 and
continued to plunge so that, by 2013, no officers were
being actively managed through either program. (Id.
¶ 105.) An IPRA deponent in this case stated that he
was unaware of an early warning system in place at
IPRA, and Morris testified that she does not know
what a behavioral intervention system is. (Id. ¶ 106.)
What is more, an IPRA supervisor also testified that
she has never received training on how to identify
patterns of officer misconduct. (Def.’s Resp. to Pl.’s
SAUF ¶ 28.)
Finally, on January 13, 2017, the United States
Department of Justice and United States Attorney’s
Office for the Northern District of Illinois issued a
report entitled “Investigation of the Chicago Police
Department” (the “DOJ report”). Among other things,
the DOJ report found that CPD’s “early intervention
system” exists in name only, does not assist in
identifying or correcting problematic behavior, and
does not use “long-available supervisory tools, such as
a comprehensive early intervention system (EIS), to
identify patterns of concerning officer behavior and
prevent patterns of misconduct and poor policing from
developing or persisting.” (Def.’s Resp. ¶ 110.)
Advances in technology and reform for the BIS and PC
programs were allowed to “wither on the vine” or were
never implemented. (Id. ¶ 103.) The report further
concluded that “[t]he City, police officers, and
leadership within CPD and its police officer union
acknowledge that a code of silence among Chicago
police officers exists, extending to lying and
affirmative efforts to conceal evidence.” (Id. ¶ 100;

App-128
Def.’s Resp. to Pl.’s SAUF ¶ 14.) It noted that IPRA
“treat[s] such efforts to hide evidence as ancillary and
unexceptional misconduct, and often do[es] not
investigate it, causing officers to believe there is not
much to lose if they lie to cover up misconduct.” (Id.
¶ 101.) The entities of accountability, according to the
DOJ report, accept the “cover-up culture” as “an
immutable fact rather than something to root out.”
(Id. ¶ 102.)
II. LEGAL STANDARD
Summary judgment is appropriate when “there is
no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
FED. R. CIV. P. 56(a). A genuine dispute exists “if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). In evaluating
summary judgment motions, the Court must view the
facts and draw reasonable inferences in the light most
favorable to the non-moving party. Scott v. Harris, 550
U.S. 372, 378 (2007). It does not make credibility
determinations as to whose story is more believable,
Omnicare, Inc. v. UnitedHealth Grp., Inc., 629 F.3d
697, 704 (7th Cir. 2011), and considers only evidence
that can be “presented in a form that would be
admissible.” FED. R. CIV. P. 56(c)(2).
III. ANALYSIS
Plaintiff asserts five separate Monell claims
against the City, alleging that the existence of the
following widespread policies, practices, or customs of
the City proximately caused LaPorta’s injury: a code
of silence that conceals officer misconduct (Count IV);
failure to maintain an early warning system

App-129
(Count V); failure to investigate officer misconduct
(Count VI); failure to discipline officers who commit
misconduct (Count VII); and failure to terminate Kelly
for misconduct (Count VIII). Plaintiff’s attempt to
establish liability of the City involves showing a
“widespread practice that, although not authorized by
written law or express municipal policy, is so
permanent and well-settled as to constitute a ‘custom
or usage’ with the force of law.” Brokaw v. Mercer
Cnty., 235 F.3d 1000, 1013 (7th Cir. 2000). Along with
those Monell claims, Plaintiff brings against the City
a count under 42 U.S.C. § 1983 for denial of his right
to access the courts (Count III) and two state-law tort
claims (Counts I and IX).
Plaintiff has moved for summary judgment on all
five Monell claims, and the City has cross-moved on
all Plaintiff’s claims against it.
A. Plaintiff’s Motion
Judgment

for

Partial

Summary

To establish a Monell claim, a plaintiff must show
that he or she suffered a deprivation of a
constitutional right proximately caused by either
(1) an express municipal policy; (2) a widespread
common practice that by virtue of its ubiquity
constitutes a de facto custom or usage with the force of
law; or (3) a deliberate act of a decision-maker with
final policymaking authority. See, Rossi v. City of
Chicago, 790 F.3d 729, 737 (7th Cir. 2015). In addition
to showing that the municipality acted culpably in one
of those three ways, the plaintiff must prove causation
by demonstrating that the municipality “is the
‘moving force’ behind the deprivation of constitutional

App-130
rights.” Glisson v. Ind. Dep’t of Corrs., 813 F.3d 662,
667 (7th Cir. 2016) (quotation omitted).
Plaintiff’s five Monell claims against the City
challenge separate facets of the City’s relevant
conduct towards officers in general and Kelly in
particular. The nub of these claims is that CPD’s code
of silence and its failure to investigate officer
misconduct and impose appropriate discipline,
including termination, were pervasive de facto
policies, practices, or customs that encouraged and
emboldened Kelly to continue committing off-duty
alcohol-fueled violence against people close to him.
Thus, the gravamen of Plaintiff’s Monell theory is
“that it is the unwritten policy and practice in the CPD
to protect and shield off-duty police officers who
commit violence against citizens, and that because of
this institutionalized differential treatment, off-duty
officers are encouraged to believe that they can use
violence with impunity.” Garcia v. City of Chicago,
No. 01 C 8945, 2003 WL 1715621, at *6 (N.D. Ill. Mar.
20, 2003).
Plaintiff’s Motion for Partial Summary Judgment
founders on the threshold § 1983 requirement of a
constitutional injury. See, e.g., Sims v. Mulcahy, 902
F.2d 524, 538 (7th Cir. 1990) (“[A]n essential element
of recovery under 42 U.S.C. § 1983 is the
demonstration of a deprivation of a constitutionally
protected right.”). The crux of the case for Monell
liability here—although the issue tellingly receives
short shrift in Plaintiff’s briefs—is that LaPorta’s
substantive due process right to bodily integrity was
violated when he was shot in the head. (See, ECF No.
(“Pl.’s Mem.”) at 6-7.) While true that “[t]he

App-131
protections of substantive due process have for the
most part been accorded to matters relating to . . . the
right to bodily integrity,” Albright v. Oliver, 510 U.S.
266, 272 (1994), a particular bodily invasion triggers
substantive due process protections only if a
governmental actor can be said to have committed it.
See, e.g., Wragg v. Village of Thornton, 604 F.3d 464,
467 (7th Cir. 2010) (“Klaczak was a governmental
actor, not a private actor, as he undisputedly
committed the abusive acts against Wragg in the line
of his duty as a fire chief. So Wragg had a substantive
due process right not to be harmed by Klaczak.”)
(internal citation omitted); Strong v. Wisconsin, 544
F.Supp.2d 748, 760 (W.D. Wis. 2008) (“[T]he ‘liberty’
guaranteed by the Fourteenth Amendment includes
freedom from personal intrusion by the government
. . . .”) (emphasis added) (citations omitted). And even
a bodily invasion by a government actor does not
necessarily suffice for a constitutional violation. For
example, it is not the fact of being shot by a police
officer but the circumstances giving rise to the
shooting that determine whether the victim suffered
deprivation of a constitutional right. See, e.g., Jenkins
v. Bartlett, 487 F.3d 482, 491-93 (7th Cir. 2007)
(affirming preclusion of plaintiff’s Monell claim in
light of jury’s finding that police shooting victim’s
constitutional rights were not violated when officer
shot and killed him as he attempted to flee custody);
accord, Cnty. of Sacramento v. Lewis, 523 U.S. 833,
853-54 (1998) (holding that high-speed police chases
with no intent to harm suspects physically or to
worsen their legal plight do not give rise to § 1983
liability
under
Fourteenth
Amendment
for
deprivation of substantive due process).

App-132
At the heart of this case is whether Kelly (either
accidentally or intentionally) shot LaPorta with his
service weapon or whether LaPorta attempted to
commit suicide by shooting himself with Kelly’s
(either secured or unsecured) service weapon. Both
parties proffer expert testimony on the question of
who shot whom, the weight of which is for the jury to
evaluate. What is pellucid is that this pointed factual
dispute dooms Plaintiff’s Motion because “a
municipality cannot be liable under Monell when
there is no underlying constitutional violation by a
municipal employee.” Sallenger v. City of Springfield,
Ill., 630 F.3d 499, 504 (7th Cir. 2010); see also, Los
Angeles v. Heller, 475 U.S. 796 (1986). Plaintiff has
pointed to no authority for the proposition that an
individual’s choice to harm himself can as a matter of
law constitute a substantive due process violation.
See, Reno v. Flores, 507 U.S. 292, 303 (1993) (“The
mere novelty of such a claim is reason enough to doubt
that ‘substantive due process’ sustains it.”). Indeed,
the only cases the Court could uncover involving
§ 1983 claims arising out of a plaintiff’s suicide
occurred in the context of detention officials alleged to
have violated the Eighth Amendment because they
were subjectively aware that a detainee constituted a
suicide risk, see, e.g., Collins v. Seeman, 462 F.3d 757
(7th Cir. 2006), or exposed the detainee to a greater
risk of suicide, see, e.g., Collignon v. Milwaukee Cnty.,
163 F.3d 982 (7th Cir. 1998). Such a “special
relationship” of custody is conspicuously absent here.
Doubtless Plaintiff will object that, at the motionto-dismiss stage, the Court found sufficient to state a
claim the allegations that “Kelly’s service weapon
discharged while Kelly and LaPorta were alone at

App-133
Kelly’s residence, and that a bullet from the weapon
struck LaPorta in the back of the head.” LaPorta v.
City of Chicago, 102 F.Supp.3d 1014, 1020 (N.D. Ill.
2015). However, a claim’s plausibility is different in
kind from its sufficiency to entitle the plaintiff to
summary judgment. Consistent with the Court’s prior
analysis, “a serious injury resulting in disability” does
indeed “rise[] above a trivial battery” and can suffice
to establish a violation of the “constitutionally
protected right to bodily integrity.” Ibid. But the
evidence at summary judgment must suffice to show
that the alleged battery was, in fact, a battery—that
is, an unconsented-to offensive touching of the
plaintiff by another.
The Court acknowledges some authority cabining
Heller’s rule that a municipality is not liable in
damages for its employees’ actions that inflicted no
constitutional harm. In some circumstances, an
individual official or employee need not deprive the
plaintiff of constitutional rights for Monell liability to
attach to the municipality for its deprivation of the
plaintiff’s constitutional rights. For example, in Fagan
v. City of Vineland, 22 F.3d 1283 (3d Cir. 1994), the
court held that “a municipality can be liable under
section 1983 and the Fourteenth Amendment for a
failure to train its police officers with respect to highspeed automobile chases, even if no individual officer
participating in the chase violated the Constitution.”
Id. at 1292-94. Nonetheless, the court firmly
reiterated that “[t]he plaintiff must also show that the
city’s policy actually caused a constitutional injury.”
Id. at 1291 (citing City of Canton, Ohio v. Harris, 489
U.S. 378, 389-90, 392 (1989)). Similarly, in Speer v.
City of Wynne, Ark., 276 F.3d 980 (8th Cir. 2002), the

App-134
court noted that “situations may arise where the
combined actions of multiple officials or employees
may give rise to a constitutional violation, supporting
municipal liability, but where no individual’s actions
are sufficient to establish personal liability for the
violation.” Id. at 986; cf., Alexander v. City of South
Bend, 433 F.3d 550, 557 (7th Cir. 2006) (noting that a
municipality may not be held liable under Monell for
failure to supervise its police officers when the
plaintiff fails to demonstrate any constitutional
violation); Mendez v. Vill. of Tinley Park, No. 07 C
6498, 2008 WL 427791, at *2 (N.D. Ill. Feb. 14, 2008)
(“However, since the incident did not involve a
deprivation of a federally guaranteed right, the facts
do not support a Monell claim.”) (Leinenweber, J.)
(emphasis added).
Viewed in the light most favorable to the nonmovant—here, the City—the undisputed facts here
present no analogue to Fagan or Speer. First, if Kelly
culpably failed to secure his service weapon at his
home, then unlike in Fagan, he was not “following a
city policy reflecting the city policymakers’ deliberate
indifference to constitutional rights.” Fagan, 22 F.3d
at 1292. On the contrary, no one disputes that the City
de jure requires off-duty officers to secure their service
weapons. Second, even if the jury were to find that
Kelly failed to secure his service weapon pursuant to
some negligent non-enforcement of the City’s express
gun storage policy, there would still be no colorable
claim that this policy deprived LaPorta of a
substantive due process right. See, e.g., Lewis, 523
U.S. at 848-49 (“We have . . . rejected the lowest
common denominator of customary tort liability as
any mark of sufficiently shocking conduct, and have

App-135
held that the Constitution does not guarantee due care
on the part of state officials; liability for negligently
inflicted harm is categorically beneath the threshold
of constitutional due process.”) (citation omitted);
DeShaney v. Winnebago Cnty. Dep’t of Soc. Servs., 489
U.S. 189, 197 (1989) (“[A] State’s failure to protect an
individual against private violence simply does not
constitute a violation of the Due Process Clause.”).
Alas, the Supreme Court has “always been reluctant
to expand the concept of substantive due process
because the guideposts for responsible decisionmaking
in this uncharted area are scarce and open-ended.”
Collins v. Harker Heights, Tex., 503 U.S. 115, 125
(1992) (citation omitted). Third, whatever it
demonstrates about the City’s knowledge of Kelly’s
penchant for on-duty misconduct and off-duty
drunken violence, the record does not clearly establish
that the City was deliberately indifferent to the harm
that might befall suicidal persons with whom Kelly
came into contact. Board of Cnty. Comm’rs of Bryan
County, Okl. v. Brown, 520 U.S. 397, 410 (1997)
(“[D]eliberate indifference is a stringent standard of
fault, requiring proof that a municipal actor
disregarded a known or obvious consequence of his
action.”) (internal quotation marks omitted). Specific
to Kelly, Plaintiff has adduced no evidence that
anyone other than LaPorta and his mother knew of his
history of improperly leaving his service weapon at
bars or that any of his CRs prior to the LaPorta
shooting concerned improperly securing his firearm.
What is more, the Seventh Circuit has
distinguished Heller based on Speer in a fashion that
shows why Plaintiff is not entitled to summary
judgment. In Thomas v. Cook Cnty. Sheriff’s Dep’t, 604

App-136
F.3d 293 (7th Cir. 2010), the court rejected the
defendant’s argument that Heller precludes finding a
municipality liable under Monell where none of its
employees violated the plaintiff’s constitutional
rights. The court noted Heller’s absence of “any
affirmative defenses that the individual officer may
have asserted”:
The absence of these defenses is significant.
If, for instance, the officer had pled an
affirmative defense such as good faith, then
the jury might have found that the plaintiff’s
constitutional rights were indeed violated,
but that the officer could not be held liable. In
that case, one can still argue that the City’s
policies caused the harm, even if the officer
was not individually culpable. Without any
affirmative defenses, a verdict in favor of the
officer necessarily meant that the jury did not
believe the officer violated the plaintiff’s
constitutional rights. And since the City’s
liability was based on the officer’s actions, it
too was entitled to a verdict in its favor.
Id. at 304-05 (citation omitted). Hence the Seventh
Circuit’s holding in Thomas that “the jury could have
found that the CMTs were not deliberately indifferent
to Smith’s medical needs, but simply could not respond
adequately because of the well-documented
breakdowns in the County’s policies for retrieving
medical request forms.” Ibid. Irrespective of any
municipal employee’s conduct, the plaintiff in Thomas
still suffered a cognizable deprivation of his
substantive due process rights at the hands of the
challenged City policy. Yet these two facets of Thomas

App-137
do not obtain in this case. As explained above, absent
being shot by Kelly, LaPorta was not deprived of his
right to bodily integrity merely because shortcomings
in the City’s enforcement of its gun storage policy may
have enabled him to access Kelly’s service weapon
more readily. And if Kelly did pull the trigger, then he
could have no recourse to the kind of good faith or
qualified immunity defenses that would otherwise
suspend Heller’s operation.
Even holding all this in abeyance, there remains
at the very least a substantial question whether the
City’s challenged policies were the “moving force”
behind any purported constitutional violation. Such
questions of proximate causation are best left to the
jury outside of extreme cases lacking any quantum of
causation evidence. Thomas, 604 F.3d at 303 (“[T]he
jury must make a factual determination as to whether
the evidence demonstrates that the [City] had a
widespread practice that [caused] the alleged
constitutional harm.”).
Because the City can be liable only if it or Kelly
violated one of LaPorta’s constitutionally guaranteed
rights—and the undisputed facts in the record do not
establish that LaPorta suffered deprivation of a
constitutional right—Plaintiff is not entitled to
judgment as a matter of law on any of his Monell
claims. Thus, Plaintiff’s Motion for Partial Summary
Judgment is denied.

App-138
B. The City’s Motion for Summary Judgment
1.

The Federal Section 1983
(Counts III through VIII)
a.

Claims

The Monell Claims (Counts IV
through VIII)

As stated above, Plaintiff challenges CPD’s code
of silence and its failure to investigate officer
misconduct and impose appropriate discipline as
pervasive de facto policies, practices, or customs that
encouraged and emboldened Kelly to continue
committing off-duty violence against people close to
him. Plaintiff factors heavily in the causation calculus
Kelly’s incident of domestic violence against Fran
Brogan; because this alone furnished grounds for
criminally prosecuting or at the very least firing Kelly,
Plaintiff claims, Kelly would not have had his service
weapon on the night in question.
The City parries the lunge of Plaintiff’s Monell
claims with a mélange of arguments. The City
contends that LaPorta suffered no deprivation of a due
process right because, regardless of who shot LaPorta,
Kelly was not acting under color of law and there is no
duty to protect citizens from private violence. The City
also argues that Plaintiff fails to adduce evidence
sufficient to show the existence of the policies,
practices, or customs in question—namely, the code of
silence and the lack of sufficient supervisory and
disciplinary measures. Next, according to the City,
Plaintiff fails to show that the City acted with
deliberate indifference, as required for Plaintiff to
make out a prima facie case on his failure-to-discipline
Monell claim. Finally, the City argues that no
reasonable jury could find that any of its policies,

App-139
practices, or customs proximately caused LaPorta’s
injuries.
I. Constitutional deprivation
The City first levels a challenge to Plaintiff’s
showing of a constitutional deprivation. Per the
Court’s earlier analysis, the summary judgment
record only permits imposing liability on the City if
Kelly shot LaPorta; a non-detained individual’s selfharm is not an actionable constitutional harm. The
City repeatedly maintains that the identity of
LaPorta’s shooter is not a material fact because, even
if it was Kelly, he was not acting under color of law at
the time, a requirement of § 1983. Because Kelly was
thus a private citizen, the City claims, it had no
affirmative duty to protect LaPorta from Kelly’s acts
under DeShaney.
The City’s color-of-law argument dies a swift
death at the hands of Gibson v. City of Chicago, 910
F.2d 1510, 1519 (7th Cir. 1990). In that § 1983 action,
the Seventh Circuit found that a police officer on
medical leave as mentally unfit for duty and in receipt
of a specific order to cease using police powers was not
acting under color of law when he shot the victim. It
nonetheless held that the City was not entitled to
summary judgment because it was the City’s policy of
allowing the deranged police officer to retain his
service revolver and bullets that the plaintiff
challenged under Monell. See, id. at 1517-20 (“Gibson
contends that the City’s policy of allowing a deranged
police officer to retain his service revolver and bullets
is the state action that deprived him of his life.
Consequently, the City is not entitled to summary
judgment on the ground that [the officer] did not act

App-140
under color of state law.”) As the Seventh Circuit
noted, the officer need not have been acting under
color of law at the time of the accident because, in this
flavor of Monell, the “municipality itself is the state
actor and its action in maintaining the alleged policy
at issue supplies the ‘color of law’ requirement under
§ 1983.” Id. at 1519.
The City characterizes Gibson as either bad law
or factually distinguishable from the case at bar. (See,
Def.’s Mem. at 10-13 (arguing that “Gibson is a
derelict in the stream of the law” (internal quotation
marks omitted)).). But all the salient data points plot
a course consistent with Gibson, declining to impose a
color-of-law requirement where the municipal policy
under which the official proceeded is alleged to have
itself caused the injury. See, e.g., Cazares v. Frugoli,
No. 13 C 5626, 2017 WL 1196978, at *13-14 (N.D. Ill.
Mar. 31, 2017) (holding that Gibson precluded any
color-of-law escape hatch where plaintiff claimed
under Monell that the City’s code of silence and failure
to investigate and impose discipline for officer
misconduct emboldened an off-duty officer to drive
drunk in his personal car, thereby causing the injuries
of victims whom he struck and killed); Almaguer v.
Cook Cnty., No. 08 C 587, 2012 WL 4498097, at *6
(N.D. Ill. Sept. 27, 2012) (“A conclusion that an
individual state employee did not act under color of
state law does not allow for summary judgment on a
municipal liability claim.”), on reconsideration in part,
No. 08 C 587, 2013 WL 388992 (N.D. Ill. Jan. 31,
2013), aff’d sub nom. Wilson v. Cook Cnty., 742 F.3d
775 (7th Cir. 2014); Obrycka v. City of Chicago, No. 07
C 2372, 2012 WL 601810, at *6 (N.D. Ill. Feb. 23, 2012)
(holding that, in a Monell claim, “the municipality

App-141
itself is the state actor and its action in maintaining
the alleged policy at issue supplies the ‘color of law’
requirement under § 1983.”) (citing Gibson, 910 F.2d
at 1519-20); Garcia, 2003 WL 1845397, at *2 (same).
In the same vein, the City’s invocation of
DeShaney for the principle that it had no duty to
protect LaPorta from purely private violence
misconstrues Plaintiff’s Monell claim. “DeShaney is
not the appropriate legal framework with which to
analyze Plaintiffs’ Monell claims, which allege that
the City’s policies caused the harm.” Cazares, 2017
WL 1196978, at *14-15; see also, Rossi, 790 F.3d at
734, 737 (declining to evaluate under DeShaney
plaintiff’s Monell claims that CPD’s code of silence
“shields police officers from investigation and
promotes a culture of misconduct among police that
contributed to his assault”); Obrycka, 2012 WL
601810, at *6 (examining plaintiff’s claims that CPD’s
code of silence caused her constitutional deprivation
“under the Monell framework and not DeShaney”).
While DeShaney may retain force on the City’s version
of the disputed facts, in which LaPorta attempted to
commit suicide by shooting himself with Kelly’s gun,
this is not the litmus test for summary judgment to
the City.
Wilson-Trattner v. Campbell, 863 F.3d 589 (7th
Cir. 2017), is not to the contrary. There, the Seventh
Circuit upheld the district court’s grant of summary
judgment to individual officers on the plaintiff’s
substantive due process claim under the DeShaney
framework. But that case is distinguishable both
legally and factually. The court there never once
mentioned “Monell” liability or the plaintiff’s claims

App-142
against the officers’ police departments; this is
because the district court was presented only with the
summary judgment motions of the individual officers.
Factually, too, Wilson-Trattner does not control here;
there, the plaintiff challenged the adequacy of
defendants’ response to her repeated complaints of
domestic abuse at the hands of an off-duty police
officer. As the Court more fully explores in
adjudicating Plaintiff’s state-law claims, this case
does not involve the structural adequacy of police
responses to emergencies. (See, Section III.B.2, infra.)
Thus, the Court does not analyze Plaintiff’s
Monell claims under DeShaney’s state-created danger
exception. Instead, to establish liability against the
City, Plaintiff need only show that LaPorta suffered a
deprivation of a constitutional right, the “moving
force” behind which was the challenged City policy,
practice, or custom. Teesdale v. City of Chicago, 690
F.3d 829, 833 (7th Cir. 2012) (quotation omitted).
Because whether LaPorta’s substantive due process
right to bodily integrity was violated is thus a disputed
issue of material fact precluding summary judgment,
the Court next turns to the City’s arguments
concerning the policies themselves and proximate
causation.
II. Widespread customs, policies, or practices
Plaintiff attempts to establish his Monell claims
by presenting evidence that the City has a wellsettled, widespread practice or custom of impeding or
interfering with police misconduct investigations and
that an attendant code of silence pervades CPD
whereby officers conceal each other’s misconduct in
contravention of their sworn duties. Plaintiff submits

App-143
that the de facto policies and code of silence trace to
CPD’s and the City’s failures to investigate allegations
of police misconduct, to maintain an early warning
system, to enforce regulations against its own officers
related to assaulting citizens and being intoxicated, to
accept citizen complaints against police officers more
readily, to interview suspected officers promptly or
take witness statements and preserve evidence, and to
discipline officers adequately. According to Plaintiff,
many of these failures are exacerbated by or
attributable to provisions of the operative CBA
between the City Council and the Fraternal Order of
Police that require, for example, a sworn affidavit of
the complainant for CR investigations to proceed and
removal of sustained complaints of misconduct from a
CPD officer’s records if they are accompanied by no
disciplinary action.
The City, however, contends that there is no
genuine issue of material fact as to whether it had a
widespread custom, policy, or practice of failing to
investigate and discipline officers or a code of silence.
It claims that Plaintiff has not shown the code of
silence at work during the investigation of the LaPorta
shooting, in other complaints against Kelly, or in other
facets of CPD’s operation.
Viewing the facts and the inferences therefrom in
the light most favorable to Plaintiff (the non-movant),
the Court first finds that the aftermath of the LaPorta
shooting supports a reasonable inference that CPD
officers engaged in the code of silence when
interacting with Kelly. For example, Plaintiff has
adduced evidence that Kelly should have been charged
with aggravated assault and resisting arrest for his

App-144
actions associated with Sergeant Kielbasa. There is
also disputed evidence that Kelly placed several calls
after the shooting to individuals variously connected
with law enforcement and CPD, leading to the
presence and intercession of some of these individuals
on the scene. See, e.g., Obrycka, 2012 WL 601910, at
*8 (“Moreover, other evidence in the record supports
Obrycka’s code of silence theory, including the fact
that after [the officer] punched and kicked Obrycka
and realized that his conduct was videotaped, [the
officer] and his partner made dozens of telephone calls
to each other and other Chicago police officers,
including police detectives.”) Plaintiff also adduced
evidence that Kelly’s conduct at the police station
prior to administration of the gunshot residue test—
particularly, his urinating in the detention room—
would have been viewed with far greater scrutiny had
Kelly not been a CPD officer. Another salient piece of
evidence is the repeated overtures by CPD officers to
LaPorta’s friend, Matthew Remegi, in an attempt to
elicit his statement that LaPorta was suicidal. Finally,
it is undisputed that Kelly was not breathalyzed until
approximately eight hours after the incident took
place—and over six hours after Kelly was taken to the
police station. Plaintiff offers expert testimony that
these and other investigative shortcomings attending
the LaPorta shooting violated the protocol that
otherwise would have applied to civilians and
constituted manifestations of a code of silence. This
panoply of evidence suffices to create a jury question
on whether the code of silence was at work during the
investigation into the LaPorta shooting.
With respect to investigation and disposition of
Kelly’s other CRs, Plaintiff has again offered evidence

App-145
sufficient to create a genuine dispute of material fact
as to whether CPD’s challenged policies were at work.
Apart from expert testimony directed to the adequacy
of these investigations, there is undisputed factual
evidence that an independent OPS investigator and
his supervisor determined that Kelly’s statements
with respect to the Fran Brogan CR lacked credibility
and recommended that the CR be sustained against
Kelly. Yet this recommendation was summarily
overturned, and OPS’s Tia Morris could provide no
concrete rationale for doing so. That none of Kelly’s 18
or 19 CRs incurred prior to the LaPorta incident
resulted in a sustained finding is further evidence
from which a reasonable juror could infer that Kelly
was reaping the benefits of the code of silence even
before the LaPorta shooting. See, e.g., Beck v. City of
Pittsburgh, 89 F.3d 966, 970 (3d Cir. 1996) (“None of
the . . . complaints was sustained and none of them
resulted in discipline. None of these dispositions was
overruled by the Chief of Police or his assistant.”);
Cazares, 2017 WL 1196978, at *18 (finding that
evidence of benefiting from the code of silence included
CPD’s failure to investigate two specific off-duty
accidents “and the fact that [the officer] was the
subject of 18 CRs . . . none of [which] were sustained”).
Finally, and contrary to the City’s argument,
Plaintiff has adduced evidence sufficient to create a
jury question as to whether there is a code of silence
writ large shielding officers other than Kelly and
adversely affecting others besides LaPorta. In the
Seventh Circuit, while “there is no clear consensus as
to how frequently [a practice] must occur to impose
Monell liability,” there must be sufficient evidence
“that there is a policy at issue rather than a random

App-146
event.” Thomas, 604 F.3d at 303. The City’s main
argument is that, absent hearsay evidence
inadmissible at trial, Plaintiff brings evidence only
specific to LaPorta’s experience. This is flatly
incorrect. Whereas the Mayor’s statements and the
contents of the City-commissioned PATF report
constitute admissions of a party opponent under FED.
R. EVID. 801(d)(2)(D), see, Nekolny v. Painter, 653 F.2d
1164, 1171 (7th Cir. 1981) (requiring only that the
statement “concern a matter within the scope of
agency or employment”); Sadrud-Din v. City of
Chicago, 883 F.Supp. 270, 273-74 (N.D. Ill. 1995)
(finding statements of non-party police officers in
newspaper reporter’s notes and published article
admissible as statements of party opponents), hearsay
contents of the PATF and DOJ reports are admissible
as “factual findings from a legally authorized
investigation.” FED. R. EVID. 803(8)(A)(iii); see, e.g.,
Daniel v. Cook County, 833 F.3d 728, 740-42 (7th Cir.
2016) (“As noted above, a plaintiff cannot ultimately
prove a Monell claim based on only his own case or
even a handful of others. . . . Yet such systemic failings
are exactly what the Department of Justice experts
were looking for and found in Cook County.”); Dixon v.
Cnty. of Cook, 819 F.3d 343, 349 (7th Cir. 2016)
(reversing grant of summary judgment to Cook
County because, based on a DOJ report, “a reasonable
jury could find that pervasive systematic deficiencies
in the detention center’s healthcare system were the
moving force behind Dixon’s injury”); Martinez v. Cook
County, 2012 WL 6186601, at *4 n.7 (N.D. Ill. Dec. 12,
2012) (“[C]ourts have found Department of Justice
letters of this exact type, when relevant, admissible
under Federal Rule of Evidence 803(8).”) (collecting

App-147
cases). As in Cazares, “the Mayor’s acknowledgment of
a code of silence, along with the findings of the City’s
Police Accountability Task Force and the DOJ’s
report, provide further, significant evidence regarding
the existence of a code of silence within the CPD.”
Cazares, 2017 WL 1196978, at *18.
To the City’s various “deliberate indifference”
arguments for summary judgment based on Moore v.
City of Chicago, No. 02 C 5130, 2007 WL 3037121
(N.D. Ill. Oct. 15, 2007), in which the court granted
summary judgment to the City in large part based on
the City’s efforts to address insufficient disciplinary
procedures, the Court responds that subsequent cases
have declined to follow Moore in the presence of
evidence that such efforts amounted to mere “lip
service” to an acknowledged oversight problem. See,
Johnson v. City of Chicago, No. 05 C 6545, 2009 WL
1657547, at *9-10 (N.D. Ill. June 9, 2009) (finding that
the plaintiff adduced sufficient evidence “to suggest
that the City’s efforts are merely cosmetic and not
truly intended to address the alleged widespread
practice of failing to investigate and discipline rogue
police officers”); Arias v. Allegretti, No. 05 C 5940,
2008 WL 191185, at *3-4 (N.D. Ill. Jan. 22, 2008)
(same). Plaintiff has adduced comparable evidence
that the City knew its steps to address the code of
silence had been widely ignored, ineffectual, or
unimplemented. For example, according to CPD’s own
statistics, with the change from OPS to IPRA in 2007
came a decrease in the number of sustained findings
against CPD officers. Similarly, key personnel tasked
with administering the City’s claimed early warning
system testified that they had received no training on

App-148
how to identify problematic patterns of behavior
among officers.
Nor is the City immunized by Kelly’s referral for
a fitness-for-duty evaluation at some point after the
off-duty CRs or the fact that his CRs were disposed of
as unfounded, not sustained, or lacking an affidavit.
See, e.g., Vann v. City of N.Y., 72 F.3d 1040, 1049 (2d
Cir. 1995) (“[D]eliberate indifference may be inferred
if the complaints are followed by no meaningful
attempt on the part of the municipality to investigate
or to forestall further incidents.”); id. at 1050 (“[A]fter
a problem officer was restored to full-duty status, the
Department’s supervisory units paid virtually no
attention to the filing of new complaints against such
officers even though such filings should have been redflag warnings of possibly renewed and future
misconduct.”) As the Vann court held, any “contention
that the Department’s treatment of all three
postreinstatement complaints against [the officer] did
not bespeak indifference because the complaints were
‘unsubstantiated’ is a matter for argument to the
jury.” Ibid. To the extent Plaintiff is required to show
the City’s deliberate indifference with respect to
CPD’s investigating, supervising, and disciplining its
officers, he survives summary judgment on the issue
by introducing a plethora of statistical evidence,
public statements and/or testimony of CPD and City
officials, expert analyses, and governmental reports
evincing the City Council’s knowledge of the
constitutional violations attending the City’s de facto
policies and CPD’s code of silence. See, e.g., Quade v.
Kaplan, No. 06 C 1505, 2008 WL 905187, at *18 (“A
custom of failing to discipline police officers can be
shown to be deliberately indifferent if the need for

App-149
further discipline is so obvious and disciplinary
procedures so inadequate as to be likely to result in
the violation of constitutional rights that a jury could
attribute to the policymakers a deliberate indifference
to the need to discipline the police force.”) (internal
quotation marks and citation omitted); see also,
Sornberger v. City of Knoxville, Ill., 434 F.3d 1006 (7th
Cir. 2006) (noting that a plaintiff may prove deliberate
indifference by showing “failure to act in response to
repeated complaints of constitutional violations by its
officers”) (citations omitted); cf., Green v. City of
Chicago, No. 11 C 7067, 2015 WL 2194174, at *8 (N.D.
Ill. May 7, 2015) (“Plaintiffs cannot prove that the
City’s final policymakers acted with ‘deliberate
indifference’ or turned a blind eye to a pattern of
violations when the Plaintiffs have offered no evidence
to show that the final policymakers had reason to be
aware that the policies or practices posed any risks.”)
(citation omitted).
In any event, the Court doubts whether the
concept of deliberate indifference has much purchase
where, as here, the plaintiff does not attack a facially
lawful policy or municipal action but instead alleges
unlawful, de facto policies of impeding and interfering
with police misconduct investigations. See, Obrycka,
2012 WL 601810, at *9-10. Rather than deliberate
indifference, the degree of fault in such scenarios is
better defined with reference to the “state of mind
required to prove the underlying violation.” Bryan
Cnty., 520 U.S. at 407-08. Because Plaintiff has
coupled Monell allegations with invocation of
LaPorta’s fundamental liberty interest in bodily
integrity, recovery on substantive due process grounds
depends on whether the municipality “exercised its

App-150
power without reasonable justification in a manner
that ‘shocks the conscience.’” Bettendorf v. St. Croix
Cnty., 631 F.3d 421, 426 (7th Cir. 2011). Plaintiff
easily clears this hurdle by presenting evidence of
widespread policies and a code of silence “that allow
for police misconduct and brutality without the fear of
repercussions, thus affording ‘brutality the cloak of
law.’” Obrycka, 2012 WL 601810, at *10 (citing Rochin
v. California, 342 U.S. 165, 173 (1952)). Thus, Plaintiff
has raised a genuine issue of material fact regarding
the culpability requirement—namely, that the City’s
policies and code of silence “shock the conscience”
because they are “intended to injure in some way
unjustifiable by any government interest.” Lewis, 523
U.S. at 849.
Taken in the light most favorable to Plaintiff, the
factual record creates a genuine dispute of material
fact as to the existence of a pervasive code of silence
within CPD and other de facto policies that would lead
Kelly to believe he could inflict alcohol-fueled violence
with impunity in his personal life.
III. Causation
Plaintiff’s argument for proximate causation is
bipartite. First, Plaintiff claims that the City’s de facto
policies and code of silence emboldened Kelly to
continue committing off-duty acts of alcohol-fueled
violence, proximately causing him to drink to excess
and shoot LaPorta with his service weapon. Second,
Plaintiff claims that, had the City properly disciplined
Kelly for his infractions—particularly the domestic
violence incident with Fran Brogan—he would not
have had access to his service weapon because he
would have at least been fired and, if convicted

App-151
criminally, ineligible under federal law even to carry
a firearm. (In 1996, the Lautenberg Amendment
established specific elements that would bar
possession of firearms and ammunition for anyone
convicted of a domestic violence-related crime. 18
U.S.C. § 922(g)(9). The law provides no exception for
law enforcement officers.)
The City, on the other hand, maintains that
Plaintiff’s Monell claims are improper attempts to
hold it vicariously liable for Kelly’s private acts and
that Plaintiff’s assertions of how the City’s de facto
policies and code of silence proximately caused his
injury are speculative. The City places particular
emphasis on the fact that Kelly owned his service
weapon outright, the inference being that even Kelly’s
termination from CPD would not have changed the
fact that he would nonetheless have still possessed the
same gun used to shoot Kelly on the night in question.
The critical question is whether the City’s de facto
policies—with CPD’s attendant code of silence—were
the “moving force” behind Kelly’s actions such that
execution of the policies “inflicts the injuries that the
government as an entity is responsible [for] under
§ 1983.” Estate of Novack ex rel. Turbin v. Cnty. of
Wood, 226 F.3d 525, 531 (7th Cir. 2000) (quotation
omitted). There must be a “direct causal link” between
the alleged policy or practice and the constitutional
violation. Obrycka, 2012 WL 601810, at *9. “As long as
the causal link is not too tenuous, the question
whether the municipal policy or custom proximately
caused the constitutional infringement should be left
to the jury.” Bielevicz v. Dubinon, 915 F.2d 845, 851
(3d Cir. 1990).

App-152
Viewing the evidence in the light most favorable
to Plaintiff, the Court concludes that a reasonable jury
could find that Kelly’s off-duty decisions to drink to
excess and shoot LaPorta with his service weapon
were caused by a belief that he was impervious to
consequences due to CPD’s administrative lapses and
willingness to tolerate a code of silence. This is so
despite the fact that Kelly’s prior CRs did not involve
use of a gun to injure others. In fact, there is a much
closer nexus here—between LaPorta’s injury and
Kelly’s CRs for on-duty excessive force and off-duty
drunken violence—than in other cases where the City
was nonetheless denied summary judgment. See, e.g.,
Cazares, 2017 WL 1196978 (“Before the fatal accident,
[the officer] had been the subject of numerous citizen
complaints, none of which were sustained or resulted
in discipline. Although none of these allegations
related to [the officer’s] use of alcohol, a reasonable
jury could infer that the lack of investigation or
discipline resulting from these official investigations
led [the officer] to believe that he was immune from
discipline for any of his actions, on or off-duty.”).
Indeed, “a reasonable fact-finder, viewing the facts in
the light most favorable to Plaintiff[], could very well
believe that [Kelly] routinely engaged in violent and
dangerous ‘off-duty’ conduct, in particular while
drinking and dealing with situations involving his
family” and/or close friends. Panas v. City of
Philadelphia, 871 F.Supp.2d 370, 379 (E.D. Pa. 2012);
see also, Bielevicz, 915 F.2d at 851-52 (“[I]t is logical to
assume that continued official tolerance of repeated
misconduct facilitates similar unlawful actions in the
future.”). Thus, a fact-finder could reasonably infer
that the pervasive tolerance of and lack of

App-153
accountability for Kelly’s behavior emboldened him to
continue misbehaving throughout his tenure as a
police officer. See, e.g., Brandon v. Holt, 469 U.S. 464,
467 (1985) (upholding judgment against municipality
under § 1983 where plaintiffs alleged that they were
attacked by officer whose dangerous propensities were
well-known within his precinct and deficient
procedures for discovering officer misconduct
prevented police chief from learning of officer’s past
violent behavior). Like the off-duty officer in Cazares,
a jury could reasonably infer that Kelly felt
emboldened and able to act with impunity after 19
separate allegations of misconduct, including two for
the alcohol-induced batteries of his then-live-in
girlfriend and her brother, respectively, resulted in no
sustained CRs, no behavioral intervention or
modification, and no civil or administrative sanction.
Similarly, there is a material dispute of fact
concerning whether Kelly would not have possessed
his service weapon had he been discharged from
employment with CPD as a result of his many on- and
off-duty infractions or criminally prosecuted as a
result of the domestic violence incident with Fran
Brogan. The City protests that it is speculation to
assume that a criminal investigation of Kelly’s
domestic battery of Fran Brogan—as opposed to an
administrative finding sustaining the CR—would
have ensued absent the City’s de facto policies and
code of silence. The City then points to evidence that
there is no set protocol for handling CPD officers
administratively found to have committed domestic
violence. Yet what defeats summary judgment is
precisely this indeterminacy—along with the woefully
underdeveloped nature of the factual record on the

App-154
issue of what confiscation protocols the City follows
vis-à-vis a discharged CPD officer’s service weapon
and/or ammunition. Left for the trier of fact is the
potential applicability of the Cazares court’s
proximate cause analysis: when coupled with other
facts suggesting application of the code of silence to an
officer’s past behavior, that “the law regarding DUI in
Illinois [] would have suspended his driver’s license if
the Chicago police officers” had dealt with the officer
as the plaintiff urged made it “even more likely” that
the City’s de facto policies and code of silence caused
the plaintiffs’ injuries. Cazares, 2017 WL 1196978, at
*19. Here, Plaintiff presses that, had the Fran Brogan
CR been properly investigated or resulted in criminal
prosecution of Kelly, police regulations or federal law,
respectively, would have prevented Kelly from
accessing his service weapon on the night in question.
The Court acknowledges the lack of any
substantive due process right to have someone else
prosecuted. See, e.g., Town of Castle Rock, Colo. v.
Gonzales, 545 U.S. 748, 768 (2005) (“[T]he benefit that
a third party may receive from having someone else
arrested for a crime generally does not trigger
protections under the Due Process Clause, neither in
its
procedural
nor
in
its
‘substantive’
manifestations.”). But Plaintiff’s claim is not that the
City’s failure to prosecute Kelly itself deprived him of
constitutional rights. His (actionable) claim is that
Kelly’s deprivation of his constitutional rights was
caused by the City’s de facto policies and code of
silence, perhaps the most crucial manifestation of
which was the City’s failure to at least find Kelly
administratively culpable for the battery and
potentially to prosecute him criminally. Consequently,

App-155
there remains a genuine dispute of material fact
whether applicable regulations or federal law would
have prohibited Kelly from possessing a firearm at the
time of the LaPorta shooting if he “was an average
citizen, not protected by the code of silence.” Cazares,
2017 WL 1196978, at *16.
The City cites Othman v. City of Chicago, 2014
WL 6566357 (N.D. Ill. Nov. 20, 2014), to argue that
Kelly’s ownership of his service weapon scuttles
Plaintiff’s prima facie causation showing. Although
the court in Othman did mention that the defendant
officer owned the firearm used to shoot the plaintiff,
this was only one of a multitude of facts that undercut
the tenability of the causal chain. See, Othman, 2014
WL 6566357, at *7-9 (granting summary judgment to
the City on plaintiff’s Monell claim where the City had
neither reason to know of constitutionally deficient
practices nor authority to retrieve the defendant
officer’s weapon from him while he was merely on
medical leave, and plaintiff argued that “the 14 shots
fired by [the defendant officer] constitute a ‘series of
bad acts’ that provided the City’s final policymakers
with notice of the purported constitutional violations”)
(emphasis added). Clearly, the only commonality
between Othman and this case is the (alleged)
shooter’s ownership of his service weapon. That does
not suffice to take the proximate cause inquiry into the
realm of “extreme circumstances” and out of the hands
of the jury, where it belongs. See, e.g., Gayton v.
McCoy, 593 F.3d 610, 624 (7th Cir. 2010) (“While
generally the issue of proximate cause is a jury
question, in extreme circumstances . . . the question of
proximate cause is an issue of law properly resolved
by a court.”). The causation question is the bailiwick

App-156
of the jury where, “as in Gibson, the City ‘affirmatively
trained and outfitted one of its employees with the
means to exercise deadly force, yet failed to recover
that equipment from its employee even after it
[allegedly knew] that the employee was unfit to
exercise police authority.’” Sadrud-Din v. City of
Chicago, 883 F.Supp. 270, 278 (N.D. Ill. 1995)
(citations omitted).
***
Therefore, genuine disputes of material fact
foreclose the City’s entitlement to summary judgment
on Plaintiff’s Monell claims. Accordingly, the Court
denies the City’s Motion for Summary Judgment in
relevant part.
b.

Denial of Right to Judicial Access
(Count III)

Plaintiff in Count III alleges that the City’s
defense of this lawsuit and general foot-dragging in
disclosing Kelly’s files and CR records were calculated
to cover up or shield it from liability, thereby depriving
Plaintiff of access to the courts. The relief Plaintiff
seeks on this claim mirrors that for which he prays
under each of the five Monell claims. (Compare, ECF
No. 220 (“7AC”) at Count III, with, id. at Counts IVVIII.) To sustain this cause of action, Plaintiff’s
operative Complaint points to two buckets of
information that the City failed timely to disclose.
First, although Plaintiff knew soon after
initiating his 2010 state court lawsuit that repeated
complaints had been filed against Kelly, it was only
after Kalven v. City of Chicago, 7 N.E.3d 741 (Ill. App.
2014), which established the necessity of disclosing
such information in response to Freedom of

App-157
Information Act requests, that Plaintiff learned of the
City’s widespread policy of condoning such
misconduct. Plaintiff then added the City as a
defendant in the state court action, and the City
removed the case to this Court on December 3, 2014.
Second,
Plaintiff’s
operative
complaint
characterizes five efforts by the City to “conceal,
suppress, and/or stall its investigation into the
[LaPorta shooting], as well as conceal, suppress,
and/or stall its findings from that investigation,
forcing Plaintiff to repeatedly file Motions to Compel
Evidence and Motions for Sanctions.” (7AC ¶ 158.)
According to Plaintiff, the City knowingly failed “to
seasonably update discovery to disclose ongoing CRs
against Kelly”; in addition, the City knowingly failed
“to disclose to Plaintiff a 2014 officer-involved shooting
by Kelly, which Plaintiff did not discover until June
25, 2016, resulting in a belated FOIA request to the
Chicago Police Department and the City of Chicago”;
third, the City knowingly failed “to disclose at least 9
additional known CRs registered against Kelly prior
to” the LaPorta shooting; fourth, the City knowingly
failed to disclose “eight additional Summary
Punishment Action Request (‘SPAR’) files and
additional 8 IPRA log files, of which Plaintiff first
became aware in July 2016, more than six years into
the litigation”; and fifth, the City did not produce the
IPRA file regarding the shooting until two years after
IPRA had administratively closed the case. (Id. ¶ 159.)
Highlighting
the
City’s
statute-of-limitations
affirmative defense in its operative Answer, Plaintiff
notes the potential for prejudice if the Court or the
jury finds that the Monell claims are time-barred.
(See, id. ¶ 163.)

App-158
The City responds that Plaintiff cannot sustain a
right-of-access claim because Plaintiff has no proof of
harm, “which can only come from a dispositive ruling
on the antecedent cause of action.” (ECF No. 241
(“Def.’s Mem.”) at 40.) Grounding this argument is the
requirement that the concealment of evidence was “to
some extent successful in that it prevented him from
pursuing his legal actions, contributed to the failure of
those actions, or reduced the value of his actions.”
Garcia, 2003 WL 1715621, at *9 (citing Vasquez v.
Hernandez, 60 F.3d 325, 328-29 (7th Cir. 1995)).
Failing evidence that its conduct reduced the value of
his legal actions or directly contributed to their
failure, the City urges, Plaintiff’s claim “is not even
ripe for adjudication because it has not yet even
accrued.” (Def.’s Mem. at 41.)
The First and Fourteenth Amendments protect
“the right of individuals to seek legal redress for
claims that have a reasonable basis in law.”
Christopher v. Harbury, 536 U.S. 403, 414-15 (2002).
Interference with the right of court access by state
agents who intentionally conceal the true facts about
a crime may be actionable as a deprivation of
constitutional rights under § 1983. Bounds v. Smith,
430 U.S. 817, 822 (1977). Cognizable access-to-courts
actions fall into two categories: (1) claims that official
action frustrates a plaintiff or plaintiff class “in
preparing and filing suits at the present time” and
that seek “to place the plaintiff in a position to pursue
a separate claim for relief once the frustrating
condition has been removed”; and (2) claims “not in aid
of a class of suits yet to be litigated, but of specific
cases that cannot now be tried (or tried with all

App-159
material evidence), no matter what official action may
be in the future.” Id. at 412-14.
This case does not implicate the first category, as
Plaintiff does not allege that the City’s obstruction is
frustrating his “preparing and filing suits at the
present time.” To be actionable, then, Plaintiff’s claim
must fall within the second category of cases in which
“[t]he official acts claimed to have denied access may
allegedly have caused the loss or inadequate
settlement of a meritorious case, the loss of an
opportunity to sue, or the loss of an opportunity to
seek some particular order of relief.” Christopher, 536
U.S. at 414 (internal citations omitted). These cases
“do not look forward to a class of future litigation, but
backward to a time when specific litigation ended
poorly, or could not have commenced, or could have
produced a remedy subsequently unobtainable.” Ibid.
And because such claims are brought to secure relief
“unobtainable in other suits, the remedy sought must
itself be identified to hedge against the risk that an
access claim be tried all the way through, only to find
that the court can award no remedy that the plaintiff
could not have been awarded on a presently existing
claim.” Id. at 416.
In this case, Plaintiff has offered no facts or
argument indicating that he lost a claim or accepted a
lowball settlement as a result of the City’s litigation
conduct and disclosure delays. See, Bell v. City of
Milwaukee, 746 F.2d 1205, 1262-65 (7th Cir. 1984),
overruled on other grounds, Russ v. Watts, 414 F.3d
783 (7th Cir. 2005). Nothing has yet ended “poorly” for
Plaintiff. Christopher, 536 U.S. at 414. And because
Plaintiff’s right-of-access action seeks the same relief

App-160
against the same defendant as do his Monell claims, it
does not appear viable at present. See, id. at 416 n.13
(noting that an underlying action may have “already
been tried to an inadequate result due to missing or
fabricated evidence in an official cover-up, or the claim
may still be timely and subject to trial, but for a
different remedy than the one sought under the access
claim, or against different defendants”) (emphasis
added) (citing Bell v. Milwaukee, 746 F.2d 1205, 1223
(7th Cir. 1984)). So if Plaintiff prevails on the legal
actions that he alleges were delayed and frustrated by
the City’s conduct, then the harm from that delay and
frustration can be redressed by inclusion of
appropriate interest in any damages computation, a
well-taken motion for sanctions, and an award of
attorneys’ fees under the fee-shifting mechanism
governing successful § 1983 claims. See, 42 U.S.C.
§ 1988(b). Only if Plaintiff loses on statute-oflimitations grounds will he have suffered anything
more than the sort of inconvenient delay that the
Seventh Circuit has found insufficient to constitute
actionable harm to a plaintiff’s right of access. See,
Vasquez v. Hernandez, 60 F.3d 325, 329 (7th Cir. 1995)
(finding no constitutional violation for denial of
judicial access where culpable police cover-up delayed
by six months plaintiff’s nonetheless timely lawsuit,
with eventual corrective measures and disclosure
providing information vital to plaintiff’s case).
Because it can only be determined whether the
City’s complained-of conduct “render[ed] hollow
[Plaintiff’s] right to seek redress” after adjudication of
the underlying claims, Vasquez, 60 F.3d at 328, the
Court hereby bifurcates trial into two phases such that
Plaintiff’s right-of-access claim can be tried once the

App-161
jury has returned a verdict for or against the City. See,
Lynch v. Barrett, 703 F.3d 1153, 1157 n.1 (10th Cir.
2013) (“Where a plaintiff prior to filing an underlying
claim knows of facts suggesting an evidentiary coverup by government officials, the underlying claim and
the denial-of-access claim generally should be joined
in the same action even if that requires bifurcated
trials.”) (emphasis added) (citing Christopher, 536
U.S. at 416); Gaffney v. Riverboat Servs. of Ind., Inc.,
451 F.3d 424, 442 (7th Cir. 2006) (“[B]ifurcation under
Rule 42(b) is appropriate where claims are factually
interlinked, such that a separate trial may be
appropriate, but final resolution of one claim affects
the resolution of the other.”) (citation omitted).
The Court accordingly denies summary judgment
to the City on Count III and instead bifurcates
Plaintiff’s right-of-access claim from the balance of the
trial.
2.

The State Law Claims (Counts I and IX)

Finally, Plaintiff asserts two claims under Illinois
law against the City. Count I alleges that the City
engaged in willful and wanton conduct when, with
knowledge of Kelly’s propensity for violence, it allowed
Kelly to carry his service weapon while off duty and
failed to train or supervise him regarding weapon
storage. Willful and wanton conduct is a strain of fault
that shares some commonalities with ordinary
negligence but is distinct in that it evinces “a course of
action that showed a deliberate intention to harm or
an utter indifference to or conscious disregard for the
plaintiff’s welfare.” Floyd v. Rockford Park Dist., 823
N.E.2d 1004, 1009 (Ill. App. 2005) (internal citations

App-162
omitted). The second state-law claim, Count IX,
alleges negligent retention and supervision of Kelly.
The City launches a dual attack on Plaintiff’s
state-law claims that it believes entitle it to summary
judgment even if Kelly shot LaPorta. First, the City
argues that there is no proximate causation. Second,
the City contends that it has immunity under various
provisions of Illinois’s Local Governmental and
Governmental Employees Tort Immunity Act, 745 Ill.
Comp. Stat. 10 et seq. (the “Act”). Because the
immunity analysis is persuasive, the Court need not
consider the issue of proximate causation.
The City argues that three separate provisions of
the Act immunize it from liability. First, the City
contends that section 2-109 grants it absolute
immunity from both Plaintiff’s ordinary negligence
and willful and wanton claims. Section 2-109 provides
that a “local public entity is not liable for an injury
resulting from an act or omission of its employee
where the employee is not liable.” 745 Ill. Comp. Stat.
10/2-109. But this section doesn’t advance the ball on
the City’s Motion for Summary Judgment because
there is a genuine dispute of material fact as to
whether Kelly shot LaPorta—and thus whether Kelly
committed a tort. That Plaintiff has already settled
with Kelly does not change the analysis, because “the
release of an individual defendant through settlement
does not automatically trigger a public entity’s
immunity under Section 2-109.” LaPorta, 102
F.Supp.3d at 1020 (citing Whitney v. City of Chicago,
508 N.E.2d 293, 297 (Ill. App. 1987) (allowing
negligent hiring claim to proceed even though
individual defendants had settled)).

App-163
Next, the City points to section 4-102, which
states that public entities are not liable “for failure to
provide adequate police protection or service, failure
to prevent the commission of crimes, failure to detect
or solve crimes, and failure to identify or apprehend
criminals.” Ill Comp. Stat. 10/4-102. This provision
mirrors the “public duty rule” under which a
municipality cannot be held liable for its failure to
provide routine governmental services, such as police
and fire protection, absent a special duty to a
particular individual. Harinek v. 161 N. Clark St. Ltd.
P’ship, 692 N.E.2d 1177, 1183 (Ill. 1998). But section
4-102 cannot ride to the City’s rescue here because
Plaintiff’s claim is not that the City breached its duty
to him by failing to provide adequate police protection.
See, e.g., Colon v. Town of Cicero, No. 12 C 5481, 2015
WL 9268208, at *2 (N.D. Ill. Dec. 21, 2015) (finding
that “plaintiff’s negligent hiring and supervision
claims do not arise from an alleged failure to provide
police protection” and so are not barred by § 4-102;
distinguishing cases to the contrary on the grounds
that they involved “the failure to investigate an
accident and the failure to report an arrest”). On the
contrary, Plaintiff’s claim is that the City breached its
duty by retaining an officer who posed a threat to the
public—a duty which exists independently of its duty
to furnish police protection. See, Bates v. Doria, 502
N.E.2d 454, 458 (Ill. App. 1986).
However, the City’s invocation of section 2-201 is
well taken. That section of the Act provides that “a
public employee serving in a position involving the
determination of policy or the exercise of discretion is
not liable for an injury resulting from his act or
omission in determining policy when acting in the

App-164
exercise of such discretion even though abused.” 745
Ill. Comp. Stat 10/2-201. While section 2-201 refers to
a public employee, local governments are also clothed
with immunity if their employees are not liable for the
injury resulting from their acts or omissions. See,
Arteman v. Clinton Comm. Unit Sch. Dist. No. 15, 763
N.E.2d 756, 762-63 (Ill. 2002) (“Because a local public
entity is not liable for an injury resulting from an act
or omission of its employees where the employee is not
liable, this broad discretionary immunity applies to
the entities themselves.”) (internal quotation marks
omitted) (citing 745 Ill. Comp. Stat. 10/2-109, 10/2201). The Illinois Supreme Court has interpreted
section 2-201 to require that the public employee’s
actions be “both a determination of policy and an
exercise of discretion” for immunity to attach. Van
Meter v. Darien Park Dist., 799 N.E.2d 273, 283 (Ill.
2003) (emphasis added) (internal citation marks and
citation omitted); accord, Harinek, 692 N.E.2d at 1181
(“The employee’s position . . . may be one which
involves either determining policy or exercising
discretion, but . . . the act or omission must be both a
determination of policy and an exercise of
discretion.”). Conduct may be a determination of
policy even if it does not occur at the planning level or
involve the formulation of principles to achieve a
common public benefit. Harrison v. Hardin Co. Comm.
Unit Sch. Dist. No. 1, 758 N.E.2d 848, 853 (Ill. 2001)
(characterizing actions towards one person as within
the ambit of policy determinations). By contrast,
section 2-201 does not cover the performance of
ministerial actions—that is, those acts performed on a
given state of facts in a prescribed manner, under the
mandate of legal authority, and without reference to

App-165
the official’s discretion regarding the propriety of the
act. See, In re Chicago Flood Litig., 680 N.E.2d 265,
272 (Ill. 1997) (holding that ministerial acts implicate
execution of set task that is “absolute, certain, and
imperative”); Snyder v. Curran T’ship, 657 N.E.2d
988, 989 (Ill. 1995).
Plaintiff claims that the challenged municipal
decisions to retain Kelly, allow him to carry his gun,
and to supervise him insufficiently were ministerial
functions—executed by rote adherence to a monolithic
code of silence with no room for deviation. The Court
first notes the cognitive dissonance required to claim,
with one breath, that CPD’s failure to discipline and
supervise police officers has erected a widespread
municipal policy actionable under Monell and, with
the other, to claim that deciding whether and whom to
discipline and supervise is not a policymaking
function. Perhaps Plaintiff would enjoy more state-law
slack if his Monell claims derived from an express City
Council policy by which officials and police agencies
act negligently, or with willful and wanton disregard
for rights, or strictly in keeping with the code of
silence. But that’s clearly irreconcilable with the
arguments in this case and common sense (i.e., the
definition of “negligent”). The second problem
confronting Plaintiff is that the mere presence of an
overarching schema or plan for hiring, supervising,
disciplining, or discharging employees does not render
such tasks ministerial. See, e.g., In re Chicago Flood
Litig., 680 N.E.2d at 273 (“We agree with the appellate
court that the City’s supervision of Great Lakes’ pile
driving [after approving the pile driving plan] was
discretionary rather than ministerial.”); Reed v. City
of Chicago, No. 01 C 7865, 2002 WL 406983, at *3

App-166
(N.D. Ill. Mar. 14, 2002) (“While there are most likely
guidelines in hiring, training and supervising
employees, all three acts still require discretion,
balancing of interests, and judgment calls.”); Johnson
v. Mers, 664 N.E.2d 668, 675 (Ill. App. 1996) (“While
[the municipality] did devise a hiring plan which
would include the application process, a polygraph
examination, psychological testing, physical testing,
and interviews, the decision to hire an officer
ultimately required the exercise of discretion.”). In any
event, the facts before the Court simply furnish no
basis for characterizing the challenged decisions,
either those at the highest level of the City Council or
CPD’s specific conduct with respect to Kelly, as those
whose execution was “absolute, certain, and
imperative,” “in obedience to legal authority and
without reference to the official’s discretion as to the
propriety of the act.” In re Chicago Flood Litig., 680
N.E.2d at 272; Snyder, 657 N.E.2d at 993.
Plaintiff offers no examples of other courts finding
on summary judgment that such decisions are
ministerial and beyond the reach of the Act’s
immunity. Although the Court acknowledges that
“more recent case law rejects” determining from the
allegations of the complaint whether a particular
municipal function implicates a determination of
policy and an exercise of discretion, this case is at the
summary judgment stage. Plaintiff’s admonitions to
avoid adjudicating “whether the complaint itself
establishes as a matter of law that statutory
immunity” applies are therefore immaterial here.
McDonald v. Camarillo, No. 10 C 1233, 2010 WL
4483314, at *2 (N.D. Ill. Nov. 1, 2010). Rather than
deciding immunity “on the basis of intuition,” the

App-167
Court has the “benefit” of boxes of exhibits concerning
investigations of and discipline for CPD officer
misconduct. Patton v. Chicago Heights, No. 09 C 5566,
2010 WL 1813478, at *3 (N.D. Ill. May 3, 2010).
Myriad cases decided on summary judgment
characterize municipal decisions regarding discipline,
supervision, and retention of an employee as
discretionary and indebted to policymaking. See, e.g.,
Mers, 664 N.E.2d at 675 (“The decision to hire or not
to hire a police officer is an inherently discretionary
act and, thus, is subject to the immunities contained
in the Immunity Act.”), cited with approval, Doe v.
Vill. of Arlington Hts., 782 F.3d 911, 922 (7th Cir.
2015); Brooks v. Daley, 29 N.E.3d 1108, 1116-17 (Ill.
App. 2015) (“Here, when Brooks was accused of sexual
harassment, defendants made a decision concerning
the effect that the allegations would have on efficacy
and harmony in the workplace. Such a judgment call
is both a policy determination and a discretionary
action, since the outcome is not predetermined but left
to defendants’ judgment.”); Albert v. Bd. of Educ. of
City of Chicago, 24 N.E.3d 28, 46 (Ill. App. 2014)
(affirming the lower court’s reasoning that “[t]he act
and omissions alleged on the part of the Board here
involve decisions with regard to administering
student discipline and punishment involve [sic] the
determination of policy and an exercise of discretion”
because the “Board had to balance competing interests
and make a judgment call, thus engaging in policy
determination”) (internal quotation marks omitted);
Hanania v. Loren-Maltese, 319 F.Supp.2d 814, 834-36
(N.D. Ill. 2004) (holding that the city of Cicero was
immune from liability for decisions to reduce the
powers of the town collector’s office and to fire its town

App-168
collector); Mann v. City of Chicago, 182 F.3d 922 (Tbl.)
(N.D. Ill. 1999) (affirming summary judgment on
immunity grounds in favor of defendants because
“Illinois appellate courts have held that the hiring and
firing of employees is inherently discretionary, within
the meaning of § 2-201 of the Tort Immunity Act”)
(citations omitted).
Because neither the facts nor the case law
supports characterizing the municipal decisions at
issue as ministerial, the City is entitled to judgment
as a matter of law that it enjoys section 2-201
immunity from Plaintiff’s state law claims. This
conclusion applies with equal force to Plaintiff’s
willful-and-wanton claim, because there is no
exception in section 2-201 for willful and wanton
conduct. See, e.g., In re Chicago Flood Litig., 680
N.E.2d at 273 (“The plain language of section 2-201 is
unambiguous. That provision does not contain an
immunity exception for willful and wanton
misconduct.”); Mers, 664 N.E.2d at 675 (“The absence
of language excepting wilful [sic] and wanton conduct
in sections 2-201 and 3-108, where such language is
contained in other sections, demonstrates that there is
no exception for wilful [sic] and wanton conduct
contained in sections 2-201 and 3-108.”); see also,
Hanania, 319 F.Supp.2d at 836 (finding no exception
in section 2-201 for actions performed with “corrupt or
malicious motives”) (citing Vill. of Bloomingdale v.
CDG Enters., Inc., 752 N.E.2d 1090, 1098 (Ill. 2001));
but see, Smith v. Waukegan Park Dist., 896 N.E.2d
232, (Ill. 2008) (“[W]e declare, under established
Illinois law, [that] public entities possess no
immunized discretion to discharge employees for
exercising their workers’ compensation rights.”).

App-169
As such, the Court grants summary judgment to
the City on Plaintiff’s state law claims (Counts I and
IX).
IV. CONCLUSION
For the reasons stated herein, Plaintiff’s Motion
for Partial Summary Judgment [ECF No. 238] is
denied, and Defendant City of Chicago’s Motion for
Summary Judgment [ECF No. 241] is granted in part
as to Counts I and IX but denied as to the remaining
counts.
Additionally, the Court bifurcates the trial so that
adjudication of Count III will commence only after the
jury returns a verdict on the other claims against the
City.
IT IS SO ORDERED.

Harry D. Leinenweber, Judge
United States District Court
Dated: September 29, 2017

App-170
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
No. 18-3049
________________
FIRST MIDWEST BANK, Guardian of the Estate of
Michael D. LaPorta, a disabled person,
v.

Plaintiff-Appellee,

CITY OF CHICAGO, a municipal corporation,
Defendant-Appellant.
________________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 14 C 9665 — Harry D. Leinenweber, Judge.
________________
April 14, 2021
ECF No. 72
________________
Before
Diane S. Sykes, Chief Judge
Michael S. Kanne, Circuit Judge.
________________
ORDER
On consideration of the petition for rehearing and
for rehearing en banc, no judge in active service
requested a vote on the petition for rehearing en banc, 1
Circuit Judge Ilana D. Rovner did not participate in the
consideration of this petition for rehearing.
1

App-171
and both judges on the original panel voted to deny
rehearing. It is therefore ordered that the petition for
rehearing and for rehearing en banc is DENIED.

